<html>
<title> - DEPARTMENT OF TRANSPORTATION AND RELATED AGENCIES APPROPRIATIONS FOR 2001</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



                    DEPARTMENT OF TRANSPORTATION AND

                    RELATED AGENCIES APPROPRIATIONS

                                FOR 2001

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION
                                ________

 SUBCOMMITTEE ON THE DEPARTMENT OF TRANSPORTATION AND RELATED AGENCIES 
                             APPROPRIATIONS

                    FRANK R. WOLF, Virginia, Chairman
 TOM DeLAY, Texas                   MARTIN OLAV SABO, Minnesota
 RALPH REGULA, Ohio                 JOHN W. OLVER, Massachusetts
 HAROLD ROGERS, Kentucky            ED PASTOR, Arizona
 RON PACKARD, California            CAROLYN C. KILPATRICK, Michigan
 SONNY CALLAHAN, Alabama            JOSE E. SERRANO, New York
 TODD TIAHRT, Kansas                MICHAEL P. FORBES, New York
 ROBERT B. ADERHOLT, Alabama        
 KAY GRANGER, Texas                 

 NOTE: Under Committee Rules, Mr. Young, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

 John T. Blazey II, Richard E. Efford, Stephanie K. Gupta, and Linda J. 
                        Muir, Subcommittee Staff
                                ________

                                 PART 7

                    TESTIMONY OF MEMBERS OF CONGRESS

                          AND PUBLIC WITNESSES

                              <snowflake>

                                ________

         Printed for the use of the Committee on Appropriations

                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
 64-091 O                   WASHINGTON : 2000

                       COMMITTEE ON APPROPRIATIONS

                   C. W. BILL YOUNG, Florida, Chairman

 RALPH REGULA, Ohio                  DAVID R. OBEY, Wisconsin
 JERRY LEWIS, California             JOHN P. MURTHA, Pennsylvania
 JOHN EDWARD PORTER, Illinois        NORMAN D. DICKS, Washington
 HAROLD ROGERS, Kentucky             MARTIN OLAV SABO, Minnesota
 JOE SKEEN, New Mexico               JULIAN C. DIXON, California
 FRANK R. WOLF, Virginia             STENY H. HOYER, Maryland
 TOM DeLAY, Texas                    ALAN B. MOLLOHAN, West Virginia
 JIM KOLBE, Arizona                  MARCY KAPTUR, Ohio
 RON PACKARD, California             NANCY PELOSI, California
 SONNY CALLAHAN, Alabama             PETER J. VISCLOSKY, Indiana
 JAMES T. WALSH, New York            NITA M. LOWEY, New York
 CHARLES H. TAYLOR, North Carolina   JOSE E. SERRANO, New York
 DAVID L. HOBSON, Ohio               ROSA L. DeLAURO, Connecticut
 ERNEST J. ISTOOK, Jr., Oklahoma     JAMES P. MORAN, Virginia
 HENRY BONILLA, Texas                JOHN W. OLVER, Massachusetts
 JOE KNOLLENBERG, Michigan           ED PASTOR, Arizona
 DAN MILLER, Florida                 CARRIE P. MEEK, Florida
 JAY DICKEY, Arkansas                DAVID E. PRICE, North Carolina
 JACK KINGSTON, Georgia              MICHAEL P. FORBES, New York
 RODNEY P. FRELINGHUYSEN, New Jersey CHET EDWARDS, Texas
 ROGER F. WICKER, Mississippi        ROBERT E. ``BUD'' CRAMER, Jr., 
 GEORGE R. NETHERCUTT, Jr.,          Alabama
Washington                           MAURICE D. HINCHEY, New York
 RANDY ``DUKE'' CUNNINGHAM,          LUCILLE ROYBAL-ALLARD, California
California                           SAM FARR, California
 TODD TIAHRT, Kansas                 JESSE L. JACKSON, Jr., Illinois
 ZACH WAMP, Tennessee                CAROLYN C. KILPATRICK, Michigan
 TOM LATHAM, Iowa                    ALLEN BOYD, Florida
 ANNE M. NORTHUP, Kentucky           
 ROBERT B. ADERHOLT, Alabama         
 JO ANN EMERSON, Missouri            
 JOHN E. SUNUNU, New Hampshire       
 KAY GRANGER, Texas                  
 JOHN E. PETERSON, Pennsylvania      
 VIRGIL H. GOODE, Jr., Virginia     


                 James W. Dyer, Clerk and Staff Director

                                  (ii)

 
 DEPARTMENT OF TRANSPORTATION AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  2001

                              ----------                              --
--------


 TESTIMONY OF MEMBERS OF CONGRESS AND OTHER INTERESTED INDIVIDUALS AND 
                             ORGANIZATIONS

                              ----------                              --
--------

                                       Thursday, February 10, 2000.

                  CITY OF VERO BEACH MUNICIPAL AIRPORT

                               WITNESSES

HON. DAVE WELDON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    FLORIDA
ARTHUR R. NEUBERGER, MAYOR, CITY OF VERO BEACH, FLORIDA

                            Opening Remarks

    Mr. Wolf. We are going to begin on time. I apologize if we 
cut anybody short. If everyone could keep their remarks to 5 
minutes because we have I think 93 witnesses today, and I think 
we are going to go straight through the lunch hour and into the 
evening, and also, people have planes to catch so we would ask 
that everyone keep to 5 minutes.
    The entire statement will be in the record as if read. And 
again I apologize. I don't like to cut anybody off at 5 
minutes; but in light of where we are and what the situation is 
and how many others we do not have if you could do that, I 
would appreciate it.
    Dave, we welcome you to come before the Committee. You can 
submit your statement and make any comments and introduce 
whoever.
    Mr. Weldon. Thank you, Mr. Chairman, and I want to thank 
you for the work you do in support of aviation needs in the 
United States and the work that you do in Congress. I plan on 
turning over the bulk of my 5 minutes to the mayor of Vero 
Beach, Mr. Art Neuberger, to talk about the issue at hand. 
Before I do that, I just want to make a couple of quick points.
    The air traffic control tower at the Vero Beach Municipal 
Airport has been recognized since 1988 as a need by the FAA and 
has repeatedly been bumped because of financial concerns within 
the agency. A combination of factors that coincides very nicely 
with some of the statements you made in a press conference last 
week, or press release, led me to come here and bring the mayor 
with me.
    We have increased traffic growth, line of sight problems, 
particularly runway incursion issues, as well as tower, 
structural and technical obsolescence problems. That tower 
cannot be renovated in its present location and its present 
height. It will not meet the needs. We need to relocate the 
tower, and we need to build a taller tower and that is why we 
are before you here today.
    All the tasks, including the engineering, designs, and site 
work have been completed. This airport has been recognized as 
the second busiest general aviation airport in the Nation, and 
it is ranked in the top fifteen percent. And so I would like to 
now turn it over to Art Neuberger, the mayor of Vero Beach. 
Thank you, Mr. Chairman.
    [The prepared statement of Dave Weldon follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Wolf. You can submit the whole statement and summarize 
or whatever you think is appropriate.
    Mr. Neuberger. I will submit the whole statement. I just 
have a little summary. I am Art Neuberger, mayor of the City of 
Vero Beach, Florida. And we are here to seek your help and the 
support of the Appropriations Committee for funding of the 
construction of this airport tower.
    This is the single most important safety enhancement that 
can be made at our airport for the next 20 years, and it is 
essential to meet current and anticipated user requirements.
    The airport is owned and operated by the City of Vero 
Beach. There are over 110 businesses there and 250 aircraft 
based at the facility. A recent update of our last economic 
study indicates that businesses at the airport contribute to 
almost $300 million to the economy.
    According to FAA records, traffic at Vero Beach has grown 
from about 180,000 to 240,000 operations annually, indicating 
the operations at the facility rank among the top 15 percent of 
towered airports in the United States. In fact, based on FAA 
data, our airport, which by the way has no radar, has become 
the second busiest general aviation airport in Florida. Future 
traffic growth is estimated to reach 270,000 operations 
annually.
    The airport is headquarters for the new Piper aircraft with 
a workforce of 1200 employees and a payroll of about $42 
million.
    We are also home to Flight Safety International. They have 
42 locations worldwide, and their largest facility is at Vero 
Beach. Vero Beach is unique among all the flight safety 
training facilities because ours is the only place where 
aircraft and not simulators are used for training. The company 
operates a fleet of more than 90 aircraft and logs 90,000 hours 
of student training annually. Nearly 1,000 international 
airlines and other student pilots from all over the world are 
taught and trained at Flight Safety. Officials from both Piper 
and Flight Safety have asked me to convey to the subcommittee 
their strong support for our request.
    Tower construction funding is essential now because the 
existing tower is obsolete and inadequate. Our tower is 30 
years old and cannot safely accommodate current or anticipated 
air traffic control requirements. Currently, controllers 
experience obstructed visibility 30 percent of their flight 
operations and have no visibility at all on some aircraft 
ground movements in certain areas of the airport. As a result, 
communications are oftentimes very difficult, and good 
visibility is imperative for safety.
    Mr. Wolf, last week you called attention to the problem of 
runway incursions. No question, because of the line of sight 
problem our facility is at risk. With your help, we can vastly 
improve our safety margin for avoiding anypossibility of a 
runway incursion.
    You should know that we are not here to circumvent the FAA. 
In fact, the FAA fully supports the project. The project was 
budgeted for fiscal year 1996 and was to be constructed this 
year, but we are now told it will not be built until 2005. All 
engineering, design, and site work have been completed; and we 
already have a set of plans sitting on the shelf. The FAA lists 
our tower as the number one priority for general aviation 
airports in the entire southern region of the United States as 
soon as money is available.
    It is important to say that the community wholeheartedly 
supports this project. We held a public referendum that 
produced an 84 percent voter turnout and with that voter 
support. The voters like this project, and for these reasons we 
are asking for your help.
    Completing our new tower promises to substantially enhance 
aviation safety, capacity and efficiency at our airport. It has 
the full support of the community, pilots, air traffic 
controllers, City and airport officials, the FAA and others 
interested in aviation. It is a prudent, cost-effective use of 
FAA resources that truly warrants your support.
    You and your colleagues on the appropriations committee 
have consistently supported funding that has enhanced aviation 
safety. And, Mr. Wolf, it is very important to us, and we 
respectfully urge the subcommittee to support our requests for 
$5.2 million in fiscal year 2001 funding from the FAA 
facilities and equipment account for the construction phase of 
the air traffic control tower at Vero Beach Municipal Airport.
    Thank you for having me, and we appreciate the warm 
weather. I thought it was going to be cold here.
    [The prepared statement of Arthur Neuberger follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Wolf. Some days it was warmer here than it was in 
Florida, but that was not the way the last couple of weeks. We 
appreciate your coming, and I want to thank Congressman Weldon. 
We will attempt to see what we can do, but thank you for taking 
your time.
    Mr. Weldon. Thank you, Mr. Chairman and members of the 
Committee.
                              ----------                              --
--------

                                       Thursday, February 10, 2000.

 CITY OF LINCOLN, NEBRASKA MULTI-MODAL OVERPASS AND COMMERCIAL VEHICLE 
                      INFORMATION SYSTEMS NETWORK


                                WITNESS

HON. DOUG BEREUTER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEBRASKA
    Mr. Wolf. We are asking the witnesses to please hold their 
remarks to 5 minutes, and if you can go shorter that would be 
great. We have I think 90 some witnesses today, and we are 
asking people to keep it on time because people may have planes 
to catch. So if you could do that, we would appreciate it.
    Mr. Bereuter.
    Mr. Bereuter. Mr. Chairman, Members of the Subcommittee, 
thank you. I will be able to live with your admonition about 
time. I want to thank you for your assistance in the past, 
particularly, Chairman Wolf, your intervention last year to 
correct an oversight.
    I have two things, two projects I want to call to your 
attention. One for my District, one for the State as a whole. 
There could have been others, but you have to narrow it down, 
and I wanted to give you my priorities.
    The top priority would be to seek some Federal assistance 
for the City of Lincoln for transportation improvements 
associated with the construction of a multi-modal overpass to 
reach a new facility which will be a baseball park, city 
recreation and a whole variety of additional things. It is a 
very unusual piece of property in downtown Lincoln. We need to 
get pedestrians in large numbers quickly across what is the 
second busiest rail route in the United States, in excess of 
40, probably 50 coal trains a day, plus freights, plusAmtrak.
    It is adjacent but cut off from the University of 
Nebraska's football stadium and baseball fields that are used 
now by I-180, and the reason it is undeveloped is it was a 
flood plain, had rail transportation problems. It is now 
largely sitting underutilized or in city maintenance, and the 
city has already committed a little over a million dollars for 
a very unusual pedestrian overpass. It says pedestrian but 
really we need to move people across in trolleys, bikes, and on 
foot from what is the most active part of the city 
pedestrianwise, an old wholesale area that has become an area 
for restaurants and shops and other kind of activities.
    So in close proximity to the university and to the downtown 
business district of the City of Lincoln, this project needs to 
come together with assistance from the university, from the 
city, and I want to call to your attention, I am requesting 
$3.5 million to match probably 1.5 million from the city and 
university for that particular overpass.
    We don't quite know that there is anything exactly like the 
kind of overpass that is necessary to move large numbers of 
pedestrians. Undoubtedly there has been some experience 
elsewhere in the country, but that project is now ongoing and 
under design.
    Second, I would like to request 2.6 million in funding for 
the Commercial Vehicle Information Systems Network, CVISN. The 
primary purpose of CVISN is to develop and deploy information 
systems that are interoperable from a motor carrier's point of 
view from State to State. Nebraska Department of Roads, 
Nebraska State Patrol Carrier Enforcement Division and Nebraska 
Department of Motor Vehicles have invested considerable State 
time and money in CVISN over the past years in anticipation of 
2.6 million in Federal funding that will be required to move 
CVISN forward in Nebraska. I believe that such Federal funding 
is clearly appropriate. It would be a statewide system and 
necessary for Nebraska to be a vital success of CVISN 
nationally.
    Mr. Chairman, Mr. Olver, and Members of the Subcommittee, 
that is my presentation. I will be happy to answer any 
questions you might have.
    Mr. Wolf. Thank you very much. We will appreciate it. We 
will take a close look at it.
    Mr.  Bereuter. Thank you very much.
    Mr. Wolf. Thanks again.
    [The prepared statement of Doug Bereuter follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                       Thursday, February 10, 2000.

                   PORT AUTHORITY OF ALLEGHENY COUNTY


                               WITNESSES

HON. WILLIAM J. COYNE, A REPRESENTATIVE IN CONGRESS FROM THE 
    COMMONWEALTH OF PENNSYLVANIA
HON. MIKE DOYLE, A REPRESENTATIVE IN CONGRESS FROM THE COMMONWEALTH OF 
    PENNSYLVANIA
TOM MURPHY, MAYOR OF PITTSBURGH, PENNSYLVANIA
JAMES C. RODDEY, ALLEGHENY COUNTY CHIEF EXECUTIVE
PAUL SKOUTELAS, CHIEF EXECUTIVE OFFICER
    Mr. Wolf. Next, Port Authority of Allegheny County with 
Congressman Coyne and Congressman Doyle.
    Mr. Coyne. Thank you, Mr. Chairman. Mr. Wolf, Members of 
the Committee, I want to thank you for the opportunity to come 
here today to testify relative to three projects in the 
Pittsburgh area. One is the North Shore project that you are 
familiar with. We have worked on it here before. Also, the 
second phase of the light rail transit project that is ready to 
go, and also some new buses for the Port Authority Of Allegheny 
County which is our transit authority.
    My colleague Mike Doyle and I are here to introduce the new 
County Executive Jim Roddey of Allegheny County; Mayor Murphy 
of the City of Pittsburgh; and Paul Skoutelas who is director 
of the Transit Authority, and to ask that continuing help be 
given to these projects that you have been so helpful to us in 
the past with.
    The future of the region depends on these projects, and 
Pittsburgh moving ahead as it is with so many new projects, we 
would like to have this included in this year's appropriations. 
I just ask that my full statement be included in the record.
    Mr. Wolf. Without objection.
    [The prepared statement of William Coyne follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Coyne. I yield to my colleague, Mr. Doyle.
    Mr. Doyle. Thank you, Bill. Morning, Mr. Chairman. I would 
like to associate myself with the remarks also made by my good 
friend and colleague Representative Coyne.
    Mr. Chairman, the Pittsburgh region is currently in the 
midst of some exciting new developments: the construction of 
two new stadiums, an expanded convention center, and a 
rejuvenation of the North Shore business district. And the 
element that really fuses these efforts together is the North 
Shore Connector.
    As Members of the subcommittee are aware, the North Shore 
Connector was authorized in T-21 and has received funding 
support in both fiscal year 99 and 2000. The requested amount 
for fiscal year 2001, $40 million, is critical to the timely 
completion of this project.
    Mr. Chairman, I will put my full statement in the record. I 
want to stress that this is a bipartisan effort. Today here we 
have Allegheny County's first ever county executive, Jim 
Roddey, a Republican; Mayor Tom Murphy, a Democrat. In the 
Pennsylvania delegation, both Republicans and Democrats, are 
united behind these projects. So I hope you will give them 
strong consideration, and it is my pleasure to introduce our 
first county executive ever Jim Roddey.
    [The prepared statement of Mike Doyle follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Roddey. Good morning, Mr. Chairman, and thank you for 
having us today. I am also a former chairman of the Port 
Authority Transit which runs our transit system in Allegheny 
County. Allegheny County is the 22nd largest metropolitan area 
in the Nation. However, our transit system is the 12th largest. 
So we have a disproportionate larger share of transit than most 
cities. We carry 76 million passengers every year. So it is 
very important to our economic development that we have this 
enhancement for the North Shore.
    We are building projects now that are estimated to be about 
a billion dollars, two new stadiums, sport stadiums and a 
significant expansion of our convention center. It is vital 
that we connect this with our already 26 mile light rail 
system.
    We certainly want to thank you for the support that you 
have given us in the past, $10 million last year for this same 
North Shore project and 8 million for our stage two of our 
light rail in the south hills of the county. We certainly want 
to thank you for that and would ask for your support.
    We are a region that is recovering still from the loss in 
the 1980s of 150,000 jobs, the largest per capital loss of jobs 
ever sustained by any area in the United States. We have 
exciting things going on. We are in our recovery; andthis is a 
lynch pin, a vital part of that recovery; and I would like to yield the 
rest of my time to my distinguished friend Tom Murphy, the mayor of 
Pittsburgh.
    [The prepared statement of James Roddey follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Murphy. Mr. Chairman, let me just second what Jim said. 
Our region is undergoing a remarkable transformation right now. 
As Jim mentioned, we suffered devastating losses in the 1980s 
and we are really watching a whole new economy take shape in 
Western Pennsylvania, and by the numbers, percentage of our 
population using mass transit, you can appreciate how important 
mass transit is to us. So this opportunity to continue to 
expand the mass transit system into an area that has seen a 
large private investment taking place is a critical part of the 
success for our region. Not only have we seen new stadiums and 
convention centers, our two largest banks are building major 
operation centers right on this mass transit line that will 
employ over 5,000 people in the downtown center city area, and 
we want to continue to provide them that opportunity to move 
their employees in and out easily.
    Thank you for your consideration.
    [The prepared statement of Tom Murphy follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Wolf. I appreciate your coming. I went to Penn State. I 
actually am from Philadelphia. The only differences I had with 
Pittsburgh was the Pitt-State games. I don't think we really 
play you guys anymore. We have graduated into the Big 10. I 
have great feelings towards Pittsburgh. You have done a nice 
job. It is great place to live, and it is a good family town. 
So we will take a very close look at that, and I appreciate 
Mike Doyle and Mr. Coyne coming. And we will talk and see what 
we can do. But, Bill, thank you.
    [The prepared statement of Paul P. Skoutelas follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Olver. Mr. Chairman, I would like to make a very brief 
comment.
    Mr. Wolf. Sure, go ahead.
    Mr. Olver. Following on the Chairman's comment, I am, too, 
a former Pennsylvanian, so really the absolute far eastern 
corner would correspond I guess to Washington County. I think 
that is the far southwestern county, Wayne County, and I just 
want to say that the revitalization of Pittsburgh, actually 
almost resurrection of Pittsburgh has been one of the great 
urban American stories; and, of course, transportation systems 
are utterly critical to that. So that I certainly am very 
sympathetic to making certain that we keep that record going 
and keep that kind of momentum going.
                              ----------                              

                                       Thursday, February 10, 2000.

            PORTLAND'S INTERSTATE METROPOLITAN AREA EXPRESS


                    WASHINGTON COUNTY COMMUTER RAIL


                               WITNESSES

HON. EARL BLUMENAUER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    OREGON
FRED HANSEN, GENERAL MANAGER, TRI-COUNTY METROPOLITAN TRANSPORTATION 
    DISTRICT OF OREGON
 HON. DAVID WU, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF OREGON
COMMISSIONER KIM KATSION, WASHINGTON COUNTY, OREGON
    Mr. Wolf. Next witness, Mr. Blumenauer and Mr. Wu, Earl and 
David,--is David with you? And you have some witnesses?
    Mr. Blumenauer. Yes, sir.
    Mr. Wolf. Well, Congressman Wu's full statement will appear 
in the record. Do you have witnesses with you?
    Mr. Blumenauer. Yes, sir, I have just one. We appreciate 
the opportunity to join with you today, and the witnesses that 
just preceded us I think are an example of why I think this 
committee has the most difficult job in Congress because you 
are having an opportunity to see the renaissance that is taking 
place around the country and how transportation infrastructure 
play such a key role in all of those.
    I am here today to speak in support of the number one 
transportation priority in our region. It is no substitute for 
the simple commonsense steps like, Mr. Chairman, you are 
arguing that the Federal Government lead by example with having 
its own uniform program of transportation benefits; and I 
applaud the pressure that you and this subcommittee is 
undertaking.
    I would hope that you would continue to be sympathetic to 
the good work that has gone on in our community to show what 
happens with the wise investment of Federal transportation 
dollars to make the community more livable.
    In our region, I think we may be the only one in the United 
States where transit ridership from 1990 to 1997 increased more 
rapidly than VMT, vehicle miles traveled, and in large part it 
is because the Federal Government has given us wise 
opportunities to invest in transportation, and the local 
community has come forward.
    What you are going to have today is testimony from the 
general manager of our transit agency who has guided a project, 
an extension of our MAX system forward to be the number one 
priority. Everybody in our region will acknowledge it, and we 
are very proud of the work that has been done. I would like to 
introduce General Manager Fred Hansen.
    [The prepared statement of Earl Blumenauer follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Hansen. Thank you, Earl. For the record I am Fred 
Hansen.
    Mr. Wolf. Excuse me, your full statement will appear in the 
record.
    Mr. Hansen. Thank you. I will just summarize briefly from 
it. Again, for the record Fred Hansen, general manager of Tri-
Met.
    We are very excited in the Portland region for our regional 
rail system. It is called MAX, Metropolitan Area Express. There 
are two segments that have been completed: The Bandfield 
segment in 1986 and then September of 1998 the Westside. Thanks 
to the committee to be able to support both of those projects. 
We feel that they have greatly enhanced our livability.
    There are two other projects that we are moving ahead on 
only utilizing local funds to be able to extend that regional 
system. An extension to our airport, $125 million project that 
involves a public/private partnership, Bechtel industries with 
us on that, as well as a circulator streetcar system in the 
downtown Portland area. That first project, 125 million, the 
second 53 million, all being covered with local funds. No 5309 
new start funding requested.
    I am here to identify our request of $65.9 million for the 
first year of the full funding grant agreement. We understand, 
and we are pleased the President has designated us for a full 
funding grant agreement for new start funding and for $40 
million. And obviously we are ready to be able to proceed as 
the committee sees fit.
    Let me stress several things about our new alignment, the 
interstate MAX alignment that Congressman Blumenauer just 
mentioned. That is the main issue that is before us to be able 
to complete our regional rail system. It is ready for 
construction. The final environmental requirements have been 
met and a record of decision has been issued. Local funding is 
fully committed. There are no contingencies there. There are no 
outstanding rights of way issues or displacement issues. Our 
engineering and cost estimates are already highly reliable 
because of the work we have been able to do on the Westside 
project. Third, or lastly, our final decision is expected to be 
at 80 percent completed later this summer as we execute a full 
funding grant agreement.
    We have two projects under our belt both brought in on 
budget within budget and on time, and we feel very proud of 
that.
    Congressman Wu later will be talking briefly about one of 
the requests for commuter rail, another part of our extension. 
That is a separate issue, but the first priority as Congressman 
Blumenauer said is the interstate MAX alignment. We understand 
the committee has very difficult choices. We think that the 
fact that we are moving ahead on funding two separate projects 
on our own as part of our overall regional rail system, that we 
are seeking projects only that are ready to begin immediately 
and are fully developed, ready to be able to move forward, and 
that we are looking at those projects to be our key elements.
    We thank you very much. I would be happy to answer any 
questions.
    [The prepared statement of Fred Hansen follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Wolf. Thank you very, very much. Congressman Wu is not 
here so why don't you come on up and begin. Thank you very 
much.
    Mr. Blumenauer. Thank you, Mr. Chairman, Members.
    Ms. Katsion. Good morning. Chairman Wolf and Ranking 
Members and other Members of the subcommittee, thank you for 
the opportunity to testify today. My name is Kim Katsion. I am 
a Washington county commissioner in the State of Oregon, and I 
am here to testify today with Congressman Wu on a project that 
is important to my county and our region.
    Commuter rail from Wilsonville to Beaverton is an essential 
link for the total transportation system of the Portland 
metropolitan region. That includes Tri-Met's excellent bus 
service and MAX light rail system. This 15.5 mile long commuter 
rail which makes use of tracks already in place will link 
directly to the MAX and increases transportation choices for 
thousands of our commuters.
    As you know, in the fiscal year 2000 Department of 
Transportation Appropriation Conference Report you provided a 
half a million dollars for alternative analysis and preliminary 
engineering. This Federal commitment supplemented the Portland 
region and my county board's financial commitment to the 
project. I ask that you include $1 million from the preliminary 
engineering portion of the New Starts program in the fiscal 
year 2001 Department ofTransportation appropriation bill.
    Commuter rail has the support of the Portland region. It 
will provide a rail connection between two suburban counties, 
Clackamas and my Washington county, directly into the region's 
light rail system. These two counties are experiencing the 
fastest population and economic growth in Oregon. Commuter rail 
is a crucial link and will provide a 26-minute trip in a 
corridor as compared to 40 or more minutes by automobile.
    You know that the Portland region has long been a national 
leader in smart transportation planning. An example is the 
interstate MAX, the next installment of the light rail system 
that you just heard about and the region's number one 
transportation construction priority. Commuter rail continues 
in the tradition of smart transportation planning.
    In closing, I again ask that you include the million 
dollars for the Wilsonville to Beaverton commuter rail in this 
year's New Starts program. This will complete the preliminary 
engineering for the project, and thank you again for the 
opportunity to testify before you today.
    [The prepared statement of Kim Katsion follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Wolf. Thank you. Congressman Wu's statement will appear 
in the record.
    [The prepared statement of David Wu follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Wolf. Thank you very much. Thursday, February 10, 2000
                              ----------                              

                                       Thursday, February 10, 2000.

                     PIERCE TRANSIT BUS INITIATIVE


             CENTRAL PUGET SOUND REGIONAL TRANSIT AUTHORITY


                               WITNESSES

HON. JENNIFER DUNN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    WASHINGTON
HON. NORM DICKS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    WASHINGTON
HON. ADAM SMITH, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    WASHINGTON
HON. JAY INSLEE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    WASHINGTON
BOB DREWEL, SNOHOMISH COUNTY EXECUTIVE AND MEMBER, CENTRAL PUGET SOUND 
    REGIONAL TRANSIT AUTHORITY (SOUND TRANSIT) BOARD
JANE HAGUE, MEMBER, SOUND TRANSIT BOARD
DON MONROE, EXECUTIVE DIRECTOR, PIERCE TRANSIT
    Mr. Wolf. The next witnesses, are Congressmen Dicks, Smith 
and Inslee and Congresswoman Dunn. Do their witnesses, Bob 
Drewel and the others want to come to the table. There is a 
journal vote. Why don't you begin.
    Mr. Smith. Thank you, Mr. Chairman. I will go ahead and 
pinch hit for Congressman Dicks and Congresswoman Dunn.
    We have before us various folks from Sound Transit, which 
takes in three counties, King, Pierce, and Snohomish. We have 
all of them represented. Bob Drewel is the Snohomish County 
Executive, Jane Hague serves on the King County Council, and 
Don Monroe from Pierce Transit. My portion is to introduce the 
Pierce Transit side of it.
    First of all, I want to thank this committee for all of 
their support for Sound Transit, in particular for Pierce 
Transit. What they have been able to do with our bus station 
and bus facilities and routes in Pierce County has made a real 
difference in transportation for us down there. You have been 
very generous in support in previous years and as always we are 
back to ask for more.
    Mr. Wolf. Well, you are not any different from anybody 
else.
    Mr. Smith. I know, too transparent always. But Sound 
Transit has made a tremendous difference for our region, and 
whenever they throw up statistics of the worst traffic in U.S., 
Seattle and surrounding areas are always top five, usually one 
or two, but we have finally stepped up, passed a transit plan 
approved by the voters which is moving forward with light rail, 
intensified bus service, also heavy rail, and the help from the 
Federal transportation side has made a big difference.
    I am going to introduce Don Monroe, who is the executive 
director of Pierce Transit; and as I have said, you have been 
very helpful down there with the bus station, bus services, and 
Mr. Monroe will tell you more about where we are headed.
    Mr. Monroe. Thank you. To get to the specifics for Pierce 
Transit, as a partner in the evolving regional transportation 
network serving the Puget Sound region, Pierce Transit is 
requesting 5 million in fiscal year 2001 Section 5309 bus 
funds. Specifically, we are looking for five million for an 
expanded transit maintenance and operating base to support 
increased regional and local bus service, and also 700,000 to 
continue Pierce Transit's clean bus initiative through the 
purchase of two CNG-powered buses.
    In terms of the base project, since November of 1990 Pierce 
Transit has provided regional express service between Tacoma 
and Seattle. This public transportation investment has been a 
huge success. Now anchored in downtown Tacoma by the Tacoma 
Dome Station, which has received the past support of this 
subcommittee, Tacoma-based regional express bus service 
continues to grow beyond expectations, posting a 40 percent 
growth in ridership over the past 2 years.
    In September of last year, Pierce Transit began operating 
new and expanded regional express bus service under a contract 
with the new regional transit authority, Sound Transit. The 
planned expansion of regional and local bus services will 
require Pierce Transit to more than double the number of buses 
at its Pierce County base during the next 20 years. Pierce 
Transit's existing bus facility is already at capacity due to 
continued expansion of agency services. Currently 223 buses, 
192 vans, and 35 paratransit vehicles are shoehorned into the 
crowded facility originally built for a maximum. By 2007, 
Pierce Transit's fleet will grow to 325.
    Pierce Transit has already acquired a 15-acre site adjacent 
to our current facility on which to develop an expanded base. 
The base expansion will enable the agency to keep pace with the 
growing demand for regional and local transit services and 
specifically to operate the new Sound Transit regional bus 
routes approved by the regional voters in 1996.
    To date, Sound Transit has committed 10 million and Pierce 
Transit five million in local funds to this project. We intend 
to maximize the available resources of Sound Transit, Pierce 
Transit, the State of Washington and other jurisdictions to 
address the pressing need for adequate base capacity. The 
Federal funds we are requesting today will assure the 
successful and timely completion of the needed facility. 
Construction is expected to begin next year.
    Thanks to this subcommittee's continuing support, Phase I 
of the Tacoma Dome Station opened on time and within budget in 
October of 1997. The 1,200-stall park and ride facility serves 
as the hub for the popular Seattle Tacoma bus service. Within 2 
years of opening, the station filled to capacity and ridership 
on Seattle Express jumped by 40 percent. Clearly the Tacoma 
Dome Station is serving its purpose of stimulating increased 
transit use along Interstate 5.
    Thanks to additional appropriations from this body, Phase 
II of the station is well under construction.
    Mr. Wolf. Let me just interrupt you for a second. I am 
going to go vote. Whoever is the last member here can recess. I 
am going to try to be back so we can keep this hearing going. 
Norm, you can just begin.
    Mr. Monroe. Once completed, it will double the number of 
parking spaces and provide convenient connections to local and 
regional express service.
    To sum up, my last request would be the $700,000 under the 
clean bus initiative. This would allow us to buy two additional 
CNG buses to add to our existing fleet. And we were one of the 
first transit fleets in the country to go to CNG, and this will 
help us continue that effort, and I thank you for your 
attention.
    Mr. Olver [presiding]. Thank you very much.
    [The prepared statement of Don Monroe follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Olver. Congressman Dicks, we decided we were going to 
go on because we knew this vote was about to happen.
    Mr. Dicks. Right, and I think this is appropriate. Mr. 
Chairman and Members of the subcommittee, let me begin by 
introducing my colleagues who are here. Congresswoman Jennifer 
Dunn will be here in a moment, but Congressman Jay Inslee is 
here. We are all here today to show our support for Sound 
Transit's appropriation request for FY 2001. Traffic congestion 
is the number one issue in the Puget Sound region and Sound 
Transit's plans are an essential part of the solution to this 
problem.
    I also want to lend my support to the funding request of 
Pierce Transit, and with that I will turn it over to our 
witnesses.
    [The prepared statement of Jennifer Dunn follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Drewel. Mr. Chairman, Members of the Subcommittee, on 
behalf of the entire Sound Transit Board, I am very pleased to 
have the opportunity to testify before you today. As previously 
introduced by Congressman Smith, my name is Bob Drewel. I am 
the county executive of Snohomish County, Washington, and chair 
of the Government Affairs Task Force of the Sound Transit 
board. With me today is Jane Hague, a member of the King County 
Council and Sound Transit Board and also the President-elect of 
the National Association of Counties, and we are delighted, of 
course, to be joined by members of our congressional 
delegation.
    In addition to our brief remarks this morning, of course we 
will submit copies for the record.
    I want to begin by thanking Chairman Wolf and the members 
of the subcommittee for your past support of our projects, Link 
light rail, Sounder commuter and Regional Express buses. In the 
central Puget Sound, we are making tremendous gains in 
implementing the region's 10-year transportation program, Sound 
Move, and the Federal funds that you have provided to date are 
having a substantial impact. Together with significant local 
revenue streams approved by our voters 4 years ago, the Federal 
dollars are building a seamless transportation system for the 
region, and I am proud to report that we are moving forward on 
both budget--we are on budget and on schedule.
    In the interest of brevity we are here today asking your 
subcommittee for funding for our three lines of service, $105 
million for Link light rail, 25 million for Sounder commuter 
rail, and $6 million for Regional Express bus. These Federal 
dollars will have a significant impact on the transportation 
infrastructure in our region.
    My comments will focus on the Light rail portion and Board 
Member Hague will address our Sounder and Regional Express 
requests.
    By any measure Link is a project of national significance. 
The greater Seattle metropolitan area is ranked as the third 
most congested region in the country. Link light rail will help 
relieve this congestion and the very real threat it poses to 
our economic vitality and quality of life. Our region is truly 
a global crossroads in the 21st century economy, home to major 
manufacturers, resource companies, world-class biomedical 
research institutions, high technology businesses, dot.com, and 
of course, coffee companies. We contribute significantly to the 
national economy, but congestion costs us an estimated $1.2 
billion a year. Our geography is beautiful, but the natural 
environment does make it difficult to solve our transportation 
problems with waters on one side and mountains on the other, 
and light rail is a key part of the answer, and we believe that 
a Federal investment in Link light rail will return huge 
dividends, not just to our regional economy and the people who 
live there but to the national economy as well.
    We sincerely believe that Link is the premier New Starts 
project in the country and a model of high capacity transit 
investments envisioned by Congress when it passed TEA-21. Link 
exceeds the standards set out in TEA-21 and Link will have 
extremely hide ridership, 125,000 boarding daily. Local dollars 
are paying for two-thirds of the project cost, and this revenue 
stream is both stable and secure. Link will help keep the 
region within Federal clean air standards, and the project has 
high ratings for operating efficiency and cost effectiveness. 
For these reasons, the FTA has ranked Link a highly recommended 
project.
    This is the 4th year that Sound Transit has appeared before 
this subcommittee. Since our voters approved the Sound Move 
plan, we have been working at a determined pace to reach 
consensus on Link's route and to complete preliminary 
engineering. We have cleared the EIS process and last November 
approved the route. Jane.
    Ms. Hague. Thank you, Bob. I am Jane Hague, King County 
Council member, Sound Transit board member and president-elect 
of the National Association of Counties. Before I talk about 
our particular requests for bus and commuter rail, I wanted to 
show you an example of the seamless transportation system that 
Bob was talking about. This is not a credit card. It is 
obviously not a bus or a train. It is a one-fare pass card, and 
it connects all of our transit agencies, seven of them within 
the Puget Sound area and our Washington State ferry system all 
with one pass, and it is one of the things that Link and the 
Sound Transit and all of our commuter agencies feel very 
strongly about, convenience and availability, and it is a 
concrete example of the partnerships that come to the Sound 
Transit agency.
    I can also report since we were here last that our Sound 
Transit bus service has been launched. Ridership is well ahead 
of schedule, and rather than reinventing bus service agency for 
Sound Transit, we have contracted with King County Metro, 
Pierce Transit and Community Transit to operate these buses. We 
have six of our nine now operating, and we have ridership that 
is about 60 percent of what we have projected. So we are doing 
really well in the 6-month period that we have had this 
operating.
    Our request is for $6 million for bus procurement, and this 
is a regional request made with our other partners. We are also 
asking for $25 million for Sounder commuter trains, and they 
are scheduled to go on line this September. The first leg will 
be from Tacoma to Seattle, linking two of our major counties in 
the State, and this will be the first commuter train service 
that the area has had in 60 years, and we are also in 
conjunction partners with the Burlington Northern Santa Fe 
railroad. We will be operating the commuter rail on the very 
congested I-5 corridor. And we expect that this will be a 
significant reduction in commute time and congestion for the 
Puget Sound region.
    We are asking for 25 million for Sounder commuter trains, 
six million for bus procurement in addition to the 105 million 
that Executive Drewel has requested. We want to thank you very 
much for your support and hope that we continue to be 
partnering with the Federal Government.
    [The joint statement of Bob Drewel and Jane Hague follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Ms. Granger [presiding]. Assuming there are no questions, 
we are going to recess subject to the call of the Chair 
following this vote.
    [Recess.]
                              ----------                              

                                       Thursday, February 10, 2000.

SAN DIEGO AND ARIZONA EASTERN RAILROAD AND RELATED RAIL INFRASTRUCTURE 
                                PROGRAMS


                            STATE ROUTE 905


  MISSION VALLEY EAST TROLLEY EXTENSION AND MTDB TRANSIT IMPROVEMENTS


                               WITNESSES

HON. DUNCAN HUNTER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
HON. JOE BACA, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
HON. BOB FILNER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
RON BATES, COUNCILMEMBER, CITY OF LOS ALAMITOS, CALIFORNIA AND FIRST 
    VICE-PRESIDENT OF SOUTHERN CALIFORNIA ASSOCIATION OF GOVERNMENTS
SARAH L. CATZ, DIRECTOR, SOUTHERN CALIFORNIA REGIONAL RAIL AUTHORITY; 
    PUBLIC MEMBER, ORANGE COUNTY TRANSPORTATION AUTHORITY BOARD OF 
    DIRECTORS
    Mr. Wolf [presiding]. Can we begin with panel 5. Southern 
California Association of Governments with Congressman Duncan 
Hunter, that great Congressman. There he is. And Congressman 
Filner, Congressman Baca, are they here? Maybe what we could do 
is begin, and then somebody can call their offices and then we 
can catch them on the end as they come in. Mr. Duncan.
    Mr. Hunter. Okay. Thank you, Mr. Chairman. Thanks for being 
with us or for letting me be with you and listening to our 
testimony today, and I have a lengthy prepared statement I 
would ask to submit for the record, and I will just summarize 
my position.
    This is on the so-called border train between San Diego and 
Imperial Counties. It does go through Mexico. As you know, over 
the years there has been a number of initiatives to reopen this 
train which basically was put out of service by the 
superhighway that was constructed between Imperial Counties, 
that is Highway 8, and San Diego Counties.
    When this thing first came up as a concept, I, having 
nothing against trains, simply asked the border patrol will 
this give you any problem; and they said, Congressman Hunter, 
this will be a nightmare in enforcement. And we subsequently 
got a GAO report on it, and I just want to direct you to one 
operative line of that report. The GAO states, and I quote, 
``The border patrol officials said that the reopened rail line 
would be a vehicle for illegal immigration, and it is likely 
that the illegal immigrants would board the train and move 
through the areas of border patrol coverage to areas where the 
border patrol has limited resources.''
    Mr. Chairman, we are in a war right now with the smugglers. 
The same smugglers that are smuggling illegal aliens are also 
smuggling massive amounts of narcotics into the United States, 
70 percent of which is coming from Mexico as you know, and the 
same smugglers that will send out literally a company of 
illegal immigrants with their cadre, their smuggling cadre will 
have sometimes included a number of people carrying pure 
cocaine with those people, whether they are coming in across in 
vehicles, coming across in trains or coming across on foot. We 
are trying to win this war. We are putting in roads, fences, 
lights. We have gotten with your help, incidentally, and your 
strong support more border patrol in the southwest area. We are 
starting to turn the corner, but we had over 39,000 pounds of 
cocaine, heroin, marijuana, and other types of narcotics seized 
in San Diego and Imperial Counties last year.
    The border train that exists in Texas had some 39,000 
illegal aliens pulled off of it last year. The President of 
Union Pacific sent a letter to the Clinton administration 
saying this problem is so bad, and I quote, ``It is getting 
worse with no end in sight,'' but he asked the Clinton 
administration, this was 2 years ago, for the entire increase 
in border patrol for the Nation just for his train to try to 
stem the smuggling problem. Barry McCaffrey sent a letter to 
me, and I have got a copy of that in your book here that says 
before any border train is opened up, we should make sure that 
we have sufficient monitoring devices in every point where this 
train crosses the border.
    Now, right now you have got 2400 trucks a day coming in 
from Central America and Mexico coming through the San Ysidro 
and the Otay Mesa ports of entry in San Diego County. I was 
down there a few months ago, and the only device we had for the 
great mass of those trucks was to run one huge German up and 
down this huge line of trucks before we waved them all through. 
We know a lot of cocaine is coming in on those trucks, and yet 
we don't have sufficient monitoring devices, these so called X-
ray devices, to allow us to scan all the trucks. And we should 
be scanning every truck that comes through for hidden 
compartments. We can't afford to do that, and so we are 
certainly not going to go and buy new scanners for these other 
proposed ports of entry or entry for railroads.
    So we have massive underfunding right now in border 
surveillance, and until we get that taken care of and until the 
border patrol and General Barry McCaffrey, the President's drug 
czar, say we think that the situation is secure and stable 
enough to have this border train, I can't support it, Mr. 
Chairman.
    [The prepared statement of Duncan Hunter follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Wolf. Thank you, Mr. Hunter. I want to say for the 
record I agree with you. We had spoken about this many, many 
times. Until we had that reassurance from the drug czar and 
others, so you know, I understand, and this issue came up on 
the floor two different times I believe. There was a vote. So I 
understand what you are saying. Thank you very much. Your full 
statement will be in the record, and the staff will look at the 
GAO study.
    Mr. Hunter. Thank you, Mr. Chairman.
    Mr. Wolf. Mr. Filner, we are trying to find out where he 
is. Mr. Baca is on his way. What we will do is we will go to 
Mr. Bates and Ms. Catz, and then as they come in they can 
follow. If you limit it to 5 minutes we would appreciate it 
very much. Thank you.
    Mr. Bates. Mr. Chair and committee members, my name is 
Ronald Bates. I am a council member from the City of Los 
Alamitos in southern California and first vice president of the 
Southern California Association of Governments, SCAG, and I 
would just like to suggest for those of you that may not be 
familiar with SCAG that SCAG is a six county area, 185 cities 
and 16 million people. Probably the thing that you may not know 
is that between now and 2020 we are expected to add over six 
million people, roughly the size of maybe two Chicagos, and 
about four million jobs to the southern California area, mostly 
in the eastern part of our SCAG region in the areas of 
Riverside, San Bernardino County.
    Obviously the issues of congestion, air quality are 
significant to us. We have a regional council of 72 elected 
members from southern California to try to deal with many of 
the transportation and air quality problems. We put together a 
comprehensive regional transportation plan called Community 
Link 21 that helps as a guide toward implementing 
transportation projects which makes sense for our region.
    We are requesting today, and we have again submitted 
detailed testimony with projects of approximately $24 million 
in the 2001 budget to assist in implementing our regional 
transportation plan. I would just like to briefly highlight a 
couple of the major projects that are part of our request.
    One project that we are especially proud of and think that 
it has certainly nationwide potential and maybe worldwide 
potential is $10 million for Maglev program, for technology as 
far as Maglev goes. The project basically would complete the 
environmental review, preliminary engineering, implement 
public/private partnerships and public outreach to utilize the 
full capability of Maglev for southern California. It is a 75-
mile system. It has the complete cooperation of the State of 
California, CALTRANS, the high speed rail authority, all 
working together to try to implement a system which we think 
can be privately funded and meets a lot of the environmental 
challenges that we are facing in the southern California 
region.
    We are talking about $3 million for the National Corridors 
Planning and Coordinated Border Infrastructure Program. As you 
know, part of getting goods into southern California from 
Mexico, Canada, Central America is to get them eastward. The 
Alameda corridor brings them into downtown Los Angeles. We need 
to move them across the country. We are asking funding for 
that.
    It is also part of the project you may have heard called 
Alameda Corridor East and part of the southwest passage which 
was part of TEA-21. Additionally, we are asking for 75 million 
dollars for various ITS programs, expanding funding for the 
advisory news network, mobile communications, traffic data 
collection and integration, and an integrated transportation 
system planning data collection, performance and monitoring 
system. These programs will enable our region to take full 
advantage of our current infrastructure. We want to make sure 
that we maximize how we utilize the current infrastructure.
    Lastly, we would like to just add some support for other of 
our regional partners that are the transportation agencies, the 
cities, the counties and support some ITS programs that they 
are forwarding, half a million dollars for the Southern 
California Gateway Recovery Evaluation and Implementation 
Program and a million dollars for the Riverside Community 
Environmental Transportation Acceptability Process.
    Again, we are finding that to forward projects in our 
region it takes a partnership, all of us working together. We 
think through SCAG and some of our task force we are achieving 
that objective, and just in summary Mr. Chair I would like to 
say that with our adopted regional transportation plan that all 
of these projects that are being proposed from our region fit 
into that plan and we think they take a major step towards 
solving some of the transportation problems that exist in 
southern California. Thank you.
    Mr. Wolf. Thank you, Mr. Bates.
    [The prepared statement of Ron Bates follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Wolf. Ms. Catz.
    Ms. Catz. Good morning, Mr. Chairman. I am Sarah Catz. I am 
a current director and past chair of the Southern California 
Regional Rail Authority, and we thank you for the opportunity 
to speak with you today.
    The Southern California Regional Rail Authority is also 
known as Metrolink, and it operates commuter rail service 
throughout the southern California region. It includes Los 
Angeles, Orange, San Bernardino, San Diego, Riverside, and 
Ventura counties.
    In its 7th year of operation, we are still considered one 
of the fastest growing commuter rail systems in the country. It 
currently operates six routes through a six county 416-route 
mile network. A total of 124 daily Metrolink trains serve 46 
stations with an average daily ridership of 29,000 passengers. 
System wide, ridership continues to grow an average almost 10 
percent a year.
    The Metrolink system was built at a cost of 740 million 
without Federal funding. Only since 1994 have we received 
Federal funds, primarily in the form of some post earthquake 
FEMA funding and 2.9 million in section 5309 New Starts funding 
over the last two years.
    In fiscal year 2000, we requested Federal funding for three 
projects located on the San Bernardino line which is the area 
that Council Member Bates just talked about being one of the 
fastest growing areas in the southern California region. The 
projects were siding on the I-10 corridor, siding on the east 
bank of the Los Angeles river, and a second platform on the 
south side of the Covina station.
    We applied last year's appropriation to the first two 
projects and matched it with local dollars so that all three 
projects as currently scoped are now fully funded. We project 
that ridership on the San Bernadino line will grow by 30 
percent within 4 years and to be able to increase capacity to 
meet this growing ridership, funding for these two projects is 
needed now. This is Metrolink's busiest and fastest growing 
line and we share it with the freight railroad services. Less 
competition for space leads to congestion on this important 
line.
    To add capacity to sustain our rapid growth, we need 
funding in fiscal year 2001 for two additional projects on the 
same line both authorized in TEA-21. They are double track 
between the Pomona and Montclair stations for which we are 
requesting 9.28 million and siding west of the Pomona station 
for which we are requesting 6.88 million.
    As a result of receiving Federal funds at the fully 
requested levels and in connection with other rolling stock 
funds already allocated, we will have the capacity to double 
the frequency of our peak service, adding at least 10 more 
train runs, three in the morning and seven in the 
afternoon.This is, of course, subject to availability of additional 
equipment and member agency subsidy for additional service.
    In addition, we are seeking fiscal year 2001 appropriations 
for demonstration projects and studies for future system 
improvements. With continuing freight growth at the ports of 
Los Angeles, Long Beach, and San Diego and the expected 
completion of the Alameda corridor, freight volume on the 
entire Metrolink system is going to increase causing more 
competition across the system.
    In summary, the Metrolink system serving southern 
California is one of the fastest growing and most successful 
transit services in the Nation. By removing almost 8.5 percent 
of highway traffic on parallel highways during peak hours, we 
are known as the stress-free way to travel in greater Los 
Angeles, and as ridership grows and our capacity decreases, 
especially on the San Bernardino line, where competition with 
freight train causes congestions and delays.
    That concludes my remarks, Mr. Chairman.
    Mr. Wolf. I thank you both very much. Your full statement 
will be in the record.
    [The prepared statement of Sarah Catz follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Wolf. I just encourage you to call my office and talk 
to Tom Santaniello in my office. We have a pilot project which 
has never gotten any coverage last year that picks five regions 
of the country, my District, my region; Washington metropolitan 
area; Chicago; Philadelphia; Houston; and Los Angeles to have a 
pollution credit for companies that permit their employees to 
telework. And most of what you are talking about is very good, 
but it is so future out there, you are the first congested area 
of the Nation. You need something that gets you ahead next 
month, in December; and I would urge you to take a look at that 
because we have had very little interest coming out of the 
southern California area. EPA and DOE and others are putting 
this together. But you might want to take a look at it and at 
least find out.
    Ms. Catz. We will definitely look at that, thank you.
    Mr. Wolf. Thank you both very much. Mr. Filner, Mr. Baca, 
your full statements will appear in the record. Proceed, 
whoever wants to go first.
    Mr. Filner. I thank the Chair, and I thank the subcommittee 
for hearing these things, some of which you may have heard 
before, and I see my colleague from San Diego county is here 
also, Mr. Packard, and I just want to thank him for all he has 
done in his years in Congress for our Nation and for San Diego. 
I know, Mr. Chairman, you are going to miss him on this 
subcommittee, but I think we all are going to miss Mr. Packard 
as a gentleman even more in our Congress.
    Mr. Packard. Thank you, Bob. I want you to know that I 
don't want you to read anything into me not being here for 
Duncan Hunter's testimony but being here for yours.
    Mr. Filner. No, but I hope the press will read that into 
it.
    Mr. Wolf. Let me add I share your comments about Mr. 
Packard and there will be time later on to say it, but also he 
has been one Member who I can always rely to come, be here, and 
help me through; but I am going to miss him for that purpose, 
too. Thank you very much.
    Mr. Filner. We will all miss his graciousness and 
humaneness. So thank you, Mr. Packard.
    You have my full testimony. The members of the 
Transportation Authorizing Committee from California met with 
Governor Davis yesterday who visited Washington and discussed 
our transportation priorities, and we agreed to work together. 
And I will tell you that all of the things that I mentioned in 
my statement are on the highest priority list of the governor 
of California and the State of California in addition to the 
region, the San Diego region.
    You have heard me before and you have heard Mr. Hunter, I 
guess, earlier on one project, that of the so-called San Diego 
and Arizona Eastern Rail Line, what I call the ``Jobs Train.'' 
The subcommittee should know that my District in San Diego is 
in the southern half, the very southern end of the State of 
California. My District borders Mexico. The relations between 
U.S. and Mexico and the infrastructure that is required by that 
relationship is felt most directly in my district, and it is in 
many ways a Federal district with regard to infrastructure, and 
the roads and other improvements that we need are directly 
related, not to our local needs, nor even regional needs, but 
national and international needs. And I hope the committee 
would look at these projects from that perspective, that these 
projects have to do with the policy established by the 
Congress' approval of NAFTA and by the continuing efforts to 
bring our two countries together through trade and other 
relationships.
    Mr. Hunter, who I guess talked earlier, is alone in our 
county and our region in his opposition to this train line. It 
is the top priority of every business, political and civic 
figure and organization in San Diego County because what this 
train will do, as you have heard in the past, is give us, for 
the first time in San Diego, a direct rail link to the east and 
make our port--for the first time--have the potential of a 
working port.
    So this has been discussed with the Presidents of both 
countries, with cabinets, and everyone is for it. It will 
happen. It is a private sector venture, Mr. Chairman, and it 
will happen. I am not asking for any earmarks for that project. 
But I would like the committee to consider two important rail 
infrastructure programs which have been authorized but have not 
yet received any appropriations.
    That was what is called the Light Density Pilot Project 
Program where grants for capital improvements and 
rehabilitation of so-called class two and three railroads are 
provided for. There are no earmarks in that. There is no pork 
that anybody's asking for. The projects will benefit regions 
throughout the Nation and would be a competitive grant 
situation.
    Another program which has been authorized but not funded is 
the Rail Rehabilitation Improvement Financing Program which 
takes the old section 511 of the Railroad Loan Guarantee 
Program and removes the necessity for a Federal appropriation, 
and private entities in fact are now authorized to put up the 
guarantee or loan. So I ask that this committee not even 
appropriate any money, but just not object to the program's 
implementation when the Transportation Department gets its 
regulations in order.
    One last thing just for my oral testimony, again, half of 
the trade--the trade between Mexico and the United States--
passes on trucks through my District. We have not yet built the 
roads that bring that truck traffic from the border crossing to 
the interstate highway system. State Route 905,which we have 
planned, is the top project in our region, in our State, and we need 
just a little more money to complete the funding. We have various 
entities--State, local, county--have all put in money. We are just a 
little bit short of the final funding to get that project started.
    I thank the committee over the years for its indulgence of 
these projects and look forward to not having to come back in 
future years to talk about them.
    Mr. Wolf. Thank you, Bob, and your full statement will 
appear in the record.
    [The prepared statement of Bob Filner follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Wolf. Congressman Baca.
    Mr. Baca. Thank you very much, Mr. Chairman, for the 
opportunity to appear before this committee. I am here to 
discuss the importance of transportation as it reflects back on 
the needs of the 42nd Congressional District.
    This is my first testimony as a Member of Congress. I am 
deeply honored to make my first appearance before you, an 
important committee to our District in the State of California. 
The inland empire is one of the most rapidly growing and 
expanding regions in our country, and it will be the hub in the 
future of the State of California. Ron Packard would agree with 
me, transportation and infrastructure is not adequate to meet 
our current demands and future growth.
    An excellent example of the needs for transportation in the 
area is the Etiwanda Avenue interchange on Interstate 10. The 
I-10 and the I-15 interchange carries an average of nearly 
50,000 trucks a day. It is the largest growing trucking 
industry in the area. Most of the trucking industry has moved 
into southern California. It has moved into my area. It affects 
not only San Bernardino County, Riverside County and others. 
Many of the trucks can't clear existing overpasses at the 
interchanges. Some parts of Etiwanda were built nearly 40 years 
ago. Confusing and inadequate road systems create driving 
hazards and hinders local development and projects to support 
growth.
    The proposed Etiwanda Interchange is waiting for funding to 
move ahead. Federal funds sought are $10 million as a smaller 
share of the Federal assistance than for most projects. I will 
be providing the subcommittee details and background 
information on the Etiwanda Interchange Project.
    The inland empire is also a major economic backbone 
thoroughfare throughout southern California and the State.
    Other important transportation needs of our district are 
communities need Federal funds to correct the dangerous 
railroad grade crossing. Many of the grade crossings were once 
out in the countryside. Today, they are downtown hazards. In 
San Bernardino County, over $15 million is needed to correct 
the rail crossing. Existing in these rail crossings has much to 
do with the increasing rail traffic in the inland empire.
    Metrolink Rail Service to the San Bernardino county is a 
factor. I support the funding of the $3.2 million for the 
Intermodal Transportation Center for the City of San 
Bernardino. This center is essential to get more commuters out 
of their cars and into the rails. We have become a bedroom 
community in the immediate area where a lot of people get in 
our cars and travel back and forth to either Orange County, LA 
and even the San Diego area for jobs.
    An even greater future can be realized for the inland 
empire with the Maglev high speed rail. I appreciate the 
opportunity to appear before you today. I will follow up with 
specific information and request for the people that I 
represent in the communities in which I live.
    Thank you for considering these important projects and many 
others as we see the inland empire as being vital to the State 
of California where we have opportunities for people to move 
in. Affordable housing is in that area. We have to deal with 
transportation. We have to deal with the Alameda corridor in 
that immediate area. We need the funding to continue to go 
beyond the Ontario and to the Colton junction as well as part 
of the blueprint that was originally there. Again, thank you, 
Mr. Chairman.
    [The prepared statement of Joe Baca follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Wolf. Thank you very much. We are trying to move this 
hearing along. I am not trying to shut anybody off from 
questions, but if any witness says anything that stimulates 
you, just feel free. Did you want to say something?
    Mr. Packard. Just a comment to welcome Joe Baca to the 
Congress officially and before this committee. He replaces 
George Brown, many of you know, who passed away earlier. He won 
in a special election, and, of course, I am always pleased to 
welcome the entire delegation from southern California, as well 
as those from SCAG and other places. We appreciate your 
testimony.
    Mr. Baca. Thank you.
    Mr. Wolf. Good. Thank you. Again to the panel, if anybody 
does have any questions, I don't want anyone to feel reluctant 
because we have never cut anybody off. So with that, thank you 
again.
                              ----------                              

                                       Thursday, February 10, 2000.

           PROJECT STUDY REVIEWS FOR THE 101-404 INTERCHANGE


            SANTA MONICA MOUNTAINS NATIONAL RECREATION AREA


                     BIKE LANE GAP CLOSURE PROJECT


                  CALABASAS SMART SHUTTLE IMPROVEMENTS


                                WITNESS

HON. BRAD SHERMAN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Wolf. And Congresswoman Lee and Congressman Sherman and 
also the mayor of Monrovia, California, Mayor Bartlett. 
Welcome. Your full statements both will appear in the record.
    Mr. Sherman. Thank you. I have additional copies of my 
statement should any Member or their staff be in need of one. 
Mr. Chairman, thank you for giving me this time to come before 
this subcommittee. Aside from the TEA-21 process, the 
subcommittee has not provided projects in my District, but 
never before have we had such outstanding projects so modestly 
priced as the ones I have for you today.
    Mr. Wolf. They are almost a bargain this year.
    Mr. Sherman. Oh, they are an incredible bargain. The first 
is to provide some money to study solutions to one of the most 
congested interchanges in this country. It is the 7th busiest 
interchange in America. It is one mile from my home. It is 
congested 16 hours a day, 7 days a week. It is the intersection 
of the Ventura and San Diego freeways. We have received 
$500,000 from the Department of Transportation to study some 
innovative techniques to unclog this interchange, and with $1.5 
million we could go to PSR on several different innovative 
solutions.
    The second is the chance to build a trail system in the 
Santa Monica Mountains National Recreation area. This 
recreation area is within an hour's drive of 1 out of 17 
Americans. It receives 33 million visitors each year, and to 
expand the trail system in this jewel of the national park 
system would do a lot for recreation in southern California. We 
have an important regional bike system, and with $1 million we 
could close some of the gaps in that system, particularly in 
the Calabasas and Agoura hills area.
    And finally, we have a need for more shuttle buses in one 
of the communities I represent, Calabasas. Not only are these 
projects modestly priced, but if the subcommittee would feel 
free to or would choose to fund them even at half the 
recommended level or requested level, we could still accomplish 
outstanding work.
    Thank you.
    Mr. Wolf. Thank you very much, Congressman.
    [The prepared statement of Brad Sherman follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                        Thursday, February 10, 2000

          ALAMEDA CONTRA COSTSA TRANSIT DISTRICT (AC TRANSIT)


                                WITNESS

HON. BARBARA LEE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Wolf. Congresswoman Lee.
    Ms. Lee. Thank you, Mr. Chairman, and thank you, Members, 
for this opportunity to be with you today. I represent the 
Ninth Congressional District of northern California which 
includes portions of Oakland, Berkeley, Piedmont, Emeryville, 
Albany and Alameda, which are located on the east side of the 
San Francisco bay, better known as the East Bay.
    I am here to testify on behalf of Alameda Contra Costa 
Transit District or better known as AC transit. First of all, I 
would like to thank you, Mr. Chairman, and to the committee 
Members and to our ranking member Mr. Sabo for his generosity 
last year in securing $500,000 for our intelligent 
transportation system funds for AC Transit. These funds have 
been really an integral part of AC Transit's efforts to update 
and modernize its fleet, specifically through the installation 
of satellite-based communications system which will greatly 
improve on-street performance and customer communication.
    We have many challenges, however, in the East Bay; but I 
would like to just say how proud I am of AC Transit's hard work 
to provide bus service to our residents. In fact, AC Transit is 
the first and, in many cases, the only transportation option 
for thousands of East Bay residents. AC Transit buses move 
230,000 persons every day throughout a390 square mile area, in 
addition to taking 60,000 children to school. Its fleet includes 750 
buses, over 147 bus lines and 13 cities and two counties. So AC Transit 
really provides the vital link between former welfare recipients and 
their current jobs, and through its efficient and effective service, 
actually demonstrates every day what a well-managed transit agency can 
do for our urban areas. In essence, it is truly the lifeline of our 
community.
    While my Bay Area colleagues and I will formally present AC 
Transit's funding proposals in the coming weeks I would like to 
provide the committee with a brief overview of these proposals, 
including how they will aid AC Transit's service to East Bay 
residents.
    We are expected to become a member of the California Fuel 
Cell Partnership which seeks to develop zero emissions bus 
technology. So this will be part of our proposal when it will 
be coming to you. Also, we intend to utilize the Transportation 
and Community System Preservation Program to undertake capital 
improvements, and there will be a request for that, and we also 
will be asking for an additional five million for the SatCom 
project which we mentioned earlier.
    Thank you very much, Mr. Chairman. In the coming weeks I 
along with Representatives Miller, Stark, Pelosi, and Tauscher 
will actually formally submit these requests to you. I 
appreciate the opportunity to be with you today.
    Mr. Wolf. I thank you very much.
    [The prepared statement of Barbara Lee follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                       Thursday, February 10, 2000.

            MONROVIA-ARCADIA ELECTRIC SHUTTLE DEMONSTRATION


                                WITNESS

MAYOR ROBERT T. BARTLETT OF MONROVIA, CALIFORNIA
    Mr. Wolf. Mayor of Monrovia. Go ahead.
    Mr. Bartlett. How are you. There are a bunch of young 
ladies with crowns on stopped everybody from going through the 
detector. Thank you, Mr. Chairman.
    Mr. Chairman and members of the committee, I am truly 
honored to be before you today to request funding for a local 
transportation program----
    Mr. Wolf. Just so you can get your breath, let me raise 
something with Mr. Sherman. We put in a legislation that passed 
last year, not a lot of coverage, picking 5 areas of the 
country whereby if the employer permits their employees to 
telecommute they get a pollution credit that can be sold on the 
Chicago Merc. In it is the Washington, D.C. area, Philadelphia, 
Chicago, Houston, LA. There has not been a great resonance out 
in the LA area; and EPA, DOE and others are putting this 
project together. And so your office might talk to my office, 
Tom Santaniello, to find out about it, but the LA area hasn't 
quite kicked in, and you are the number one congested area in 
the country. So if you want to take a look at that.
    Mr. Sherman. Los Angeles, I believe, is the most congested 
and Washington is the second most congested.
    Mr. Wolf. We don't want to catch up to you either. Thank 
you, Mr. Mayor.
    Mr. Bartlett. Thank you. The program will benefit the 
citizens of the Monrovia, Arcadia, and the northern San Gabriel 
Valley.
    The City of Monrovia was founded in 1886 and is the fourth 
oldest city in Los Angeles County. As with many cities across 
the country, we have struggled with urban decay. However, since 
the early 1990s we have rebounded. In 1995, Monrovia was 
presented with the All-America City award by the National 
League of Cities.
    While I am very proud of our community and our city 
organization, there is still a close place in my heart for 
which we have just not been able to make significant impact. 
That area is local transportation. As a founding member of 
Foothill Transit, Monrovia is a transit leader in the San 
Gabriel valley. However, trying to develop and implement a 
cost-effective, environmentally friendly transit program has 
been problematic. There is simply not the funding for local 
governments to make meaningful gains in this area.
    At this time, Monrovia offers its citizens only a curbside 
dial-a-ride type of program. There is no public transportation 
that conveniently and efficiently connects the various local 
destination points with one to another, much less with a 
neighboring community. Additionally, many of our country 
transit customers are seniors and lower-income residents who 
depend a great deal on inexpensive publicservices.
    For some time now the City has investigated different ways 
not only to help these members of the community to get around 
but also to encourage the driving public to utilize public 
transportation. The City of Monrovia has partnered with the 
neighboring City of Arcadia and Foothill Transit to develop a 
fixed-route electric shuttle transit system using a 
revolutionary, quick-charge technology which has, incidentally, 
been developed in the City of Monrovia by a firm called 
AeroEnvironment. The electric shuttles could be fully charged 
in as little as 15 minutes depending on the duty load. Using 
this advanced technology could convince both public and private 
fleet managers that electric vehicles are practical and 
reliable.
    Briefly, the cost of start-up of the program to operate it 
for 1 year would be 1.6 million. We are requesting .8 million 
in Federal funds for capital acquisition. This amount secures 
six vintage trolly-like electric buses, each with a seating 
capacity of 22 passengers. The vehicles would be procured from 
Ebus of Downey, California, and please refer to the attachment 
and the picture of the vehicles. Additionally, this cost covers 
the installation of AeroEnvironment's Posi-Charge station at 
three operations facilities as well as two locations in the 
field for a total of five charging operations.
    The cities of Monrovia, Arcadia and Foothill Transit are 
committed to funding fifty percent of the total cost. Our 
partnership is committed to fund the ongoing cost, including 
maintenance, repair and capital replacement. The funding 
breakdown is attached, and the proposed route for the electric 
shuttle program is a 5.3 mile stretch between Old Town and 
Santa Anita Fashion Park Mall and Santa Anita Race Track. 
Currently no existing transit services link these destinations.
    During the first year of the program and demonstration 
project the fare to ride the shuttle would be fully subsidized. 
Beginning year two, the rate would be 25 cents. It is 
anticipated that the peak ride times will be midday, lunch 
trips, and early evening shopping trips. Foothill transit will 
handle the operational aspects of the program. As a founding 
member and current president of Foothill Transit executive 
board, I am proud to state that Foothill Transit is ready, 
able, and eager to begin this program. We are nationally 
recognized as a model transit organization, and we take pride 
in keeping projects on target and within budget and responsive 
to customer needs.
    From an operational perspective, Foothill Transit has 
conducted all the necessary analysis and studies to determine 
the true and accurate costs of the obligations associated with 
this program. Additionally, the latest technology will be 
utilized for shuttle tracking and route synchronization. We 
have a GPS system.
    The estimated 800 daily boardings would result in a daily 
reduction in 4,034 vehicle miles. In a region like Los Angeles 
County where the challenges to enhance air quality standards is 
problematic at best, implementing the electric bus program will 
prove the first step in a positive, environmentally meaningful 
direction.
    I would like to conclude my remarks by emphasizing the 
point that Monrovia has pulled itself up by the bootstraps and 
has had a great deal of success at the grassroots level. 
Through community involvement, good planning and adherence to a 
positive vision of the future, Monrovia has resumed its 
position as a leader among communities. However, as the need 
for this program demonstrates, sometimes part of being a leader 
is recognizing the collective, long-term good which 
necessitates that you ask and seek assistance.
    This program is important to my community, and I appreciate 
your time and consideration, Mr. Chairman, and committee 
Members, and also I would like to indicate that Congressman 
Dreier is in full support of this program and has sent a letter 
as such.
    Mr. Wolf. Thank you very much. Any questions? Again, thank 
you very much.
    [The letter from Congressman Dreier and the prepared 
statement of Bob Bartlett follow:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                       Thursday, February 10, 2000.

         SOUTH BEND PUBLIC TRANSPORTATION CORPORATION (TRANSPO)


                               WITNESSES

HON. TIM ROEMER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF INDIANA
DOUGLAS W. WAY, VICE CHAIR, TRANSPO
    Mr. Wolf. Mr. Roemer with the South Bend Public 
Transportation Corporation and Douglas W. Way, Vice Chair, 
TRANSPO.
    Mr. Roemer. Mr. Chairman, I would ask unanimous consent 
first of all to have my entire statement entered in the record.
    Mr. Wolf. Without objection.
    Mr. Roemer. Secondly, before I introduce Doug Way, I want 
to extend and express all my appreciation and gratitude on 
behalf of my constituents to this committee for all of their 
support for the facility now, the South Street Facility that is 
up and running in South Bend, Indiana. With your help, with 
your appropriations over the last several years, we have a 
facility that is serving 2.4 million riders, reviving a vital 
part of South Bend, Indiana, and contributing in many 
significant ways to serving some of the disabled population and 
some of the people that don't have reliable transportation and 
helping us on a local level solve some of the welfare 
transportation problems. So we are very, very grateful to this 
committee for all your help. Thank you very, very much for that 
support.
    The South Street Facility is proving to be a cornerstone in 
this area. Doug Way is with me today who is the vice chairman 
of the TRANSPO facility that is up and running. We have in the 
audience Lucky Reznick, a board member, who is very supportive 
of this as the whole community. Mary McLain is the general 
manager of the facility. We have the support on the Senate side 
of Senator Dick Lugar and Senator Evan Bayh for this new 
request that we are coming before the committee.
    As the subcommittee begins consideration of the 
transportation funding priorities for fiscal year 2001, I want 
to bring your attention to the next phase in our project that 
you have so generously supported. TRANSPO's first priority now 
is to replace the aging bus fleet that will service the 
citizens of South Bend. TRANSPO operates a fleet of 54 buses. 
Eleven were recently replaced with 43 remaining in continuous 
service for more than the industry standard life span which is 
12 years.
    Using current and future funds from existing sources 
another 16 buses are planned for replacement leaving 27 for 
which funding is still needed. The buses for which replacement 
funds are sought have been in continuous service for 14 years, 
Mr. Chairman, and have operated more than 500,000 miles each. 
These buses carry more than 2.4 million riders every day.
    As the bus fleet ages, significant repairs become 
increasingly necessary. Replacing an aging fleet provides 
distinct benefits to the citizens who rely on the bus service. 
TRANSPO passengers who are elderly, who are disabled, who are 
without access to other forms of transportation will be able 
with your help to count on more reliable service due to fewer 
breakdowns.
    I have to say, Mr. Chairman, in talking to Mary McLain and 
other members of the board the other day that just last year we 
had five buses break down on the same day in South Bend. So we 
really need your help on this project.
    TRANSPO has secured 1.875 million in local support to 
assist in the fleet replacement project. Therefore, as you 
consider your appropriations request for fiscal year 2001, I am 
respectfully asking for a $7.5 million appropriation which, 
combined with local funds, will allow the replacement of the 
remaining 27 buses.
    I want to thank you again for all your time and for all 
your support. I look forward to answering any questions you 
might have and having Doug Way also have the opportunity to 
answer some questions. Thank you again.
    [The prepared statement of Tim Roemer follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Wolf. Mr. Way.
    Mr. Way. Yes. Mr. Chairman, members of the subcommittee on 
behalf of the South Bend Public Transportation Corporation, I, 
too, on behalf of the board would like to thank you for your 
generous support in the development and construction of the 
urban intermodal transportation facility. Due largely to 
Federal funding, we are near completion of the total facility; 
and I might add completion within the budget that was presented 
in 1992. I would also like to thank Representative Roemer for 
his continual support of our efforts in mass transportation.
    I am here today to request discretionary funds of 7.5 
million to finalize our fleet replacement of aging buses. Of 
the 54 buses in our fleet, we currently have funding in place 
to replace 27. It is the remaining 27 that we are seeking 
assistance for and are able to provide local matching funds 
for.
    I am pleased to submit my entire statement for the record 
and would like to thank the committee for the opportunity to 
testify today.
    [The prepared statement of Douglas Way follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Wolf. Thank you very much. Mr. Roemer, let me just add 
something here that is off the subject, but I saw the other day 
that you introduced a bill to ban gambling on NCAA sports, and 
I just want to commend you. I think this is a real test for 
this Congress. Both political parties, Republican and Democrat, 
have taken heavy money from the gambling industry, and it is 
against the law in Nevada to gamble on their college sports, 
and if we can't pass your bill it will send a message to the 
American people that there is something fundamentally wrong in 
this town. We are all talking, politicians, of protecting young 
people, and I think your bill and I think Senator Leahy has it 
on the Senate and Senator Brownback, and I want to commend you. 
I think this is a test for this Congress, if we can't protect 
young people who are playing in high school and college and 
Olympic sports. So I just wanted to break into that and make 
sure that it is on the record, and obviously it is your bill 
and I commend you. You are still going to have to do it, but I 
still salute you.
    Mr. Roemer. Thank you. I look for any cosponsors on the 
committee. I am not here to seek cosponsors, but if I can get 
any while I am here without endorsement I appreciate it.
    Mr. Serrano. Put me on the bill and on your request.
    Mr. Roemer. You got it.
    Mr. Wolf. God bless you.
    Mr. Roemer. You might get more help from the Chairman for 
that.
    Mr. Wolf. Thank you very much.
                              ----------                              

                                       Thursday, February 10, 2000.

              GREATER CLEVELAND REGIONAL TRANSIT AUTHORITY


                               WITNESSES

HON. STEPHANIE TUBBS JONES, A REPRESENTATIVE IN CONGRESS FROM THE STATE 
    OF OHIO
GEORGE F. DIXON, II, PRESIDENT, BOARD OF TRUSTEES, GREATER CLEVELAND 
    REGIONAL TRANSIT AUTHORITY (RTA)
CLARENCE ROGERS, INTERIM GENERAL MANAGER/SECRETARY-TREASURER, RTA
    Mr. Wolf. Greater Cleveland regional transit authority with 
Congresswoman Tubbs Jones; and Mr. George Dixon, President, 
board of trustees; Clarence Rogers, interim general manager. 
Your full statements will appear in the record as if read.
    Mrs. Jones. Thank you, Mr. Chairman.
    Mr. Wolf. Welcome.
    Mrs. Jones. Thank you. Good morning, Mr. Chairman and other 
members of the committee. I would like to thank you for this 
oppportunity to introduce to you my constituents. Seated next 
to me is George Dixon. George Dixon happens to be the 
chairperson of the Greater Cleveland Regional Transit Authority 
and an old friend of mine who has been very active in the 
Cleveland community, both in the public and private sector. And 
seated next to Mr. Dixon is the interim general manager of the 
Greater Cleveland Regional Transit Authority, been with the 
transit authority about 6 years and a practicing attorney.
    We are here on behalf of the Euclid corridor project. Last 
year we were here once before, and with your support--and I 
want to thank you for that support that you gave us--we were 
able to get some congressional money that was earmarked for the 
program. We are back here again. I will allow the witnesses to 
testify. I would just like to say on behalf of the residents of 
the 11th Congressional District it is wonderful to have 
colleagues like each of you who give us an opportunity to be 
heard, and I thank you for that.
    Mr. Dixon. Thank you, Mr. Chairman. I also would like to 
thank you for your support in the past. Unfortunately, there 
are not many things that we can bring to you, so we brought 
this wonderful sunshine from Cleveland, Ohio, with us to help 
melt some of your snow.
    Mr. Chairman, members of the committee, thank you for this 
opportunity to present an update on a project that is vital to 
the greater Cleveland area. The Euclid corridor Improvement 
project enjoys strong support from both the public and private 
sectors; and after Monday's presidential budget was released, 
we can now say the project also has the support of the Federal 
Transit Administration.
    Since our presentation last year, the project has been 
reconfigured at the urging of the FTA to focus on the bus rapid 
portion, eliminating the need to relocate three rapid transit 
stations. The project will add a dedicated bus lane on five 
miles of Euclid Avenue, a major east-west street that connects 
the two largest employment centers. The bus lane to be designed 
along a landscaped center median would also facilitate 
surburban bus traffic throughout the downtown area and help 
more riders reach their destinations.
    As an FTA demonstration project for bus rapid transit, the 
project's creation of an exclusive busway and the introduction 
of unique electric trolley buses appropriately meets the 
guidelines of a new start fixed guideway. We reduced our 
requests for New Starts funding from 200,000,000 to 135,000,000 
and deleted new and renovated rail stations and two transit 
centers. This enabled us to obtain an FTA recommended rating, 
including a recommended rating of $8.8 million earmarked in the 
administration's budget.
    [The prepared statement of George Dixon follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Wolf. Sir, are you done? Do you want to say anything?
    Mr. Rogers. No, I am fine with letting our chairman speak.
    Mr. Wolf. Do you want to finish that thought?
    Mr. Dixon. Yes, yes, I do.
    Mrs. Jones. The only thing we want to add, Mr. Chairman--
Mr. Dixon is a little bit nervous--is that we were in fact 
earmarked for $8.8 million. We really need $10,000,000 to get 
this project in the position that it is going in. So we are 
seeking in addition to the earmark by the President $1.2 
million in addition, and we would like to thank you for the 
time you have given us and are prepared to answer any questions 
that any member of the committee might have.
    Mr. Wolf. Thank you. Any questions? Mr. Regula.
    Mr. Regula. Thank you, Mr. Chairman. I want to commend them 
for revising their plans into a more realistic proposal. I am 
very familiar with this corridor. I have driven up Euclid 
Avenue many times, and I think it is the type of thing that we 
need to do to restore vitality to our urban centers. If we 
could couple this with brownfields legislation, I think it 
would be a lot of development and result in jobs and companies 
moving back into the core city, and that should be one of the 
overarching goals of this Congress to in fact revitalize the 
cities. So I commend the city and the transitboard for their 
efforts, and I am really pleased that you have brought it into what I 
think is a doable set of proposals, and that is reflected in the 
President's budget that they did give you support.
    So I will do all that I can to ensure that we give this 
proposal the best treatment we can in terms of funding, 
depending on what our allocation is and what we have to do 
with, but you are off to a good start.
    Mrs. Jones. Thank you, Mr. Regula.
    Mr. Wolf. Staff tells me you were down to Cortiba; is that 
correct?
    Mr. Dixon. Yes.
    Mr. Wolf. In my area we initiated that and I think you are 
one of the 10 that is part of that. I think that is really 
going to have to be the way that many of these transits are 
going. Everyone thinks in terms of rail, rail, rail; and this 
is faster, cleaner, efficient, faster to deliver and in some 
respects more effective. So I think it has been important you 
have tailored and changed it. The project is a good project. 
Thank you very, very much. We appreciate it.
    [Questions for the record from Congresswoman Kilpatrick 
follow:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                       Thursday, February 10, 2000.

           NORTHERN INDIANA COMMUTER TRANSPORTATION DISTRICT


                                WITNESS

HON. PETER J. VISCLOSKY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    INDIANA
    Mr. Wolf. Mr. Visclosky, if you can come up and then maybe 
we can also have Congressman Gordon and Clement and Weygand and 
Mr. Shays.
    Mrs. Jones. Thank you, Mr. Chairman, Mr. Regula, 
colleagues.
    Mr. Wolf. We are going to take Mr. Visclosky first. Your 
full statement will appear in the record.
    Mr. Visclosky. Mr. Chairman, I appreciate that and I have 
more requests contained in the statement, but I would begin by 
thanking you, Mr. Sabo, and all of the members on both sides of 
the aisle of this subcommittee for your past serious 
consideration of my requests and for your generosity. I want to 
focus the members' attention on safety in an emergency 
situation I face in northwest Indiana.
    There are four railroad tracks at a grade crossing near our 
lakeshore, which over the last 12 years have now experienced 
six grade-crossing accidents, the most recent of which was in 
June of 1998, including three fatalities. There are on a daily 
basis 2,500 cars that cross those tracks. There are 1,800 
trucks. Because it is an industrial area, across from those 
tracks, and on a daily basis, 132 trains use those four tracks, 
including 14 Amtrak trains and 26 commuter lines, I would ask 
for your consideration of an earmark of $6.5 million for 
construction of a bridge.
    Grade separation was recommended in a National 
Transportation Safety Board report that was issued in late 
August 1999. They asked that the bridge be built within a 2-
year period of time given the rate of accidents. I would point 
out that in a very bipartisan fashion, the Democratic mayor of 
Portage, the Republican-dominated county council and county 
commissioners, and our Democratic governor have also lended 
their commitment as far as the construction of this bridge and 
would ask for your serious consideration, Mr. Chairman.
    Mr. Wolf. Thank you very much. Any questions?
    [The prepared statement of Peter Visclosky follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                       Thursday, February 10, 2000.

                NASHVILLE REGIONAL COMMUTER RAIL SYSTEM


                               WITNESSES

HON. BOB CLEMENT, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    TENNESSEE
HON. BART GORDON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    TENNESSEE
    Mr. Wolf. Mr. Gordon.
    Mr. Gordon. Thank you, Mr. Chairman. I want to yield to my 
friend and member of the transportation committee, Bob Clement, 
to start our limited time here.
    Mr. Clement. Thank you, Mr. Chairman and Mr. Sabo and 
members of the committee and staff. I thank you for taking the 
time to consider our requests for Federal funds for the 
Nashville Regional Commuter Rail System. I cannot thank you 
enough for your consistent support for this project. I know you 
are in a difficult position as so many projects nationwide 
compete for limited dollars, and I am grateful that you have 
deemed the Nashville Commuter Rail endeavor worthy of your 
support.
    Once again, we need your help. We are requesting on behalf 
of the regional transportation authority $20,000,000 in fiscal 
year 2001 Federal funds. These funds would be used for the east 
corridor of the rail system. I am proud to report to you that 
since this time last year our regional and local planners have 
made great strides with regard to the rail planning process. 
The Federal Transit Administration is involved on every level, 
and last year Nashville received approval to enter preliminary 
engineering for the east corridor. The RTA has provided the 
necessary preliminary engineering information to the FTA and is 
ready to begin the final design phase of this first corridor.
    Mr. Chairman, last year I distinctly recall your 
acknowledgment of the traffic and gridlock problems facing 
Nashville and middle Tennessee. Now, 1 year later the problems 
have only worsened. As you know, the Texas Transportation 
Institute has cited middle Tennessee as the 11th most congested 
area in the United States, and I might say that again, that 
middle Tennessee now is the 11th most congested area in the 
entire country. Road congestion and air pollution are at an all 
time high, and it is our earnest belief that commuter rail is a 
solution to these problems.
    As you will see in the East Nashville Regional Commuter 
Rail Preliminary Engineering report--and I have got this for 
you and your staff--regional planners are eager to introduce 
commuter rail to our region, and we surely have the support of 
the State, we have the support of the local authorities, and we 
surely have the support of the people at home, which is 
critically important to move forward with such a project.
    In closing, I want to thank you for your consideration of 
this request. We look forward to working with you on this 
proposal as Congress moves forward in the appropriations cycle.
    [The prepared statement of Bob Clement follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Gordon. Mr. Chairman, as a quick amen, let me sincerely 
thank you and the committee for the $2,000,000 that you have 
provided us to do the preliminary design work. As Bob said, we 
have a real problem. We are choking to death. Nashville is the 
only city of its size in the southeast that does not have some 
rail transportation. We have five interstates that come in and 
out of the Nashville area. All have either been expanded or are 
in the process of being expanded to the full extent of their 
right of ways. We cannot do anything else.
    And honestly, we do not have a crisis today. We are on the 
verge of a crisis, and that is why we need to get started. We 
have tried to do the homework with your help in the preliminary 
design. We are ready to go. Our local communities have made the 
commitment to belly up with their funds both for the continuing 
use of the mass transit as well as the local funding part of 
it.
    We have an 8.8 I think amount that was put in the budget. 
We simply need to get that increased. $20,000,000 is what has 
been estimated for that amount that we need to complete this 
first phase, and we hope that in a tight budget that you can 
look at this, see the merits and help us move forward; and I 
again thank you for getting us to this point.
    [The prepared statement of Bart Gordon follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Wolf. Any questions?
    Mr. Olver. Mr. Chairman, may I just ask, is the $20,000,000 
with what funds have already been put forward, I take it the 
$2,000,000 was used to produce that wonderful document that you 
have there in front of you. Would I be correct in that?
    Mr. Gordon. That is the preliminary designs and all of the 
necessary steps working with the Department of Transportation 
that you have to go through. As you well know, you have got to 
go through door A, B, C, D to get to the final door; and we 
have tried to play by the rules and take this to the full 
process, and that is what your funds have helped us to do.
    Mr. Clement. Planning and engineering work.
    Mr. Olver. Would the $20,000,000 be enough with what has 
already been appropriated in local moneys to complete the east 
corridor?
    Mr. Clement. That is correct. We would be operating on 
existing track, and we are not building track. We are just 
operating on existing track. So we are trying to do it as a 
bare bones project for all of you, knowing that we all fight 
those fiscal problems, and that is why we have got all the 
various parties ready to go and prepared to do what is 
necessary. We just surely need your help and need that 
$20,000,000.
    Mr. Gordon. John, where we are is we are trying to do it, 
as Bob said, in an economic way. We are using existing tracks. 
We already have approval by the short line that is going to let 
us use it. We have already got the land bank ports along the 
way. Everything is set up. We just need to take the final step 
with the capital investment, and the local communities are 
ready to belly up with, you know, the need for--there will be 
subsidies for ridership and like most mass transit early on, 
but they recognize that and they are prepared to do it. We want 
to make this a success story for you.
    Mr. Olver. Thank you, Mr. Chairman.
    Mr. Wolf. Thank you both very much. We appreciate it.
                              ----------                              

                                       Thursday, February 10, 2000.

                     RHODE ISLAND RAIL DEVELOPMENT


                                WITNESS

HON. BOB WEYGAND, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF RHODE 
    ISLAND
    Mr. Wolf. Bob.
    Mr. Weygand. Thank you, Mr. Chairman. Let me begin by first 
of all submitting my testimony, and I will be as brief as I can 
about the Rhode Island Rail Development program. I want to 
thank you, Mr. Chairman. You have taken a personal interest in 
this. I appreciate the effort and support you have given us in 
the years that I have been here. It really has made a 
difference for this project. I want to thank my colleagues, 
too, particularly John and many other people from New England, 
who have supported this project.
    This is a project that is very bipartisan. Our Republican 
governor and also our entire delegation from Rhode Island is 
very supportive of this project. As you know, Mr. Chairman, it 
has been rather difficult to put all the pieces together 
because of a number of different problems that have 
consistently been in our way, but we are fastly moving forward 
on this.
    The State of Rhode Island, as you know, has appropriated 
through bonding and other means a major portion of this 
project. Through you and this committee, we have received 
approximately $38,000,000 toward the total project of about 
$148,000,000 for the third rail project of the Rhode Island 
Rail Development program. We have already contracted over 2 
years ago with Amtrak. We have already begun and have bought 
long lead items ahead of schedule.
    One of the problems we have incurred over the past year is 
that previous contracts that Amtrak have have precluded them 
from beginning some of the construction work in a timely 
fashion for this project. We have, though, looked at the 
schedule. We have worked with Amtrak and DOT to come up with a 
better schedule to get this on track and completed in a faster 
way than what we had anticipated. We hope the entire project, 
the whole $148,000,000, will be done by the latter part of 
2002.
    We are requesting, Mr. Chairman, the final assistance from 
the Federal Government, about $17,000,000, Mr. Chairman. That 
would bring you up to a total contribution toward the project 
of about $55,000,000 toward the overall project of 
$148,000,000.
    I know that your staff, our staff and the senatorial staff 
on the other side have worked closely on this project. There 
has been some degree of frustration from our side as well as 
your side to getting this done faster.
    The Third Track Project, as we know it in Rhode Island, is 
necessary because the northeast corridor is just becoming or 
just getting online this spring, which has precluded any 
freight traffic from going or will preclude most freight 
traffic from coming out of Quonset Point, our new industrial 
park, to get up to Springfield, Massachusetts, and eventually 
to Albany and connect to all the other rail systems of the U.S.
    It is critical to the economic development of Quonset 
Point, which is a 3,000 acre industrial park, to have this 
project completed. It is critical to continue the Federal 
funding. If not, we will be at a tremendous shortfall in making 
sure this project comes to fruition.
    With that, Mr. Chairman, I will end my testimony. I want to 
thank you again for the great help you and the committee have 
given us on this project.
    Mr. Wolf. Well, thank you, Bob, for coming. You have been a 
strong advocate, and I know we have talked about it a lot. I 
think we are in it and hopefully we can deal with it, but I 
understand. So thank you for coming, and any questions?
    Mr. Weygand. Thank you. I want to thank your staff as well. 
They have been very generous with their time.
    [The prepared statement of Bob Weygand follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                       Thursday, February 10, 2000.

    BRIDGEPORT INTERMODAL TRANSPORTATION CENTER AND STAMFORD URBAN 
                               TRANSITWAY


                               WITNESSES

HON. CHRISTOPHER SHAYS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CONNECTICUT
MAYOR JOSEPH P. GANIM OF BRIDGEPORT, CT
MAYOR DANNEL P. MALLOY OF STAMFORD, CT
    Mr. Wolf. Thank you very much. Next, Congressman Shays with 
the Mayor of Bridgeport and the Mayor of Stamford, Connecticut.
    Mr. Shays. Thank you, Mr. Chairman. All three of us have 
submitted our statements and will just make brief comments. I 
am joined by Mayor Ganim who will talk to you about the 
Bridgeport Intermodal Center and by Mayor Malloy, who will talk 
to you about the Stamford Urban Transit Way.
    I would just like to say as a senior member of the budget 
committee I believe in the authorization process. I voted 
against TEA-21 because I think you should make these decisions. 
We have been authorized, and are asking for appropriations, and 
I would just like to conclude by saying we are really a part of 
the corridor between New York and the rest of the Nation to 
Boston. We have stopped traffic on our highways all day long. 
You are going to hear about public intermodal centers in both 
Bridgport and Stamford in my district, which are vitally 
important for the country. Let me start with the mayor of 
Bridgeport.
    [The prepared statement of Christopher Shays follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Ganim. Thank you, Congressman Shays. We refer to him as 
Chris, and we have bipartisanship that is alive and well in 
Fairfield County, Connecticut; and we appreciate all that 
Congressman Shays does for us.
    Mr. Chairman and members of the committee, I am mayor of 
Bridgeport, Connecticut. My name is Joseph Ganim, and I am hear 
asking for your continued support on what is called the 
Intermodal Transportation Center for the city of Bridgeport. It 
is in process now. You have been kind enough to begin the 
funding process for us, and we are in the midst of actually 
constructing the first phase of this, which is a 900-space 
parking garage which will take 900 cars off of the I-95 
corridor that is one of the most congested traffic spans 
probably in the country.
    Mr. Wolf. I have been on it many times.
    Mr. Ganim. It is not a fun place to sit, certainly in the 
morning if you are trying to get to the airport to come down 
here or go to midtown Manhattan between our two cities. So we 
are anxious to build it and in anticipation of continued 
support, frankly, in the last budget cycle that we began the 
construction and find ourselves in a situation where we have 
gone to a local bank to bridge finance the continuation of the 
project because we think it is that important.
    With that we have poured concrete. The footings are in. We 
have ordered steel, and we hope and believe this project will 
be completed by the spring. Somewhere on the way to its 
completion, we did not get our second phase of funding, and so 
we are hoping that, Mr. Chairman, as you and this committee 
move forward on this you would realize, as I am sure you do, 
the vital importance that this provides to not only relief of 
congestion but to allow for mass transit, to allow for 
Bridgeport a transportation hub to continue to build what we 
believe will be ultimately a state-of-the-art transportation 
facility for train, bus, taxi, ferry, as well as relief for 
congestion off of I-95.
    My last comment would just let you know that this is also a 
former brownfields site where this is being built. It was an 
old factory building that was left abandoned at one point and 
then graffitied and really gave a very tired view if you will 
of part of our downtown. It has been renovated. There is now a 
new minor league baseball stadium right there. It started the 
revitalization of northeast city, my city, Bridgeport, and this 
is another vital piece to continuing the improvements there, 
and we appreciate all your help and your support.
    [The prepared statement of Joseph Ganim follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Malloy. Thank you, Mr. Chairman, and all the members of 
the committee, as well as the staff for allowing me to speak to 
you this morning; and thank you, Chris, for inviting me to come 
down.
    The city of Stamford is 111,000 people. We have one of the 
busiest train stations in America. 212 trains pass through our 
station every single day. 100,000 passengers pass through our 
station every single day. You have invested or are in the 
process of completing an investment of $150,000,000, which 
includes underpass corrections so that traffic can get in from 
the north to that station. It also includes the eventual 
addition of a 1,200-car parking garage as well as two 
additional center-island platforms in this station.
    Obviously with foresight, you have invested in the station 
that you believe can entertain substantially more traffic than 
it even currently does; but I am here about the problem that 
that causes, and that is, that there is very little access from 
the south and the east of that station. We have designed an 
intermodal transit way, including paths for buses, cars, bikes, 
sidewalks that will allow us to get traffic in and out of that 
station, particularly when the 1,200-car additional garage 
comes online. Otherwise, quite frankly, we will not be able to 
see the completion of the vision that you have funded, the 
additional traffic on the corridor from Stamford to New York, 
take place.
    You have invested $150,000,000. We are asking now for 
$16,000,000 to complete the Transitway on this project. I can 
personally guarantee you that without these moneys we will have 
a bottleneck and we will not see our vision. With these moneys 
we will be able to get traffic in and out of the station as 
well as lead to the redevelopment of a substantial area of 
Stamford, the south end of which is, by and large, a brownfield 
in its entirety. If we can't get people into the station and 
into the south end, we can't accomplish those tasks.
    I also want to point out that the city of Stamford has not 
only dedicated $5,000,000 of its own funding to this project, 
but we have indicated we will fund any overage based on the 
project budget.
    So we stand behind this. This is a project that was first 
identified in the Swan Report on Stamford's development in 
1929. It has been reviewed on an ongoing basis, and I am doing 
everything within my power for the limited time that I have to 
lead the city to bring this project to fruition.
    Mr. Wolf. Thank you very much. Any questions? Thank you 
very, very much.
    [The prepared statement of Dannel Malloy and letter from 
Christopher Shays follow:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                     Thursday, February 10, 2000.  

           SAFETY FENCING ALONG ACELA HIGH-SPEED TRAIN ROUTE


                                WITNESS

HON. BARNEY FRANK, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MASSACHUSETTS
    Mr. Wolf. Next panel, Congressmen Frank, McGovern and Neal.
    Mr. Frank. Thank you, Mr. Chairman. We appreciate your 
having us here.
    My colleague and I share two communities in Massachusetts, 
the towns of Foxboro and Mansfield, which are getting the mixed 
blessing of the high speed train. Now, I have been a strong 
supporter of it, and I am very appreciative of the fact that we 
have made it possible. I think that is going to be enormously 
beneficial.
    There are some safety issues that arise because people who 
have lived here near the tracks, and obviously these are 
people--it is not a new train. They knew there were trains 
there. They saw tracks, and trains have, in fact, been going 
through, but they have gone slower or more slowly; and so what 
we are trying to do is get some fencing put up because 
obviously when the trains are going faster and people are used 
to a slower rate, the danger of small children, animals and 
others greatly increases, and obviously we are particularly 
concerned about the small children.
    Now, Mr. McGovern and I have been working with the Amtrak 
people and with the Massachusetts Bay Transit Authority, which 
has a kind of joint responsibility, allowing each of them to 
blame the other for the fact that nothing is happening from 
time to time; and we have been pushing for fencing. They have 
acknowledged the need for fencing, and they are moving forward 
with it, but we did want to come here and ask that money be 
specifically identified for the fencing. Obviously, we are not 
talking about millions of dollars overall, but I think the 
high-speed train is a very important project. I am glad it is 
there.
    I do think it is important if we are going to continue to 
get the public support we need for these transportation 
projects that we are reasonable in mitigating the downside; 
that is, most of us are going to benefit enormously in the 
corridor from that high-speed train. Some people who live right 
nearby get a disproportionate negative impact. To the extent 
that we can alleviate that by dealing with sound problems which 
is another issue that will come up, and particularly with 
safety, that gets the highest priority. We should do that.
    So we have some numbers I guess we will be giving you that 
Amtrak finally gave us about how much the fencing costs. We are 
talking, I think the optimum is a few thousand feet of fencing 
in each of these communities to protect what was otherwise open 
access that could be dangerous.
    Mr. Wolf. What we would do, I appreciate your comments. We 
will do everything we can to help. I am going to have the staff 
call Amtrak tomorrow and get a time and everything else to work 
it out with you. So we will be in touch with both of your 
offices to find out where we are and how we do it to make sure.
    Mr. McGovern. I just associate myself with Barney's 
comments. This subcommittee has been very generous to us, in 
the last 2 years has included report language urging Amtrak to 
work together with the communities in the Northeast Corridor 
that have identified safety concerns; and you know, I think we 
know what needs to be done. We just need to provide some of the 
resources to make sure that it happens. I appreciate your offer 
to help us.
    Mr. Frank. By the way, Mr. McGovern and I aren't stupid. 
The next time we come here, as I look around, we will be 
wearing those children's ties, too. We are going to associate 
ourselves with the ties of the members.
    But there does appear to be a bit of a bureaucratic 
obstacle that was raised, and I am a little annoyed because we 
had a meeting with the MBTA and Amtrak and with Mr. McGovern 
and I. The MBTA didn't raise this. They are now saying, well, 
they don't want to do the maintenance, and it is on their 
right-of-way. It is our obligation to work that out. Mr. Olver 
is having flashbacks to old days of running the MBTA situation, 
but we do understand our obligation to try to get State 
officials to work that out, and we do that in that context.
    Mr. Wolf. The staff will meet with Amtrak and call bothof 
your offices and try to get a date and everything else.
    Mr. Frank. Thank you very much, Mr. Chairman.
    [The prepared statement of Barney Frank follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                       Thursday, February 10, 2000.

         TRANSPORTATION ISSUES IN 3d DISTRICT OF MASSACHUSETTS


                                WITNESS

HON. JAMES P. McGOVERN, A REPRESENTATIVE IN CONGRESS FROM THE 
    COMMONWEALTH OF MASSACHUSETTS
    Mr. McGovern. I just have two other issues. Congressman 
Neal was supposed to be here, but he is actually hosting a 
meeting on Northern Ireland right now and can't be here. But in 
my testimony, which I am not going to go into, as a result of 
redistricting, not only do I split communities, but I also 
split communities with Congressman Neal, and there is a request 
for some help for the Vietnam Memorial Corridor in Auburn.
    And one other request that this committee was very generous 
to me last year with is a Mixed-Use Intermodal Transportation 
Facility in Attleboro. The subcommittee had allocated 
$1,000,000 to this project, which is going to encourage people 
not only in the Attleboro region, but also in Rhode Island to 
use public transportation and get off the roads; and the 
$1,000,000 that you had given me got cut down to a 500,000 in 
conference, which is still very helpful getting the project 
going. But I have put in a request for $3,000,000 to get this 
thing moving and whatever consideration the committee could 
give I would appreciate it.
    Mr. Frank. We would just add, Mr. Chairman, that the high-
speed train does not stop at the Foxwood Casino, so you don't 
have to worry about that.
    Mr. Wolf. This is positive.
    Mr. Olver. Mr. Chairman.
    It is interesting, Barney, you should say that because we 
were sitting here as you were starting your testimony thinking 
what kind of a CODEL we could put together in the Northeast 
Corridor along with a stop at the Foxwood Casino. There are 
actually two or three of them.
    Mr. Frank. This does actually go very near the Patriot's 
new stadium.
    Mr. Wolf. I have a daughter who lives in the Boston area. 
My wife is from Marblehead.
    Mr. Frank. We certainly want to keep them safe.
    Mr. Olver. I just want to add to what the chairman said. I 
think with the trouble you have had--and we in Massachusetts 
have all kinds of difficulties with those agencies we have to 
deal with up there--that the push that can come from trying to 
get Amtrak to identify exactly how close they are and what they 
are ready to do is a problem in itself.
    Mr. Frank. We have also been in touch with one of the newly 
appointed Amtrak board members, who had some seniority with 
Governor Dukakis, but your intervention will be very helpful.
    Mr. McGovern. Thank you very much.
    Mr. Wolf. Thank you.
    [The prepared statement of James McGovern follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                       Thursday, February 10, 2000.

       TRANSPORTATION INFRASTRUCTURE, CITY OF NEWARK, NEW JERSEY


                                WITNESS

HOWARD LAZARUS, P.E., NEWARK DIRECTOR OF ENGINEERING, ON BEHALF OF 
    HONORABLE SHARPE JAMES, MAYOR, NEWARK, NEW JERSEY
    Mr. Wolf. Next panel, Mr. Frelinghuysen. He has been 
called. Is his witness, Commissioner Weinstein of New Jersey 
and chairman of the board, is he here? Is anyone here that 
wants to testify?
    Mr. Lazarus. I am here to represent Mayor James and the 
city of Newark, New Jersey.
    Mr. Wolf. Why don't you come on up and you can begin, and 
then when Mr. Frelinghuysen comes we can hear from him. Your 
full statement will appear in the record, so if you can 
summarize we would appreciate it.
    Mr. Lazarus. Yes, Mr. Chairman.
    I would like to begin by thanking you and the members of 
the subcommittee for giving me the opportunity, and I know how 
precious your time is. My name is Howard Lazarus. I am the City 
Engineer and Director of Engineering for the city of Newark, 
New Jersey, which is the State's largest city. Major James 
deeply regrets that he can't be here today, because if he were, 
he would thank the committee for all of its prior support in 
funding Newark's transportation requests .
    In honoring the chairman's request that I summarize, what I 
would like to do is present two projects that we are asking for 
some assistance for this year. One is for the city's Newark-
Elizabeth rail link, which is a project that will link downtown 
Newark to the airport, Newark Airport, and to the city of 
Elizabeth. The key part of this project is that it links many 
of the other development opportunities going on in the city 
right now.
    Starting at what is called Broad Street Station, a train 
center from the--west of the city, from the western suburbs, 
and going to New York City, the first segment of this rail 
link, which is what we are asking support for this year, will 
go from the upper Broad Street area. It will link our new 
baseball stadium, as well as some new low-income housing that 
is being constructed, to regional and local transportation and 
employment opportunities.
    The first part of the rail link will go from Broad Street 
past IDT, which is a telecommunications company which has 
relocated into the city, bringing with it 2,000 jobs, 
Prudential which has brought another 1,000 jobs into the city, 
and will travel down through the heart of the downtown, past 
the New Jersey Performing Arts Center, which opened about 2-\1/
2\ years ago and is still going strong, playing to over 90 
percent capacity.
    It also goes by the Joseph G. Minish Riverfront Park on the 
Passaic River and historic area. The stop there will open up 
the revitalized city waterfront to visitors and residents 
alike. It is a project that has been advanced by the Energy and 
Water Subcommittee, one where we had a ground-breaking this 
past November with the Corps of Engineers. It is a long awaited 
project and it will help the city reclaim its ties to the 
Passaic River.
    From there, the rail link will go underground and will join 
the city subway system. So the rail link will then open up the 
University Heights area, which is growing. It is the home of 
four major universities which has 50,000 commuter students per 
day accessing it, and then beyond that the rail link in its 
full build-out is an 8,800,000, 15-station system that will 
connect to the Newark Airport which has now got an airport 
monorail extension under construction so that from the 
Northeast Corridor line of Amtrak you will be able to access 
local rail, regional rail and the airport. It is a tremendously 
exciting project that is going on.
    From there, the rail link will join into the city of 
Elizabeth, New Jersey, opening up tremendous employment 
opportunities for Newark's residents in some commercial 
developments that have taken place, both at Port Newark and 
Newark Airport and within the city of Elizabeth, as well as the 
telecommunications industry which is growing inside of the city 
of Newark's boundaries.
    And Commissioner Weinstein when he will appear will ask for 
$47,000,000 to support the first segment of the Newark-
Elizabeth rail link.
    The second project that is in my statement addresses the 
Amtrak facility at Newark's Penn Station. Newark's Penn 
Station, it is the last stop on the Northeast Corridor line 
before entering New York City. It is a hub for New Jersey 
transit's bus line, its rail lines, as well as the Port 
Authority's Trans-Hudson Lines. Approximately half a million 
people per day commute in and to the city of Newark taking 
advantage of these transportation centers.
    What we would like to do, and we are asking for support, is 
to extend the platforms on Amtrak's station to tie into an old 
existing railroad overpass, and that will tie into a planned 
sports and entertainment district. It is about a $20,000,000 
project. It is supported by an organization known as Newark 
Sports and Entertainment, which represents the ownership of the 
New Jersey Nets. They plan to build a new area in downtown 
Newark and some associated development to help spur economic 
development. This project of expansion of the ramps will help 
passengers avoid going through the main terminal and be able to 
access the entertainment and sports village which is under 
planning right now. Again, that is a $20,000,000 request and it 
is essential to helping spur development in the lower Broad 
Street corridor.
    Broad Street is the main corridor that runs through Newark. 
The previous investments that have helped spur the resurgence 
of north or upper Broad Street, including IDT, Bell Atlantic, 
have come back to the city as well as the city's museum which 
is a phenomenal draw on its own, drawing a half a million 
people per year into the city. So what we are looking for in 
these two projects is the opportunity to tie together many 
developments, many projects that have occurred over the last 
couple of years to open up the city to regional transport, 
which not only allows people to come into the city and take 
advantage of the opportunities, but also allows our residents 
the opportunity--local and regional employment opportunities.
    Mr. Wolf. Thank you very much. Any questions? Thank you 
very much.
    [The prepared statement of Howard Lazarus follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                       Thursday, February 10, 2000.

              CHAMPLAIN-HUDSON ECONOMIC CORRIDOR COALITION


                                WITNESS

HON. JOHN M. McHUGH, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    YORK
    Mr. Wolf. Mr. McHugh and your delegation. And Mr. Neal, 
your group finished, but you are welcome to come on up. John.
    Mr. McHugh. Mr. Chairman, very, very briefly, you have 
taken an incredibly aggressive agenda upon yourselves, and I 
don't want to diminish that or the time of the speaker that I 
have brought with me, but let me thank you for this 
opportunity.
    I am very happy that you have agreed to hear testimony 
today from Garry Douglas, who is President and Chief Executive 
Officer of the Greater Plattsburgh-North Country Chamber of 
Commerce. Garry is a good friend, but more to the point of this 
afternoon and this morning's conference is that he has been a 
leader in our region with respect to border-crossing issues and 
the transportation infrastructure needs that surround those. He 
has been working very proactively, has studied this issue, and 
I am looking forward to his insights today with respect to the 
Department of Transportation's fiscal year budget. So with 
that, at your convenience, I would be happy to yield to Mr. 
Douglas.
    Mr. Wolf. Sure. Mr. Douglas, do you mind if I recognize Mr. 
Neal for just a minute?
    [The prepared statement of John McHugh follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                       Thursday, February 10, 2000.

     TRANSPORTATION ISSUES IN THE SECOND DISTRICT OF MASSACHUSETTS


                                WITNESS

HON. RICHARD E. NEAL, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MASSACHUSETTS
    Mr. Neal. Thanks, Mr. Chairman.
    Mr. Wolf. Your full statement will appear in the record, 
too.
    Mr. Neal. You must be relieved to have a man from 
Massachusetts here not to talk about the big dig. Mr. Chairman, 
that should satisfy my request or you should take care of this 
one easily. Pretty good lead-in, Mr. Chairman.
    I am here to testify in support of the Veteran's Memorial 
Highway in Auburn, Massachusetts. One of the phenomena that has 
come of redistricting indicates that a small town like this 
actually has two Congressmen. I represent two-thirds of the 
town of Auburn, which is a suburban community adjacent to 
Worcester, Massachusetts, which you are familiar with; and the 
Veteran's Memorial Highway is a request for $3,000,000 from the 
Interstate Maintenance Discretionary Program.
    I know that Congressman McGovern has spoken earlier on 
behalf of the project, and he is from the city of Worcester, 
and while I come from a bit of a distance away, nonetheless we 
split the community of Auburn. We would like to widen and 
extend Route 12 between Church Street and Route 20 in addition 
to creating five passive parks that would be I think 
satisfactory in terms of memorials to military veterans who 
have served from the Worcester County area.
    The project has been identified as a priority, and indeed 
it is met all of the tentative approvals from the State 
transportation officials, and we think that in short it would 
be not only a worthwhile project but one that would be 
conducive to, I think, enhancing opportunities for commercial 
activity as well. So it has had every conceivable standard, I 
think, that it has had to, and we indeed would look to your 
favor, as you have in the past on many of our projects. You 
have been great to work with.
    Mr. Wolf. Thank you very much, Mr. Neal. Any questions? 
Thank you very much. Your full statement will appear in the 
record.
     [The prepared statement of Richard Neal follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                       Thursday, February 10, 2000.

              CHAMPLAIN-HUDSON ECONOMIC CORRIDOR COALITION


                               WITNESSES

HON. JOHN M. McHUGH, A REPRESENTATIVE IN CONGRESS FROM STATE OF NEW 
    YORK
GARRY F. DOUGLAS, PRESIDENT AND CHIEF EXECUTIVE OFFICER, PLATTSBURGH-
    NORTH COUNTRY CHAMBER OF COMMERCE, PLATTSBURGH, NEW YORK
    Mr. Wolf. I thank you, Mr. Douglas. Go ahead.
    Mr. Douglas. Thank you, Mr. Chairman. I submitted just a 
short time ago 30 copies of a supplement to last week's 
submission. It simply adds a site plan and refined numbers that 
weren't available until early this week.
    I am speaking on behalf of the Champlain Port of Entry at 
Champlain, New York, just outside of Plattsburgh, just south of 
Montreal. We consider our area a Montreal-U.S. suburb, to put 
us in some perspective as to where we are on the map.
    The Champlain Port of Entry is at least the fourth, or by 
some accounts, the third most important commercial gateway 
between the U.S. and Canada in the surging trade activity that 
is going on on our continent. It has experienced exponential 
increases in truck traffic over the last 10 years, doubling 
from the level of the 1980s. That is the good news. It is 
responsible for enormous economic benefit to all concerned.
    The full submission that was provided last week actually 
includes a very unique economic impact assessment that our 
Chamber does of the impact of cross-border commerce on a border 
area, and it really spotlights just how enormous that impact is 
beyond the terms of how the U.S. Government traditionally 
identifies it, $1.4 billion annually in an area of 85,000 
people, and that is rippling up and down these corridors in 
ways that aren't being tracked and quantified by most of the 
traditional viewpoints.
    We know now that 35 of the 50 States now have Canada as 
their number-one trading partner. It is the global gateway in 
Champlain of the Champlain-Hudson Corridor from New York to 
Montreal, directly serving Northeast, Southeast and Midwest 
areas of the U.S. and connecting North America's two largest 
Atlantic seaports, Montreal and New York City.
    And the bad news is, we weren't ready for any of this, and 
we aren't ready for this surging trade and this activity. The 
Champlain Gateway is now very much a roadblock rather than a 
gateway. It was built in 1967. It had two lanes for access 
then. It has two lanes now. Two truck booths then, two truck 
booths now. No bus facility then, none now. No truck facility 
or processing area then, none now. No animal or agricultural 
facilities then, and none now.
    It is almost precisely the same facility as was built in 
1967, the main purpose of which then was to get people to Expo 
67 in Montreal, never envisioning the commercial trade that 
would eventually come there. It has literally been neglected 
for 30 years. And we are now seeing, as a result, the price 
that is paid for that neglect and that we have to move quickly 
to address.
    We now, on a daily basis, are experiencing in Champlain 
backups of trucks of 5 miles and more on the extension of I-87, 
Quebec Highway 15, north of the border, turning a superhighway 
into a truck parking lot. When you turn a superhighway into a 
truck parking lot, bad things happen. Death has visited our 
port already. We had our first fatal truck accident on November 
23rd. I hate to say it; it won't be the last. You don't create 
that kind of situation and not have bad things happen.
    The economic losses are staggering. In an age of ``just in 
time,'' when you delay trucks by up to 7 hours getting their 
inventory and product where it needs to be, you are creating 
losses all up and down the line. Safety isn't just about the 
truck accident. You had several hours of fatigue and delay and 
worry to truck drivers then heading down the road trying to 
make up time to get where they want to go; you have to realize 
you are creating an inherently unsafe situation.
    The urgency is exacerbated further by U.S. Customs, which 
is predicting that the present truck levels at Champlain will 
double again by 2005. It is hard to understand how that can 
possibly be accommodated.
    We have a plan. It is before you. $23,000,000 would fully 
solve this problem, give us the support facility we need there. 
We are looking for an earmark from this committee in the 
upcoming round of $6,000,000, which would do two things: put us 
on the track to the total solution and allow us next year to 
implement elements of that plan that will be consistent with 
the total plan, but also start to relieve the problem.
    Mr. Wolf. Thank you, Mr. Douglas. Thank you, John.
    Mr. McHugh. Mr. Chairman, I have a full statement.
    Mr. Wolf. Sure, it will be in the record.
    [The prepared statements of John McHugh and Garry Douglas 
follow:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                       Thursday, February 10, 2000.

                   TREN URBANO, SAN JUAN, PUERTO RICO


                                WITNESS

HON. CARLOS ROMERO-BARCELO, A RESIDENT COMMISSIONER IN CONGRESS FROM 
    THE COMMONWEALTH OF PUERTO RICO
    Mr. Wolf. Mr. Romero-Barcelo.
    Mr. Romero-Barcelo. Thank you, Mr. Chairman, members of the 
subcommittee, for allowing us the opportunity to appear before 
you today with respect to the important transportation problems 
in Puerto Rico. I would like to focus my remarks on the Tren 
Urbano, which is an important transportation project that is 
currently under construction in the San Juan metropolitan area, 
and the San Juan Intermodal Access program.
    San Juan is the political and economic center of Puerto 
Rico. With a population of over 1 million in the metropolitan 
area, San Juan is the oldest city in the United States, and it 
is one of the major cities in the southern region of the 
country. It serves as a vital port of entry for the U.S. in 
terms of trade with countries in the Caribbean and Latin 
America. San Juan has well-developed transportation links, 
including a modern airport and seaport. The latter one happens 
to be the 17th largest in the world, as far as volume of 
container ships that pass through the port.
    It is important to note, however, that despite its modern 
transportation links, both to the U.S. and foreign 
destinations, the San Juan metropolitan area is challenged by 
the local transportation infrastructure. San Juan is one of the 
most densely populated corridors in the U.S. with more cars per 
capita than anywhere in the country. For those of you who have 
had the opportunity to visit San Juan in recent years, you know 
how frustrating the traffic congestion can be. And for those of 
you who haven't visited recently, just picture the frustration 
of sitting in Washington traffic on the Beltway during a Friday 
getaway day or after a recent snowstorm except for the snow 
that you won't have in Puerto Rico. That is what traffic is 
like in San Juan on a daily basis.
    Various projects have been undertaken to widen and improve 
the roads around San Juan, but these improvements will have 
only minimal effect. To address the real problem of congestion, 
the government of Puerto Rico has undertaken the development of 
a subway system in the greater San Juan area called the Tren 
Urbano, or the urban train in English.
    This project whose construction was begun in 1996 will link 
the suburban municipalities around San Juan with a central 
core. The first phase, which is scheduled for tests later this 
year and slated to begin operation in 2001, will be a 10.7-mile 
heavy rail rapid transit system that will offer public 
transportation linking the suburban municipalities of Bayamon, 
Carolina, Guaynabo, Rio Piedras and Hato Rey, with the Santurce 
district of San Juan.
    These are large urban centers. Each one is more than 
100,000 residents where many of the employees work in the 
business and education government offices of San Juan reside, 
and Rio Piedras is the home of the main campus of the 
University of Puerto Rico, which is not only the largest 
Hispanic-serving institution in the United States, but it is 
the largest postsecondary institution on the island. Rio 
Piedras is also the headquarters for a veterans hospital, which 
serves the population of 132,000 veterans, as well as the home 
of the largest medical complex on the island, featuring medical 
school, medical center, Puerto Rico health department, 
cardiovascular hospital, and other government facilities, 
private and nonprofit offices.
    In the second phase, starting in the year 2001, 
construction will link the line to the entrance of Old San 
Juan, the heart of the city, and extend to Carolina, providing 
a much-needed connection of the international airport. It is 
estimated that approximately 115,000 will ride the Tren Urbano 
each day.
    A key moment in the planning of the Tren Urbano project 
occurred in 1993 when Congress directed the Federal Transit 
Authority to give top priority consideration for the Tren 
Urbano as a turnkey demonstration project under ISTEA. The 
Federal Transportation Administration designated Tren Urbano as 
one of the four turnkey demonstration projects in the Nation 
and determined the Tren Urbano was deemed to be one of the most 
cost-effective transit projects in the Nation. One of the 
objectives of the project was to find a funding balance of 
Federal, local and private entities.
    The Federal Government is paying for about 25 percent 
through capital program funds through a full funding general 
grant agreement signed on March 16, 1996; 75 percent is being 
paid for by the government of Puerto Rico, which is probably 
the largest contribution in any fast model transportation 
system in the Nation. Unfortunately, the Federal contribution 
has lagged and to date has been approximately one-half of the 
funding level that was committed. The administration budget for 
fiscal year 2001 requests 118,000,000 for Tren Urbano, and 
because full Federal funding is essential to the completion of 
this model project, I want to urge you, Mr. Chairman, and the 
members of the subcommittee to appropriate the full level of 
funding of the 118,000,000.
    As we anticipate completion of phase one project in fiscal 
year 2001 and undertake development of subsequent phases it is 
essential that we assure the appropriate level of funding. 
Until now, the failure to appropriate the necessary level of 
funds has imposed an unfair financial burden for this project 
on the local department.
    I see that I have finished, overrun my time, Mr. Chairman. 
I thank you for being patient.
    Mr. Wolf. You are certainly welcome, and your full 
statement will appear in the record.
    [The prepared statement of Carlos Romero-Barcelo follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Wolf. We will adjourn for the vote and reconvene at 
12:10. Thank you very much.
    [Recess.]
                              ----------                              

                                       Thursday, February 10, 2000.

                    NEW JERSEY TRANSPORTATION ISSUES


                               WITNESSES

HON. RODNEY P. FRELINGHUYSEN, A REPRESENTATIVE IN CONGRESS FROM THE 
    STATE OF NEW JERSEY
JAMES WEINSTEIN, COMMISSIONER OF TRANSPORTATION FOR THE STATE OF NEW 
    JERSEY AND CHAIRMAN OF THE BOARD OF NEW JERSEY TRANSIT
    Mr. Wolf. Welcome, Rod. I apologize; I hope that didn't 
break up your schedule whatever.
    Mr. Frelinghuysen. It didn't, Mr. Chairman.
    Mr. Chairman, let me thank you and members of your 
committee for your past support and interest in transportation 
issues in my home State of New Jersey. Your personal interest 
has resulted in a lot of good support for mass transportation 
and or for other transportation needs in New Jersey.
    At the helm of our transportation operation in New Jersey 
is the man to my right, Jim Weinstein, Commissioner of the New 
Jersey Department of Transportation and also the head of New 
Jersey Transit, which I believe is the third largest operation 
of its size in the Nation.
    We are the most densely populated State in the Nation, so 
certainly mass transportation is a critical thing for us, but 
we wouldn't have gotten as far as we have today without your 
support, the support of your staff, which has been incredibly 
important since I have been in Congress for 5 years. The man 
who runs it all is the man to my right, and I would like to 
introduce Jim Weinstein.
    Mr. Wolf. Sure, thank you. Welcome.
    Let me just add to that if I can. New Jersey is lucky to 
have you on the committee because he stays after this thing 
over and over. Particularly with Senator Lautenberg retiring, 
you had better hope he doesn't retire, is what I was trying to 
say. And you told me you were staying 25 more years, this year 
and then 12 more times, so you are going to be okay. Welcome to 
the committee
    Mr. Weinstein. That is good to hear, Mr. Chairman, and I 
appreciate being here this morning, and Rodney tells me that we 
should hope in New Jersey that you don't retire, also. So we 
thank you all for your help in transportation.
    Today I want to provide you with a short overview of what 
we are doing in New Jersey to address the very real 
transportation challenges of the Nation's most densely 
populated State and to indicate where Federal appropriations in 
transportation provide a significant impact and role in meeting 
those challenges which affect us all.
    While New Jersey is not big geographically, our 
transportation needs are great. We realize the traffic 
congestion and aging infrastructure are two major issues 
demanding our attention so that commerce--international, 
national, regional and local--continues to prosper. We 
recognize our responsibility not only to the residents of our 
State, but also to the many visitors, users and beneficiaries 
of transportation in New Jersey.
    We have some of the worst traffic congestion in the Nation. 
This is taking its toll on our infrastructure, our economy and, 
frankly, our citizens. Our success in dealing with this 
challenge depends on an ongoing partnership between the State 
and Federal Government.
    The State of New Jersey has dedicated a full 40 percent of 
its State Transportation Trust Fund to public transit this 
year. We match the Federal contribution to our transit capital 
program on a dollar-for-dollar basis, and the financing for our 
new Start Transit Project in southern New Jersey is paid fully 
with State money. We are making great strides in New Jersey to 
alleviate our traffic problems, and I would like to tell you 
about what we have achieved.
    Public transit ridership in our State is at an all-time 
high with approximately 360,000 daily riders on our bus and 
rail system. The Hudson-Bergen Light Rail System between 
Bayonne and Exchange Place in Jersey City will open this 
spring. A new station on the Northeast Corridor will serve 
Newark Airport starting in 2001. Our Secaucus Transfer Rail 
Project will be completed in 2002. Our Midtown Direct Service, 
which opened in 1996 has attracted significantly more riders 
than anticipated and resulted in increased real estate values.
    This year we are seeking funding for three important 
projects. First and foremost, it is the Hudson-Bergen Light 
Rail Project. New Jersey is seeking consistent with the full 
funding grant agreement, $121,000,000 for the first segment of 
the project. When completed, this new rail line in the Nation's 
sixth most densely populated county is expected to carry over 
100,000 riders daily, and as construction of the first segment 
is nearing completion, we intend to move directly into the 
design and construction of the second segment. We are currently 
negotiating a full funding grant agreement with the FTA which 
will enable us to finance the second segment. While we actually 
don't need the funding for the second segment in the next 
fiscal year, this committee support is critical if we are to 
get a full funding grant agreement.
    The second project is the 47,500,000 which you heard about 
for the Newark-Elizabeth RAIL, NERL, connection. We are in the 
process of negotiating a full funding grant agreement on that.
    And the third is a request for the purchase of new buses, 
which is a significant part of our public transit system.
    Let me emphasize to you New Jersey's commitment to our own 
transportation network. Governor Whitman recently announced a 
plan to provide $1 billion in State transportation funding in 
our State budget for the next fiscal year alone. New Jersey DOT 
is about to begin construction of a range of projects that are 
designed to deal with that congestion that I spoke about and 
with the growth that we are experiencing in northeast New 
Jersey and the Port of New Jersey and New York.
    We have a vision of a single transportation network in our 
State. It is the backbone of our economy. It goes to the 
quality of life for our citizens.
    In conclusion, we look forward to opening the first section 
of the operating agreement, and we look forward to working with 
you, Mr. Chairman, with your committee to making New Jersey a 
better place to live, work and raise a family. Thank you.
    Mr. Wolf. Thank you very much. Rod, thank you very much.
    [The prepared statement of James Weinstein follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                       Thursday, February 10, 2000.

           METROPOLITAN AUTHORITY'S EAST SIDE ACCESS PROJECT


                                WITNESS

HON. PETER KING, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    YORK
    Mr. Wolf. Next, Congressman King, Peter. Sorry to make you 
come back, too, Peter.
    Mr. King. Thank you, Mr. Chairman. Mr. Chairman, I 
certainly appreciate the opportunity to come before you today 
to discuss the MTA's East Side Access project. As I have stated 
in the past this project is critically essential, not just for 
my own particular District, but more importantly, for the 
entire region.
    The project will provide, as I said, major benefits for the 
entire New York region, New York City, downstate region, 
suburban region; and in addition, a major portion of its 
overall length was constructed in the 1980s with nearly 
$900,000,000 in Federal dollars, matched by an equal amount of 
State and local dollars, as part of the MTA's 63rd Street 
tunnel and connector project.
    This East Side Access project will complete the unfinished 
elements of these federally aided projects by allowing Long 
Island Rail Road commuter trains to use the already constructed 
lower level of the tunnel and proceed directly into Grand 
Central Terminal. As you may recall, the upper level of the 
63rd Street tunnel will be used by the city transit subways 
while the lower level was constructed for the Long Island Rail 
Road. This synergy between the two needs of the two separate 
arms of the MTA, Long Island Rail Road and the New York City 
subway system, provided a cost-effective way to provide both 
systems with additional capacity.
    Additionally--and this is, I think, very important--the 
East Side Access will save many tens of thousands of 
commuters--the estimate is about 179,000 per day--many of whom 
are my constituents, but it will save them about 3 hours a 
week, which they now use backtracking from Penn Station on the 
West Side to Grand Central on the East Side. This gives them an 
extra 3, 3\1/2\ hours a week to spend with their families.
    I know, as a person who used to commute myself, it is bad 
enough commuting into the city, but then when you have to take 
yourself from the West Side to the East Side, it just adds to 
the burden, adds to frazzled nerves and makes it very difficult 
for families to lose that type of quality time.
    This will also improve passenger circulation throughout the 
entire transit system because it will distribute MTA customers 
where they want to go rather than just where the existing 
terminus leaves them.
    Also, as far as the economic benefits, the estimates are it 
will take about 12,000 cars per day off the East River bridges 
that bring commuters from Queens, Brooklyn, Nassau and Suffolk 
to jobs in the Nation's largest central business District, and 
not just the bridge, the 59th Street Bridge or the Triborough 
Bridge, but also the tunnel, Midtown Tunnel, which right now is 
just almost a 24-hour bottleneck.
    It will also allow for reverse commuters to leave the West 
Side of Manhattan from the same location that the Metro North 
railroad customers now enjoy.
    The project is anticipated to be completed within 8 to 10 
years, and it is moving along steadily; and it is, as I 
understand it, at the point right now where a number of 
elements will not only be fully designed, but will be ready to 
be let by the third or fourth quarter of the current fiscal 
year, fiscal year 2000, which means that actual construction 
will begin only a few months from today, sometime hopefully in 
September. And with this subcommittee's support, other elements 
of construction can go into high gear in early fiscal year 
2001.
    Now, Governor Pataki as made this his number one priority. 
The mayor of the city of New York and the county executives of 
Nassau and Suffolk Counties, as well as the business 
communities throughout Manhattan and Long Island, fully support 
this project.
    Nearly $100,000,000 in State and Federal funds have already 
been allocated for the project, including $46,000,000 in 
Federal appropriations provided by this committee from the 
FTA's New Starts program. With the MTA's suggested overmatch of 
50 percent, similar to what is provided for the previous New 
Starts project, the 63rd Street connector, East Side Access is 
a solid Federal investment that will maximize the use of 
facilities already built with Federal dollars and awaiting use 
by the taxpayers.
    And I see I am joined by Congressman Fossella, which is 
always a dubious distinction. I know he is going to take the 
microphone from me in a second so I will finish this up before 
all the money ends up going to Staten Island.
    But anyway, the administration has requested $10,000,000 in 
the fiscal year 2001 budget. As you may recall, during the 2000 
budget process the administration requested 20,000,000 for East 
Side Access. We were extremely grateful to you in helping to 
get us a portion of that last year, and I greatly appreciate 
the assistance you gave me both in committee and on the House 
floor. To keep the project on track, the MTA is requesting 
approximately $198,000,000 in Federal funds for fiscal year 
2001.
    Mr. Chairman, I strongly urge you to once again help keep 
this project moving forward for New York State taxpayers by 
including a significant Federal New Starts earmark in the FTA 
budget.
    I thank you for your time and for your cooperation.
    Mr. Wolf. Thank you, Peter.
    [The prepared statetment of Peter King follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                       Thursday, February 10, 2000.

                  STATEN ISLAND TRANSPORTATION ISSUES


                                WITNESS

HON. VITO J. FOSSELLA, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEW YORK
    Mr. Wolf. Vito.
    Mr. Fossella. Mr. Chairman, thank you very much, and I 
would think it would serve you and the committee well if you 
ignored everything Congressman King just said.
    Mr. Wolf. I think, though, Peter King is most refreshing, 
and if you ask Peter King a question, he always gives you the 
answer. Sometimes he is just so unbelievably truthful it just 
shocks people. I have the greatest respect for Peter. Anytime I 
run into Peter, he actually voices many feelings that I 
actually have and don't voice sometimes.
    Go ahead.
    Mr. Fossella. Fair enough. That makes one of us.
    Thank you, Mr. Chairman. Again, levity every now and then.
    Thank you for this opportunity. And as you know, Mr. 
Chairman--and as my good colleague, Congressman King, knows--
New York City is one of the most populated urban areas in the 
United States with over 7 million residents packed into five 
boroughs totaling only 321 square miles, and movement between 
boroughs and many times just within them is a challenge even by 
New York standards.
    On Staten Island our 400,000 residents face those same 
difficulties, but our problems are exacerbated. The Verrazano-
Narrows Bridge is our only surface link to the rest of New York 
City, and it is a lifeline for virtually every car, truck and 
bus coming to and leaving our borough. Traffic jams on the 
Staten Island Expressway, the West Shore Expressway, the 
Gowanus and even our local roads have become a fact of life. 
Each day tens of thousands of Staten Islanders buck traffic and 
inch their way for up to 2 hours to travel a grand total of 
only about 15 or 20 miles. There has to be a better way.
    And as a strong proponent, Mr. Chairman, of ferry 
transportation, you know that way. Ferry transportation 
provides a cheaper, environmentally sound and more efficient 
mode of transportation. Approximately 60,000 riders rely upon 
the world-famous Staten island Ferry for they daily and weekend 
commutes. For many of them, it is not just the most convenient 
transportation option, it is the only one.
    For Brooklyn residents in Bay Ridge and Dyker Heights, 
taking commuters off the roads and putting them on the ferry 
means less traffic on the bridge, less traffic on the Gowanus 
Expressway, less pollution in our neighborhoods and less of a 
commuting burden for everyone.
    Mr. Chairman, because of your past commitment to improving 
transportation on Staten Island, residents can now get to work 
in all sections of New York City faster, cheaper and with less 
aggravation than ever before. We have certainly made great 
process, but the fact is that Staten Islanders today still 
travel almost 2 hours to their jobs in midtown Manhattan. We 
must now focus our efforts on making commuting more convenient 
and upgrading present facilities.
    For fiscal year 2001, my transportation priorities include 
continued funding to reconstruct the St. George Ferry Terminal 
in Staten Island, continued funding to reconstruct the 
Whitehall Ferry Terminal in Manhattan, and funding for an MIS/
DEIS, major investment study, of the North Shore Rail Line for 
passenger service.
    The St. George Terminal, as you may know again, the St. 
George Terminal in Staten Island is the counterpart to the 
Whitehall Ferry Terminal, which is located in Manhattan. In 
1998, $20,000,000 in FTA funds were authorized for this crucial 
project. Of that amount $2,500,000 has been appropriated, and 
the city of New York has already committed $59,000,000 to the 
reconstruction of the St. George Terminal. The project is 
currently nearing the end of the design process and will be bid 
out next year.
    The Staten Island Ferry provides 17.6 million commuter 
rides and 2 million tourist rides each year. The terminal has 
four passenger slips, one of which is undergoing 
reconstruction, and one private ferry slip which is also 
undergoing reconstruction. I want to accentuate that the 
terminal is not simply a ferry station, but serves as a 
transportation hub for my constituents and New York City. It is 
a multimodal facility that handles ferries, 20 bus routes, 
passenger trains, taxicabs, passenger cars, pedestrians and 
bicycles.
    The new St. George Ferry Terminal will not only be a state-
of-the-art transportation facility, but will also become a 
destination point much like Grand Central Terminal with an 
appealing mix of uses serving both the daily commuter and the 
tourist. The terminal presently has approximately 10,000 feet 
of retail space with a planned expansion to 25,000 feet. It is 
also expected that the development site could easily attract 
private investment to build a multilevel parking garage with 
destination, water-oriented retail, for example, below-grade 
multiplex cinema, restaurants with a prime view of waterfront, 
and entertainment retail space as well.
    I am requesting that this committee provide an additional 
$17,500,000 to complete the reconstruction work in its entirety 
by 2002. This money would complete the authorization and be 
combined with the funds pledged by the city of New York for the 
reconstruction to move full steam ahead.
    And not to go into the Whitehall Terminal too much, but in 
previous years $50,000,000 in FTA funds were earmarked for the 
rehabilitation of that terminal. The city of New York has 
already committed $65,000,000 towards this $109,000,000 
project. Of the $50,000,000 in earmarked funding, 13,500,000has 
been appropriated so far, $7,000,000 of which has been obligated.
    In order to move forward with this reconstruction, I am 
requesting an additional $10,000,000 to proceed. To date, the 
lack of full funding for this project has hindered our efforts 
to rebuild this world-renowned transportation hub, and this 
project is expected to be completed by the spring of 2003. And 
the same could be said of the North Shore Rail, which is 
something we have been fighting for in Staten Island for many 
years, and I am requesting $1,500,000 for the Federal share of 
the MIS/DEIS study of this project.
    Again, Mr. Chairman, I want to thank you for your time, the 
ranking member, all the other members of the committee, and of 
course Congressman King for enduring this.
    [The prepared statement of Vito Fossella follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Wolf. I want to thank both of you for your testimony. 
Money is tight but we will try to work with you and see what we 
can do.
    There is something I would like to bring to your attention. 
Last year we put an amendment on the appropriations bill, which 
is now law, setting up five demonstration projects in the 
country: one in my region, Washington D.C., one in 
Philadelphia, one in LA, and then we gave EPA and DOE the 
opportunity to pick two others, but I think New York City ought 
to be participating, that is, that if a company permits its 
employees to telework--that means telecommute, ``telework,'' 
thereby taking traffic off of the streets. At AT&T 55 percent 
of their midlevel managers telework one day a month; 25 percent 
do it one day a week. That means they stay home.
    The productivity of the person that does that is actually 
higher in many respects than the one that goes to work--that 
that company will get a pollution credit, a NOX credit--because 
most of the pollution that we have is from automobiles--that 
will be able to be sold on the Chicago Merc for value; and so 
therefore the company in downtown Manhattan allows a certain 
percentage of its employees to telework.
    Let us say a mom gets up in the morning one day a week and 
stays home, but goes on line, the productivity is just as high 
or higher. Or maybe she comes in--is on line from 8:00 until 
12:00, and then comes in at 12:00; or 8:00 to 3:00, and then 
goes home at 3:00, before the rush hour, or--your rush hour is 
literally all day. But it is something you ought to take a look 
at.
    There is a fellow in my office named Tom Santaniello who 
has all the information, but New York City really ought to be 
involved, because nationwide 40 percent of the jobs are 
telecommuting-type jobs, people can do it at least one day a 
week, and with the high-tech knowledge and the revolution 
taking place--AOL, Internet and on-line--it is just, that takes 
a car off of the ferry, off of the bridge, out of the tunnel, 
and allows the people to have choices over their own lives 
whereby they can make the choice. Plus, the company gets 
something of value that they can use.
    Next week we are putting in a bill to have a tax credit for 
companies that give their workers laptops and enable them to 
work at home. You can't build too many more roads there. So I 
would urge you to take a look at that, and Tom in my office has 
all the information, but thank you both.
    Mr. Fossella. For the record, not only is Mr. Peter King an 
excellent member of Congress, more importantly, he is a good 
friend.
    Mr. Wolf. I know that.
    Mr. Fossella. For posterity.
    Mr. Wolf. I know that. Thank you very much.
                              ----------                              

                                       Thursday, February 10, 2000.

                 JACKSONVILLE TRANSPORTATION AUTHORITY


                                WITNESS

HON. TILLIE K. FOWLER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    FLORIDA
    Mr. Wolf. Congresswoman Fowler, Congressman Mica and 
Congresswoman Brown. What a team. Proceed. Your full statements 
will appear in the record.
    Mrs. Fowler. Thank you, Mr. Chairman.
    I just want to thank you for the opportunity to testify 
today regarding several projects that are important to the 4th 
District of Florida.
    First, before I do that, I want to thank you and the 
Members of your subcommittee, who have been so gracious and 
supportive to me over my past 7 years in Congress and Florida 
transportation projects in my area. I deeply appreciate it. And 
whenever the Fuller Warren Bridge does get completed, which we 
hope will be in my lifetime, we are going to have you down for 
that grand opening ceremony.
    Mr. Wolf. Let me just say for the record, too, and 
obviously you are leaving so this is not to help you 
politically or anything, you have done a marvelous job, and the 
people of Jacksonville I think they are going to have an 
awfully hard time of replacing you. You have been all over that 
issue and other issues.
    There are some days I really didn't want to go over to the 
floor; I saw you over here, I would go over there.
    You have done a great job, you really have, and I know they 
are going to--whoever wins then, it may not be--I mean, because 
you have really stayed with them.
    Mrs. Fowler. I have told them they have got to work hard 
because that is what it takes up here, but it also takes 
chairmen who are willing to listen and look at the issues and 
the facts; and you have always been willing, even though I knew 
sometimes it wasn't what you most wanted to do.
    Mr. Wolf. We wish you well.
    Mrs. Fowler. I appreciate it. Now on to my request.
    My first request is for much needed funding out of the bus 
and bus facilities account for my district. The Florida Transit 
Association is working to submit one consolidated request for 
bus and bus facilities for the State of Florida, but with that 
said, I would like to discuss the needs in my district 
specifically.
    Included in our Jacksonville Transportation Authority plan 
for transit improvements is the procurement of approximately 
167 new buses through the year 2005. To help achieve that goal, 
the JTA is requesting $5,000,000 for buses in the fiscal year 
2001 appropriations bill. These will be used in their coach 
replacement program as well as accommodating their expansion 
plans.
    Volusia County Transit, VOTRAN, is also in need of funding 
for buses, bus-related equipment and bus-related technological 
enhancements. Over the past several years, VOTRAN has doubled 
in size to provide transit services throughout Volusia County, 
which is one of our real growth counties in our State, and it 
continues to expands its service to oversee Medicaid 
transportation services, to provide beach tram services and to 
extend its service during late-night hours. So we are 
requesting $4,000,000 for the procurement of buses and an 
integrated fleet operation system for all of the VOTRAN 
vehicles.
    In addition, I am requesting $1,000,000 for rights of way, 
acquisition and studies needed to develop new mass transit 
corridors in Duval County. The JTA concluded an in-depth 
transportation study which identified four major transit 
corridors in the Jacksonville metropolitan area that show 
benefits for the traveling public and the greatest potential 
for ridership. According to their studies, three of the four 
identified corridors can support light rail, while a fourth 
would support bus express service. So this 1,000,000 could be 
used immediately for right of way acquisition and for the 
necessary environmental studies.
    My next request is for $1,000,000 from the Federal Highway 
Administration's Ferry Boats and Ferry Terminal Facilities 
account. This funding will cover a portion of the costs for 
constructing water taxi stations along the St. John's River in 
Jacksonville. We have this beautiful river, but it does cause a 
transit problem getting across it. The water taxi system would 
enhance mobility. Without putting more cars on the road, you 
could get people across by these ferries between our south bank 
river bank and the north bank. So we are requesting that the 
taxis would be an integral part really of an urban pedestrian 
greenway that is going to link the urban core to its 
neighborhoods and try to take some of that traffic off the 
streets, which I know you are concerned with also.
    I am also seeking $1,000,000 from the Federal Highway 
Administration's Federal Lands Highways Program for roads and 
trails within the National Park Service's Timucuan Ecological 
and Historic Preserve. This project would allow for public 
access throughout the preserve where access by hikers, 
bicyclists and others is currently limited. This is a preserve 
that Congressman Charlie Bennett, my predecessor, started when 
he left the Congress, and we have been, all of us, working 
together to try to continue it. This funding would complement 
that which your committee provided last year for a bike path 
that the city of Jacksonville is looking now to expand. This 
Timucuan Preserve is really the best kept secret in north 
Florida; and it is my goal, along with that of the city of 
Jacksonville, to provide access to this national preserve.
    Again, I want to thank you for giving me the opportunity to 
testify today, and I look forward to working with you on these 
projects. Thank you.
    [The prepared statement of Tillie Fowler follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                       Thursday, February 10, 2000.

                   GREATER ORLANDO AVIATION AUTHORITY


                                WITNESS

HON. CORRINE BROWN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    FLORIDA
    Ms. Brown. Mr. Chairman, one of the reasons why I insisted 
on coming today to testify, it was really to thank you for all 
of the help and support that you have given to Florida, and in 
particular to my district; and in particular today I want to 
talk about the Orlando Airport.
    You are the reason that Orlando has achieved such 
tremendous growth, and I am very grateful for your sensitivity 
in this area. I am pleased to appear before you today on behalf 
of the Greater Orlando Aviation Authority. I know that your 
time is limited, and I will keep my comments brief and request 
that GOAA testimony be placed in the official hearing record.
    Mr. Wolf. Your full statement will appear in the record, 
for everyone.
    Ms. Brown. I would like to acknowledge that Mr. Lee 
Tillotson is here, and he is Senior Director for Planning and 
Special Projects at GOAA, who is in the audience today. The 
authority is requesting $13,000,000 to complete construction of 
a planned fourth runway at Orlando International Airport. This 
new runway began with the initial site preparation in 1990, and 
it has been a Federal Aviation Administration priority for the 
last 10 years.
    Mr. Wolf. If you have a statement, you are welcome to put 
it in the record, too, following.
    Ms. Brown. I think you have that request. The funds 
requested will really complete the system, complete the runway, 
and once it is operational, the runway will serve the Nation by 
adding much-needed capacity to the national aviation system, 
which in turn will generate tremendous savings through decrease 
in system-wide delays.
    As you have heard me testify before, the Orlando Airport 
started out as a regional airport. Now it is an international 
airport, and this will go much into completing this project, 
and if you have any questions I am available to answer.
    Mr. Wolf. I was in your airport 2 weeks ago. I was very 
impressed.
    Ms. Brown. It is wonderful and you have done much, too.
    Mr. Wolf. Well, thank you very much.
    [The prepared statement of Corrine Brown follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                       Thursday, February 10, 2000.

                TRANSPORTATION NEEDS IN CENTRAL FLORIDA


                                WITNESS

HON. JOHN L. MICA, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    FLORIDA
    Mr. Wolf. Mr. Mica.
    Mr. Mica. Thank you, Chairman Wolf, and members of your 
subcommittee, and also the staff. I came also today to pay 
tribute to you for your past support. I overlap some of the 
areas with both Ms. Fowler and also with Ms. Brown, and we have 
tried to work together to resolve some of the problems in 
central Florida. We were hit by tremendous growth, but today I 
am submitting requests for $10,400,000 for additional transit 
coaches for Lynx and VOTRAN. Part of that is also presented by 
Mrs. Fowler for VOTRAN.
    We are also asking for additional money for operating 
facilities and also additional money for improved transit 
technology, fleet integrated operating system and passengers 
shelter to make our two transit systems more efficient and also 
more rideable.
    I don't want to get into a lot of details, and I will 
submit the details for this requested funding to you.
    Finally, as you know, after 5 years of planning, hundreds 
of public hearings, approval by numerous local, State and 
private partner participants and a very strong Federal 
commitment, support by this subcommittee, by a single vote our 
central Florida light rail project was unfortunately derailed. 
To salvage years of effort and substantial planning and funds 
which have been expended, I am currently working with local 
officials to develop an interim commuter rail demonstration 
project. For that project, I am requesting $5,000,000. We have 
a significant number of resolutions and letters of initial 
support which I will also submit for the record.
    It is my hope, Mr. Chairman, that we can finalize plans for 
a cost-effective transit alternative for central Florida during 
the coming weeks, and with your continued support and patience 
and aid, I think we can help resolve some of the transportation 
crises in our District, and the proposal will follow all of the 
previous plans, but modify it.
    The good news is instead of asking for $330,000,000 we may 
be asking for a total over 3 years of somewhere between $39- 
and $59,000,000. So there is a bright side even to a project 
that has had some problems. But again I came to just say thank 
you for your commitment to helping us resolve transportation 
needs in Florida and central Florida in particular.
    Mr. Wolf. Well, thank you very much. I was surprised, too, 
when I heard about it, and obviously, you know, if you can make 
some use of the studies that have been made, I would encourage 
you to work with the staff and to see. They are going to have 
to come up with something relatively fast before the markup. We 
are moving--leadership and everyone wants to move everything 
quickly. So I would encourage you that if you are going to do 
something, to do somethingrelatively fast to resolve it.
    Mr. Mica. Our MPO yesterday passed a letter of support, and 
we will have a copy of that to you, too. We are working 
feverishly, and it is in all of our interest to salvage what we 
can because there is a substantial amount of money that has 
gone into this.
    Mr. Wolf. How much is this, $30,000,000-something?
    Mr. Mica. $38,000,000 in study and planning, and years and 
years of work, and that is just on this proposal. So we do want 
to try to salvage it, do something that is cost effective, and 
I think we can do that. It is just reasonable people working 
together, and you have been fantastic. I appreciate that, and I 
know the problem we have experienced is not uncommon.
    Mrs. Mink is the ranking member on my subcommittee, and she 
has told me what happened in Honolulu and Hawaii, but they will 
be back.
    Mr. Wolf. They lost everything.
    Mr. Mica. We are hoping not to do that and again thank you.
    Mr. Wolf. Thank you all very much.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                       Thursday, February 10, 2000.

                 MOBILITY NEEDS IN GAINESVILLE, FLORIDA


                                WITNESS

MIKE CRITTENDEN, INTERIM TRANSIT DIRECTOR, CITY OF GAINESVILLE, FLORIDA
    Mr. Wolf. The City of Gainesville, Mike Crittenden, Interim 
Transportation Director; and maybe joining him can be the city 
of Miami Beach, Commissioner Bower.
    Mr. Crittenden, you go first since you are first on the 
list, and then Ms. Bower.
    Mr. Crittenden. First, I would like to thank you, Mr. 
Chairman and members of the subcommittee, for the earmark that 
you have given us over the last 2 years totaling $2,000,000 for 
bus capital purchases for the city of Gainesville, Florida. To 
accelerate that delivery of buses, we are currently 
participating in a statewide pooled procurement with several 
other transit systems in Florida.
    Second, I would just like to bring you up to date on our 
progress over the last few years in meeting mobility needs of 
the people of Gainesville. Transit ridership continues to grow 
at an ever-accelerating pace. Up from 2.3 million passengers in 
1997 to over 4.6 passengers in 1999, our ridership has more 
than doubled in the past 3 years, and current trends indicate 
that our ridership is going to exceed the 5 million mark by the 
end of the current year, 2000.
    To meet that increasing ridership demand in Gainesville, we 
have had to pursue an alternate and less desirable route of 
acquiring used equipment; and that acquisition has caused us to 
push the average fleet age of our 72 vehicles from 10 years old 
to over 12 years old. So this year we are seeking the balance 
of the funds that we had requested last year, or $5,500,000 to 
purchase 19 new replacement buses.
    And as Gainesville's primary transit provider, serving an 
extremely diverse group of customers, we realize that 
transportation is an issue that affects everyone, and in that 
regard, we are continuing our efforts with our partners, 
Alachua County, Florida Department of Transportation, the 
University of Florida and the University of Florida student 
government to continuing enhancing the services in the 
Gainesville area.
    We are looking ahead to expand our bus system and 
implementing other programs to provide the level of service the 
community has come to expect, but first we want to ensure that 
the current level of service can be met and does not diminish 
because of lack of dependable and modern resources.
    We have a highly successful University of Florida student 
pass program that has resulted in increased student activities 
fees, which allows us to enhance the student services. 
University of Florida employees as well as employees of the 
city of Gainesville and Alachua County will begin participating 
in a similar pass program this year, and in the upcoming years, 
we will offer the same program to private sector employers in 
the Gainesville area.
    So your allocation of bus discretionary capital funds to 
Gainesville will allow us to replace our overage buses and will 
help us to continue our pursuit of better transportation 
options for the city of Gainesville and enhance the quality of 
life of our citizens.
    Thank you again for this opportunity and for your 
consideration.
    Mr. Wolf. Thank you very much.
    [The prepared statement of Mike Crittenden follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                       Thursday, February 10, 2000.

          ELECTRIC SHUTTLE FACILITY/INTERMODAL STATION PROJECT


                                WITNESS

MATTI HERRERA BOWER, CITY COMMISSIONER, CITY OF MIAMI BEACH, FLORIDA
    Mr. Wolf. Ms. Bower.
    Ms. Bower. Good afternoon. I am Matti Bower, a newly 
elected city commissioner. So you have never seen me here 
before, but I am happy to be here, and it is a wonderful and 
new experience to come and visit you. I also want to thank you 
because I know you have helped Miami Beach in prior years and I 
am happy to be here thanking you for it.
    We are asking--you have my official statement. I am just 
want to say a few things. You have had a long agenda, and I 
have been sitting here watching you.
    We have a request for an earmark of $10,000,000 to enhance 
our electric shuttle that we have, the Electrowave. We have 
seven presently serving the community in South Beach. We are 
going to expand it to eleven and we will then outgrow 
maintenance and the place where we have to keep them. So we are 
in need of a new intermodal transit service, where people can 
go in and out of it.
    We are certainly in great need of this service. Miami Beach 
is full of congestion. There is no parking. This Electrowave 
started as a grass-root effort of the preservationists because 
we really understood how vital it was to maintain our historic 
district. We needed a way to get the people around, so we 
didn't need any more cars or garages in the center of it.
    So I am just here for you to understand how vital it is for 
our community to have this $10,000,000, and I thank you very 
much for your previous support and hope that you can help us in 
this year coming.
    Mr. Wolf. Thank you very much. Thank you both.
    [The prepared statement of Matti Bower follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                       Thursday, February 10, 2000.

               GEORGIA REGIONAL TRANSPORTATION AUTHORITY


                               WITNESSES

HON. JACK KINGSTON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    GEORGIA
CATHERINE L. ROSS, EXECUTIVE DIRECTOR, GEORGIA REGIONAL TRANSPORTATION 
    AUTHORITY
    Mr. Wolf. Mr. Kingston and also Ms. Ross.
    Jack, you can go first since you were there.
    Mr. Kingston. Thank you, Mr. Chairman. I appreciate the 
chance to be with you today, and I have to first compliment you 
on starting early, Mr. Chairman. You are certainly going 
against the trend in Washington, and I congratulate you for 
your progressiveness.
    I was raised in a small town outside of Atlanta, Athens, 
Georgia, and actually lived in Atlanta, and I can tell you it 
has been under construction my entire life in terms of the 
roads and the progress. And it is always good construction, 
struggling with getting people in and out, getting the kids to 
school, getting the people to work, getting the ambulances to 
the hospital, and at the same time experiencing tremendous 
growth and trying to deal with the problems of traffic, the 
problems of air pollution, and just getting people there.
    I was at the Super Bowl the other day in the middle of an 
ice storm. During the Olympics, because of security reasons we 
used mass transit; and our speaker today who will be giving 
testimony, Dr. Catherine Ross, is in charge of a group which 
the governor organized last year that is dealing with the 
noncontainment problems in the 13 metro Atlanta area counties, 
and these are all just complete urban sprawl-type areas, and 
the agency is not only working in problems in Atlanta, but will 
be as time goes on a resource for all of Georgia as its 
counties starts to grow.
    So I am pleased to introduce Dr. Catherine Ross. She is the 
Executive Director of--we call it GRTA--Georgia Regional 
Transportation Authority. She is a professor of city planning 
and a Vice Provost at the Georgia Institute of Technology, 
which we over in Bulldog country will forgive her for, and she 
has also been a principal of a consultant/research firm, 
specializing in urban and regional planning as well as 
transportation planning, before being named Executive Director 
of GRTA.
    Mr. Wolf. Welcome.
    Ms. Ross. Thank you for that great introduction.
    Mr. Chairman, I apologize a little bit. I was very excited, 
but I didn't think my voice would leave, but that seems to be 
the case.
    I am delighted and grateful for the opportunity to come 
before you today to talk about the Georgia Regional 
Transportation Authority. We are a new transportation agency, 
and we have a unique story to tell.
    In some ways the reputation of the Atlanta area precedes 
us; from the L.A. Times to the New York Times to The Economist 
magazine in England we have been cast as the so-called poster 
child for sprawl. We have the Nation's longest average commute 
in terms of vehicle miles traveled. Last year our failure to 
meet conformity or to attain conformity with the Clean Air Act 
resulted in the loss of critical Federal highway funds. This, I 
can assure you, is not the kind of notoriety and attention 
Chambers of Commerce enjoy.
    Nonetheless, I believe the Georgia Regional Transportation 
Authority can turn the Atlanta region from the poster child for 
sprawl into a national model for regional cooperation and 
progress. Created by the Georgia legislature less than a year 
ago at the request of Governor Roy Barnes, GRTA was established 
to ensure transportation plans conform to the Clean Air Act, 
but we can do more than that.
    We have become and are becoming a catalyst for change in 
our region. Our goal is to provide transportation choices, 
protect the quality of life, with emphasis on clean air, and to 
promote growth that makes efficient use of existing 
infrastructure investments. We have been granted unprecedented 
authority and power to accomplish those goals.
    At present MARTA, which is our regional transit heavy rail 
and bus operator, serves only two of the 13 counties that are 
located in the nonattainment area. Only one other county has a 
bus system. We have few miles of car pool lanes on our 
interstate highways. In short, our citizens and commuters have 
few choices.
    I want to thank you for the $2,000,000 gift grant we were 
awarded last year, and I want to report that we are using it to 
start a new county-wide transit system in Clayton County, which 
is just south of the city and immediately adjacent to the 
airport. So we sort of got that award before we came into 
being, and we are using it. We have just finished public 
meetings, and we are going to start that service very, very 
soon.
    In addition, we are initiating a regional bus system, 
express bus corridors and van pool services. We are undertaking 
studies of the Georgia 400 which is a high-growth corridor in 
the metro area. We are partnering with the Georgia Rail 
Passenger Authority and the Georgia DOT in a joint effort--
unprecedented, I would suggest--to manage commuter and 
intercity rail transportation in Georgia. Sonny Jericho, GRTA 
board member, is chair of the oversight committee.
    Your help will be critical to our efforts, not only to 
establish a seamless multimodal transportation system for the 
Atlanta area, but also to help other metropolitan areas of the 
State keep within attainment of air quality standards. We have 
learned very quickly there are some things you don't do, and we 
are trying to teach the rest of Georgia how not to do those 
things. So we are the last area designated a nonattainment 
area. That is one of our additional objectives.
    You have before you a copy of our requests. The ones that 
we have outlined are critical to what we are doing, and I think 
they are very indicative of our general direction. I don't want 
to go over those specifically in the interest of time, but 
would make two observations. One, they focus on the creation of 
bus facilities, van pool facilities, and working with local 
areas to implement those.
    Thank you very much for your time and attention.
    [The prepared statement of Catherine Ross follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Wolf. Well, thank you both, and your full statement 
will appear in the record. I am calling to your attention two 
things. We helped put together a program in our area, my area, 
called the Rapid Bus Transit, the RBT. You ought to really look 
at the film that FTA has. It is from Curitiba down in Brazil. 
And you can get more of a bang for your dollar than you do on 
some of the rail projects that are very, very expensive. So I 
urge you to take a look at that. We have the video in my 
office. Jack can come on by and we can get to it you.
    Secondly, we put together a pilot program in the bill last 
year that sets up five demonstration projects in five cities 
that does the following because you can't build your way out of 
this. It says the following, if you, as a company, allow--
permit a certain percentage of your employees to telework, 
telecommute--that means to work out of their home--you will get 
a pollution credit. That pollution credit can be taken and sold 
on the Chicago Merc for value. So, therefore, the company--
Coca-Cola, if you will--takes that, sells it on the Merc to an 
environmental group, to another company, to a State, but the 
productivity of people who telework and work at home, 60 
percent of the jobs in this region here are jobs that are 
eligible to telework. AT&T, 55 percent of their midlevel 
managers telework one day a month; 25 percent do it one day a 
week. The productivity of somebody who gets up and stays home 
rather than strapping themselves into a metal box and driving 
30 miles downtown and sitting before a laptop, it doesn't make 
sense.
    So we have all that information, and Tom Santaniello in my 
office can give you information. I would urge you to look at 
that.
    Ms. Ross. Oh, absolutely. We are looking at those 
approaches as well.
    Mr. Wolf. They are actually--in some respects they get you 
a bigger--if every company in Atlanta and the metropolitan area 
said, we will now participate in telework, you could almost 
solve your transportation problems by the end of this year.
    Now, they are all not going to do that because their 
concept is if I don't see the person, they must not be working 
and you have got to change that mind-set, but Jack, we will be 
glad to share that.
    Ms. Ross. I appreciate that and can assure you we will take 
advantage of it.
    Mr. King. Are those State tax credits?
    Mr. Wolf. These are Federal, but we are hoping to model 
this for the rest of the country, and Governor Gilmore, my 
governor has done this in the Virginia General Assembly, it 
passed last week, where they will give straight State tax 
credits to companies; and one of the airlines--wasit Delta, 
that is giving laptops--Ford? There is an airline.
    Ford and Delta are giving laptops. You have to break the 
mold of thinking. The study shows that actually a person who 
gets up and goes to the next room and begins to get on line, if 
you are a mom or a dad, sometimes you want to be home with the 
kids and then at 10 o'clock you can get in the car and go 
downtown or at 3 o'clock you can go home and get on line and be 
there when the kids come home. If you have a sick parent, I 
mean, it just gives people more choices.
    And the clean air, most of our pollution is NOX. I mean, 
most of yours is probably the same thing, and that is where you 
get the advantage. So cleaner air, more choices over your own 
life and also reduce the congestion.
    George Mason, in my district, did a study. If 1 percent of 
the people participate you get a 3 percent benefit in traffic 
congestions, which they meant for this region--if 3 percent 
were to telework beginning tomorrow, we would basically have 
the Friday effect--you know how traffic is always lighter on 
Friday--every day, and so if you got all this new power, here 
is your chance.
    Ms. Ross. Oh, absolutely and we are going to use it from A 
to Z.
    Mr. Wolf. Good, great. However you all want to go.
                              ----------                              

                                       Thursday, February 10, 2000.

                    MARYLAND TRANSPORTATION PROJECTS


                                WITNESS

HON. CONSTANCE A. MORELLA, A REPRESENTATIVE IN CONGRESS FROM THE STATE 
    OF MARYLAND
    Mrs. Morella. Mr. Chairman, Mr. Pastor, it is a delight to 
appear before you again this year with some of the priorities 
in terms of transportation.
    I am pleased that the Chairman mentioned his bill. I am a 
cosponsor. I think it is a great idea. I am going to have to 
remember the idea that if 3 percent telecommute it is 
comparable to a Friday when I talk about it. Anyway, I will try 
briefly to go through some of the highlights of our requests as 
you engage in the budget deliberations.
    The Woodrow Wilson Bridge, we have been through this all 
before, $600 million. The President has it in his budget. It is 
the only bridge owned fully by the Federal Government, and it 
would cost $1.9 billion. $900,000,000 was put into last year's 
bill. An additional $400 million will be paid for by Maryland 
and Virginia, and so we are asking for $600 million needed to 
fully fund it.
    Just a case in point, it was built for 75,000 vehicles per 
day. It now has more than 190,000 vehicles. It is estimated by 
2020 to have approximately 275,000 to 300,000 vehicles.
    Second point. The National Highway Transportation Safety 
Administration has identified aggressive driving as the number 
one transportation problem in the area. NHTSA has estimated 
that one-third of all motor vehicle crashes and about two-
thirds of the 42,000 crash fatalities that occur annually can 
be attributed to aggressive driving behavior. So, to eliminate 
it, a regional program with representatives from Maryland, 
Virginia and D.C. have met since 1998, and have developed a 
comprehensive strategy. I would urge this subcommittee to 
continue to support this regional program by including $2.2 
million to the National Highway Traffic Safety Fund for the 
2001 budget.
    Looking ahead, also, I would respectfully request that you 
earmark $20 million in section 5309 bus and bus facility 
discretionary funds to be used for 80 MTA replacement buses, 
other small- and full-size buses, wheelchair lifts, bus 
facilities for local jurisdictions throughout the State of 
Maryland. This would help them to meet the federally mandated 
requirements under the ADA and the National Environmental 
Policy Act.
    I also request that the subcommittee support the transit 
properties around the Washington metropolitan region who have 
joined together in developing a region-wide fare integration 
and simplification plan.
    The first phase, accomplished in June of last year, 
streamlined and coordinated the various fare policies as well 
as provided for rail-to-bus transfers. The second phase is the 
development and implementation of one integrated fare revenue 
system for all bus service providers in the region, allowing 
customers to move effortlessly from the bus system to the rail 
system. This is an incredible technology. The new fully 
integrated Farebox Technology will have cash, magnetic strip, 
and smart card capability on the bus. The total project cost 
for Montgomery County is $8.4 million.
    The State of Maryland will provide the county a grant of 
$3.4 million toward the cost of this Farebox Technology for its 
Ride-On fleet. Therefore, I would urge the subcommittee to 
support the effort by including $5 million to allow Montgomery 
County to continue their Farebox Technology effort. It really 
will help the Nation as it progresses and is implemented. In 
the fight against congestion, Farebox Technology should make 
public transit all the more attractive to the customer.
    I would also request your support of the State of 
Maryland's efforts to expand the MARC train service that you 
earmark $15 million of section 5309 New Starts discretionary 
funds for construction of the Silver Spring Intermodal Transit 
Center, and some other commuter rail facilities, too. The 
Silver Spring Intermodal Transit Center would, it is 
anticipated by 2020, add 44,000 more jobs located within 
walking distance of the Silver Spring station, necessitating a 
high-level of transit usage.
    Intelligent transportation systems, I must mention that. 
Our commuter time in the D.C. area is 30 percent higher than 
the national average. For the Maryland Statewide Intelligent 
Transportation Systems Program, I hope that you will include 
$8.4 million of intelligent transportation funds. For the 
Washington, D.C. Metropolitan region, I request a total of $7.5 
million of ITS funds.
    In my testimony that you have, I have listed specifically--
--
    Mr. Wolf. The full statement will be in the record.
    Mrs. Morella. Right. It is all in the record. Great, no 
need to mention that.
    And then the county's Advance Transportation Management 
System is a great system, and it needs just $2 million of 
Federal funding to assist in a $4,000,000 project to permit 
additional physical and technological integration of public 
safety and transportation response agencies. I think it is a 
very good program. It is a model, again, for the Nation.
    Final point, and I know it seems like I have given you a 
lot. A little bit here, a little bit there and you get better 
transportation and a better environment.
    Finally, $4,000,000 I would hope you could put in for the 
Jobs Access and Reverse Commute Program. This provides funding 
for new transit services that transport former Temporary 
Assistance to Needy Families, the TANF recipients, and other 
low-income workers to job locations. If they don't have that, 
they can't get to the jobs, they can't get off of welfare and 
lead qualitative lives for themselves and for their families.
    And so I thank you, Mr. Chairman. I thank you, Mr. Pastor, 
and other members of the subcommittee for this great 
opportunity to testify today. We always look forward to it. And 
I hope that you will heed those requests as you engage in the 
difficult deliberations, and we will happily vote for the 
transportation appropriations bill, and I thank my colleagues 
for allowing me to use my age.
    [The prepared statement of Constance Morella follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                       Thursday, February 10, 2000.

                           MICHIGAN PROJECTS


                                WITNESS

HON. BART STUPAK, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MICHIGAN
    Mr. Stupak. Thank you, Mr. Chairman. Thank you, Mr. Pastor. 
Thanks for the opportunity to be here. Let me start small, and 
I will work my way up.
    The asbestos removal for a former Coast Guard property in 
Traverse City, what happened back in 1994 we transferred some 
excess property so they could be used as soccer fields. About 
3,500 students use those fields per year. The local community 
put in about two, three million to fix everything up.
    Things were going along, EPA comes in and says, we have 
some asbestos here, stopped all the soccer, stripped the 
fields, paid for it, removed the asbestos that was around 
there. But the asbestos is coming from the buildings that are 
adjacent to the field. The Coast Guard is happy to remove it, 
but they say we need a directive, and we need $200,000. So what 
I am asking for is $200,000 and a directive to the Coast Guard 
to remove those buildings with their asbestos and get rid of 
it.
    It almost sounds ridiculous, but for 3 years we have been 
going around and around between the EPA and Coast Guard as to 
who has to do what. Everybody wants to help out, but no one 
wants to take the initiative or the $200,000 it would take. So, 
like I said, I start small and work my way up.
    Next, Mr. Chairman, speaking of Traverse City, Cherry 
Capital radar. Every year I come and ask for this one.
    There has been some slight improvements with this little 
mechanical thing, that little mechanical thing, but the fact 
remains, of the top 11 airports in Michigan, this is the third 
busiest. It is the only one that does not have radar. It is 
hard to explain why we continue--in an area which is on the 
lake, which has adverse weather conditions of snow and 
everything else that blows in off the lake, we are still using 
binoculars to try and land airplanes, and this is the third 
busiest airport in Michigan. In fact, the landings that they do 
at Traverse City Airport, Cherry Capital Airport has the 
highest traffic growth of any airport in the United States 
between 1990 and 1995. Our closest radar is Minneapolis.
    So when we had the plane--the Czech-made jet trainer 
aircraft that went down over Lake Michigan with two men on it, 
all we could say was, Minneapolis said the last pings were over 
this way, and we still haven't found that plane or the people, 
and it is constant like that. This is one of the busiest 
airports in Michigan, and everyone else has radar except us.
    Mr. Wolf. You ought to have your staff person come down and 
meet with Rich Efford of the staff sometime tomorrow or next 
week, and let us call the FAA.
    Mr. Stupak. They keep saying we don't need it. We will put 
in this thing down here where you can watch it to about 500 or 
1,000 feet.
    Mr. Wolf. We will get a meeting with the FAA.
    Mr. Stupak. I appreciate it. The real issue is, if they put 
in radar, then they are going to have to have controllers there 
24 hours a day. They just don't want to do it.
    Mr. Wolf. Let us get together.
    Mr. Stupak. Lake State Railway Bridge. Lake State operates 
248 miles of track. It is a crucial provider of transportation, 
especially for industry, the paper industry in northern lower 
Michigan, around the Alpena area. Fletcher Paper, Lafarge 
Corporation, Abt Co., Stone Container. All these are large 
employers. We need basically $2.5 million to repair the bridge. 
It is in terrible shape. We have asked for it in the past. 
Unfortunately--you have been good to us--we haven't been able 
to get that one in. That is 2.5.
    Last but not least, and the big item if you will, is the 
Coast Guard buoy tenders. The replacement vessels, as you know, 
Mr. Chairman, they are doing the Juniper class and the Keeper 
class. In the President's budget, he has for three buoy tenders 
in this coming fiscal year we are talking about. It is the last 
window period. There is a contract. There is supposed to be 11 
of them. We have been doing about two a year. So this year the 
administration has put in $123.73 million to build the new buoy 
tenders. I would ask you to support that amount. It is the last 
year of the contract. We want to get the three vessels in 
there.
    I am sure Mark Green from Wisconsin, who works on this, 
will also be in asking for the same thing.
    The buoy tenders are just a great--new thing for the Coast 
Guard to upgrade and take care of everything, and this is the 
last part of the contract. There are three remaining. We would 
like to keep those three in.
    Mr. Wolf. Thank you.
    [The prepared statement of Bart Stupak follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                       Thursday, February 10, 2000.

                     DENVER TRANSPORTATION PROJECTS


                                WITNESS

HON. DIANA DeGETTE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    COLORADO
    Mr. Wolf. Diana.
    Ms. DeGette. Thank you, Mr. Chairman. And let me first 
thank you, Mr. Chairman, and also the committee for its 
commitment to the transportation needs in the Denver 
metropolitan area.
    As some of you may or may not know, Colorado is the third-
fastest-growing State in the country right now; and metro 
Denver is one of the most rapidly growing regions in the 
country with our rapidly growing transportation needs. The 
Regional Transportation District provides transit service to 
over two million residents in the six counties and 41 
municipalities in its district, and what I am going to talk to 
you about today goes through Douglas County, which is the 
third-fastest-growing county in the United States, also. And 
this is why this committee's commitment to our light rail and 
multimodal corridors are so essential and have been really, 
really valuable.
    I want to talk about two issues in particular. First of 
all, thank you, thank you for this subcommittee's past support 
and commitment to the Southwest Corridor Light Rail Project as 
part of our overall plan. The project is now 93 percent 
complete, and it is scheduled to open in July.
    The first thing I am asking for is a final appropriation of 
$20.4 million which will close out the project's Federal share. 
If we provide these funds now, then the light rail will open as 
planned, and I think it is going to be really exciting. Maybe 
you can come out and see it when we get it open.
    The second thing we have now got going, once we are 
completing the southwestern corridor, we have now got the 
southeastern corridor that we are starting up; and the start-up 
funding that the subcommittee provided last year has gotten us 
going. Now what we need is the first large chunk to begin 
construction along the southeast corridor. Congressman Tancredo 
and I have been working on this together, and we are here to 
request $63 million which will be the funding for the first leg 
of this Southeast Corridor Light Rail.
    I was here listening to some of the testimony from the 
Florida representatives and was mortified to hear what happened 
with their project when the voters did not support it after 
tens of millions of dollars had been spent, and I am proud to 
say we had a referendum on the light rail last year in the 
Regional Transportation District metro Denver. Sixty-six 
percent of the residents approved the local funding for the 
multimodal project, and so we think that this has very solid 
support, and it is going to be an exciting project.
    So those are our major two requests. Congressman Tancredo 
and I are working very hard on them together, and wewould 
appreciate this committee's continuing commitment to helping us 
complete our total regional plan.
    Thank you, Mr. Chairman.
    Thank you, Mr. Pastor.
    Mr. Wolf. Thank you both.
    [The prepared statement of Diana DeGette follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                       Thursday, February 10, 2000.

                    CHICAGO TRANSPORTATION PROJECTS


                               WITNESSES

HON. LUIS V. GUTIERREZ, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    ILLINOIS
HON. DANNY K. DAVIS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    ILLINOIS
HON. ROD R. BLAGOJEVICH, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    ILLINOIS
HON. BOBBY L. RUSH, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    ILLINOIS
JOE ANN BRADLEY, EXECUTIVE DIRECTOR, COMMUNITY ACTION GROUP, CHICAGO, 
    IL
OSCAR R. IRACHETA, PRESIDENT, EIGHTEENTH STREET BUSINESS ASSOCIATION, 
    CHICAGO, IL
JACQUELINE C. LEAVY, EXECUTIVE DIRECTOR, NEIGHBORHOOD CAPITAL BUDGET 
    GROUP, CHICAGO, IL
JAMES R. SOENS, EXECUTIVE DIRECTOR, RAVENSWOOD INDUSTRIAL COUNCIL, 
    CHICAGO, IL
JOHN PAUL JONES, DIRECTOR, OUTREACH CAMPAIGN FOR BETTER TRANSIT
    Mr. Wolf. The Chicago delegation and your witnesses. Your 
full statements will appear in the record as read, and then 
however you want to proceed.
    Mr. Gutierrez. Thank you, Mr. Chairman.
    First of all, I would like to thank Joe Ann Bradley from 
the Community Action Group and Oscar Iracheta from the 
Eighteenth Street Business Association and John Paul Jones from 
the Douglas L Coalition and James Soens from the Ravenswood 
Industrial Council. I would like to thank them for showing up 
and being here as part of this process. They are all community 
leaders, and they are here with us right now, and I would like 
to thank them.
    Well, what I would like to say, Mr. Chairman, I would like 
to thank Mr. Pastor for taking time out from his busy schedule 
to be here as part of this subcommittee and allowing me to 
speak to you about a project that is of urgent need to the 
people of the City of Chicago and the southwest suburbs, the 
reconstruction of the Douglas Branch of the Chicago Transit 
Authority's Blue Line. I know you have copies of my prepared 
testimony, so I think it is only fair I keep my comments brief 
and to the point.
    I know you have patiently listened to many Members talk 
today about some important projects. Well, I don't have several 
of them, and I don't have any small or medium ones. I have just 
got one. It is a big one; and I am certain, as are all of the 
requests, it is very valid one. But, with all due respect to my 
colleagues from other parts of the country, I would imagine 
that it would be difficult to find as many projects that are in 
as dire need of repair as the Douglas Blue Line.
    As you may recall, Mr. Wolf, we have spoken on occasions 
about the Blue Line since it was first granted a $315 million 
authorization in 1998, and so I will spare you the details. But 
let me just reiterate, it is 100 years old and simply falling 
apart. It is crumbling apart. In its current condition, it is 
unsafe, inefficient and unreliable. They have closed it down on 
weekends from Friday to Sunday, something we are trying to get 
the City of Chicago to reverse.
    To make best use of my time, I will emphasize a few 
developments that have occurred in the past year since I 
testified before the subcommittee. I think you will find this 
demonstrates the kind of commitment and support of elected and 
appointed officials at all levels of government that you, Mr. 
Chairman, and you, Mr. Pastor, have been looking for, and there 
are three newsworthy developments worth pointing out.
    First, as you probably know, Governor George Ryan of 
Illinois undertook a bold, bipartisan legislative effort last 
year, known as Chicago First, to fully fund the State's key 
infrastructure projects--its roads, bridges, rail lines--
billions of dollars, Chairman Wolf. The bill included and part 
of it is a commitment for 20 percent of all the total dollars 
up to $450 million for the Douglas Blue Line. So I know, 
Chairman Wolf, you said, well, you know, where is your State 
money? Well, I am happy to announce we got the State money. 
They passed it, it is there, and it is bipartisan--another 
long-awaited development that this panel is especially 
interested in coming to see pass.
    Second, a large amount of the design and engineering phases 
were submitted to Federal officials last fall. I know the 
members of the committee said, Luis, it is real nice, but CTA 
hasn't designed it, no plans. How are we going to fund 
something that doesn't have a design and plans yet? Well, I am 
happy to say those are there, too; and I know that was an 
important question. In fact, it is a step which, thanks to your 
previous appropriation, you helped pay for. I want to assure 
you that the amounts appropriated in the previous 2 years, 1.5 
and 3.5 respectively, have gone to good use, and the plans are 
in. We appreciate it.
    Third, and finally, I am pleased to report that just within 
the past week--so this is another issue Mr. Chairman, members 
of the committee, Mr. Pastor--you said, well, Luis, where is 
the Transportation Department, where is the FederalGovernment 
with your project? Well, last week, Transportation Secretary Rodney 
Slater announced that his Department will issue a full funding 
agreement for the project. This I realize was also identified by 
members as a crucial step.
    Put another way, I hope these developments represent giving 
an important signal that we are on track, local, State, and 
Federal transportation are all on board, and I trust that you 
are given a sufficient level of confidence that a substantial 
appropriation from your panel is justifiable at this time.
    Having said that, Mr. Chairman, I plan to submit an 
official request for $70 million for fiscal year 2001. That is 
the amount the City of Chicago and the CTA say is necessary to 
begin the renovation process; and, as I have said before, I am 
very proud of the people of my diverse district, just as I know 
you are proud of your constituents. They work hard at low 
wages, and I am really excited about getting this 
transportation project on the road.
    So I hope I followed your orders and your instructions, Mr. 
Chairman, and got everybody on board and got them to do what 
the committee wanted them to do.
    Mr. Wolf. Thank you.
    [The prepared statement of Luis Gutierrez follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Davis. Mr. Chairman, I will go next.
    I am Representative Danny Davis, and I want to thank you 
and Mr. Pastor certainly for the opportunity to be here, along 
with any other subcommittee members who are present. It is also 
a pleasure to be here with my colleagues, Congressman Gutierrez 
and Blagojevich, as well as the number of community leaders who 
have come to join us. I want to thank you for the opportunities 
as you make your preparations for fiscal year 2001.
    Mr. Chairman, I am requesting $70 million for a 
transportation project that is of critical importance to the 
entire Chicago metropolitan area. It extends beyond the 
interest of any one of our single districts; and this project, 
of course, is the Chicago Transit Authority's Douglas Blue 
Line.
    The Chicago Transit Authority operates the United States' 
second largest public transportation system. On an average 
weekday, 1.5 million rides are taken on the CTA which serves 
Chicago and 38 suburbs. This year, the ridership has increased 
7 percent and is expected to increase as the population 
increases in the city. It includes 11 stations and serves over 
27,000 riders each weekday, many of whom cannot afford private 
transportation and who rely upon the Douglas Branch line as 
their primary mode of access to jobs, services and recreation.
    Most importantly, the Illinois medical district is also 
located near the Douglas Blue Line. This medical district is 
the largest medical center in the entire world and is home to 
four major hospitals and numerous clinics that give specialized 
care.
    Again, for many low-income families from throughout the 
area, this is their only mode of transportation to adequate 
health care. I have in my congressional district 175,000 people 
who live at or below the level of poverty. The medical center 
district is their primary health care access point, and without 
the ability to get there, they are tremendously disadvantaged.
    In addition, Mr. Chairman, I also would want to indicate 
support for the Brown Line, which I am sure that Congressman 
Blagojevich is going to talk about as he talks about his need. 
But, as you can see, the transportation system in Chicago is 
hurting and is in tremendous need of assistance. So I join with 
my colleagues in asking that you and the committee give serious 
consideration to this request, and I thank you very much for 
the opportunity to be here.
    [The prepared statement of Danny Davis follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Wolf. You all make good points. I just want to make a 
comment. Your systems are old, and they were built before 
Federal funding, and so in some respects you have almost a 
greater--I don't want to say entitlement or right. But, on the 
other hand, the problem has been the Department of 
Transportation has signed all these full funding agreements. 
Areas like Mr. Pastor's area in Arizona and other places, where 
there is growth the need is overwhelming, too. And based on the 
number of full funding agreements the Department have signed, 
if we were to fund everyone at the level, there would be no 
money for any new system anywhere in the country, period, until 
the year 2004.
    Mr. Wolf. Rod.
    Mr. Blagojevich. Thank you, Mr. Chairman.
    I have got some good news for you. We don't have a full 
funding agreement on the Brown Line. That is good news for you, 
bad news for me. Although I understand they are working on it. 
I might have some news for you in the summer.
    Let me take this opportunity to thank you for giving me a 
chance to come before you; Mr. Pastor, thank you; and let me 
just associate myself with what Congressman Gutierrez and 
Congressman Davis had to say about the Blue Line, that we have 
for several years--and my immediate predecessor as well--have 
been working not only for the Brown but also for the Blue Line. 
We have been working so hard we should call it the Black and 
Blue Line. We have had some success, but not enough.
    And their need for $70 million to shore up a crumbling 
system, the Brown Line is different. It is an old transit 
system as well. It was built between 1900 and 1907.
    The Brown Line is one area where we have a growing demand 
for ridership. Over 100,000 riders ride the Brown Line every 
day. The anticipation is there will be a 25 percent increase in 
ridership if the Brown Line can expand its platforms and add 
two new cars. That, in turn, would work in terms of an 
integrated pattern to try to help the Chicago Transit Authority 
in its entirety by having more revenues for systemslike the 
Blue Line, as well as other needs across the City of Chicago and our 
region.
    For us in the Brown Line, we are asking for $12.1 million, 
and if you can try to find that for us, we would be grateful. 
And, again, I know you have got a tremendous amount of 
competition and needs across the country, but this is a project 
where we have an increased demand of ridership, and I think in 
the long run an investment in the Brown Line can be helpful in 
terms of not only that particular transit line but also helping 
some of the others in our region, and perhaps maybe in the 
outyears less of us would come before this committee asking for 
money because we might be able to fund some of this by 
ourselves.
    Thank you, Mr. Chairman.
    [The prepared statement of Rod Blagojevich follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Blagojevich. The first witness is Jim Soens from the 
Ravenswood Industrial Council.
    Mr. Soens. Thank you, Congressman.
    I represent a small industrial council on the north side of 
Chicago essentially served by the Brown Line. Within our small, 
three-mile-long, very thin corridor, which is right along the 
railroad and the el, there is 5,000 jobs. These are not the 
jobs that can be done at home on a computer. These are people 
who are working in factories and producing materials. Over the 
past 5 years, it used to be 75 percent of our employees used 
public transportation. It is now down to 50 percent. One of the 
reasons is you wait sometimes two or three trains in the 
morning before you can even get up to the platform. Platforms 
are jammed.
    What we are asking, in order to maintain the health of our 
corridor, is to be able to just expand the platforms, let 
people get to work. I myself have a couple of bum legs from 
playing high school football, and I have been taking to driving 
more than taking the el simply because in the cold weather my 
legs get to the point where it is very tough to walk. So I am a 
victim of the success of the Brown Line.
    The area is also an incubator district for a lot of young 
companies starting up, and it is not an official incubator 
district, but that is what it has become. We have a lot of old 
manufacturing buildings that are slowly turning over from one 
company to multicompanies, making everything from the Bulls' 
cheerleaders' uniforms to parts for rockets to various 
costumes.
    But, in closing, the Brown Line--and you hear the Blue 
Line--they are all part of a transportation system. We have a 
number of employees, although it is hard to pin down, that 
actually go from the Blue Line to the Brown Line to come to 
work. So it also should be considered part of an integrated 
transit system. And, for example, the Blue Line train could not 
now be transferred on to the Brown Line to make a connection or 
be rerouted because people could not get off at our stations. 
So, therefore, I think it would be a great benefit to all of us 
if our Brown Line project could begin. And, by the way, the 
Brown Line originally started not in the last century but the 
century before. It started in 1899.
    Thank you.
    [The prepared statement of James Soens follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Wolf. Your full statement will be in the record, so if 
you can summarize we would appreciate it.
    Mr. Davis. Mr. Chairman, it is my pleasure to introduce Ms. 
Joe Ann Bradley, a young woman that I watched grow up from a 
teenager into one of the top community leaders and activists in 
the neighborhood where I live, and it is certainly a pleasure 
for me to present her to the committee this morning.
    Ms. Bradley. Thank you. And thank you, Congressmen Davis 
and Gutierrez and Blagojevich, and especially you, Mr. 
Chairman, and Mr. Pastor and the committee members.
    I am really concerned about the Blue Line and the problems 
that we have encountered even in trying to get funding for it. 
I think the $70 million is a good first step in terms of 
helping us to get to where we need to be.
    Some of the problems that we have encountered, and I am 
speaking at the grassroots level, where we have been meeting 
with the CTA officials, et cetera, et cetera, trying to get 
them to understand the need to, first of all, maintain the line 
and then to upgrade it and improve it. And these battles have 
been going on for quite some time, and I have been active in 
the transportation issue since 1994, and it is really 
discouraging to have to continue to fight these battles at 
every level. And here we are today before you trying to present 
our case, and they have had a press conference the other day 
just stating how wonderful it is that we have been given this 
$300 million to go towards the Blue Line and some towards the 
Brown Line and then not even be invited to the press conference 
to bask in the glory.
    That is not why we are here today. We are really concerned 
about our stations, the els, et cetera. People have to get to 
work. They have to get to events that are sponsored downtown. 
And we have a lot of TANF people who are coming out off the 
welfare rolls, and they are in need of getting back and forth 
to work so they can start bettering their lives, and they have 
to get to their employment, et cetera.
    This battle will continue, I am sure; and our key issue 
right now is to work with the CTA and hopefully set up a 
community group of people who are active, who have actively 
been involved with this process over the years to set up an 
oversight panel to continue to monitor how things are going 
with the development and rehab of the system.
    I thank you for your time.
    [The prepared statement of Joe Ann Bradley follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Gutierrez. Mr. Chairman, I would like to thank John 
Paul Jones from the Douglas L Coalition for being here and 
introduce to the committee our last presenter, Oscar Iracheta, 
who is chairman of the Eighteenth Street Business Association. 
I think it is a great thing to see our community people that 
aren't governmental come down here and want to testify, and I 
thank the gentleman from the Ravenswood Industrial Council for 
being here. Oscar.
    Mr. Iracheta. Chairman Wolf, I thank you, first of all, 
very much, members of the subcommittee for giving me the 
opportunity to be here in front of you and testify today. It is 
truly an honor.
    First of all, I would like to acknowledge each and every 
one of these congressmen for their ongoing support. It is 
really a pleasure to be here sitting with them today.
    My name is Oscar Iracheta. I represent the Eighteenth 
Street Business Association, a community called Pilsen, City of 
Chicago.
    For the last two and half years, the community of Pilsen, 
specifically 18th Street in the lower west side of Chicago, 
little village, and the suburb of Cicero as well, have been 
alienated from the rest of the city. This is directly 
attributed to the service cuts that were unjustifiably 
implemented by the Chicago Transit Authority. For two and a 
half years, we have lost business revenue like never 
before,with some businesses losing upwards of 45 percent of their gross 
income and others having to close altogether.
    At last count, according to our stats based on surveys 
constructed by the Eighteenth Street Business Association, 
outside visitors or customers that we were used to seeing from 
the north side or the northern suburbs had dwindled down more 
than 70 percent. This has dealt a devastating economic blow to 
the commercial sector of the communities. Business revenue has 
fallen in the hundreds of thousands of dollars, and this has 
added to an increase of unemployment as well.
    We come here today to Washington, D.C., to seek justice 
from those that are in power to help restore the transit 
service, a service that is guaranteed to every citizen of these 
United States regardless of race, national origin, gender, 
religion or color, a right and a freedom that is inscribed in 
the Constitution, Bill of Rights, and a service that should be 
to enrich every man, woman and child in this country.
    Therefore, we at the Eighteenth Street Business 
Association, representing over 800 Latino businesses in the 
City of Chicago do hereby testify and ask for the urgently 
needed legislation providing $70 million, not $17 million as 
had been allocated, as a part of the upcoming fiscal year 
budget in order to begin the renovations of the Douglas L Blue 
Line and the immediate reversal of the transit service cuts 
enacted by the CTA.
    I thank you once again for being here.
    [The prepared statement of Oscar Iracheta follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Wolf. Did you have a statement?
    Mr. Jones. My testimony is included.
    Mr. Wolf. Did you want to identify yourself?
    Mr. Jones. My name is John Paul Jones. I am Director of the 
Outreach Campaign for Better Transit.
    Mr. Wolf. Your full statement will be in the record, if 
that will be good.
    Mr. Jones. Yes, indeed, sir.
    Mr. Wolf. We thank you for coming.
    Mr. Pastor. I just want to submit a statement for the 
record.
    But I have ridden the Blue Line, and I know it was a safety 
issue, and, obviously, you have a lot of ridership, and the 
communities that this line does pass, you can tell that it is 
middle-income communities. And so I know that we are constantly 
dealing with the growing population in the southwest and other 
communities, but also we have a population that needs to be 
served, and, hopefully, we will be able to balance it. But the 
alternative, if this isn't reconstructed, is I guess more 
congestion and probably pollution and maybe a lack of economic 
development to an area that needs to have a better effort in 
developing more businesses and better jobs.
    [The prepared statement of Ed Pastor follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Gutierrez. Mr. Chairman, you should know that Mr. 
Pastor has been to the community. We have invited him to come 
out there, and we want to thank him for that.
    Twenty-sixth Street, Mr. Chairman, for two miles, you 
probably think of the Golden Mile in Chicago, Michigan Avenue, 
the stores. Well, after Michigan Avenue, the second largest 
commercial strip in the City of Chicago that generates sales 
tax dollars back to the City of Chicago after Michigan Avenue 
is 26th street. Think about that. I mean, that is a pretty 
dynamic street if the only other street that beats it is 
Michigan Avenue. And we don't have any of the big stores on 
26th street, but we have a lot of businesses, and they pay a 
lot in city tax dollars. So I want to thank you, Mr. Pastor, 
and show you how economically important it is.
    Thank you.
    Mr. Wolf. Thank you all very much. Appreciate it.
                                ------                                

                                       Thursday, February 10, 2000.

                       EAST/WEST LIGHT RAIL LINE


                                WITNESS

JOHN WEBB, SECRETARY TREASURER, UNITED ELECTRIC SUPPLY CO., SALT LAKE 
    CITY, UTAH
    Mr. Wolf. Next is Mr. Webb and Mr. McConkie from Utah.
    Mr. Webb, Mr. McConkie, your full statements will be in the 
record, and you can summarize. We would appreciate it.
    Welcome.
    Mr. Webb. My name is John Webb. I am here to give testimony 
today on the East/West Light Rail Line which is proposed in 
Salt Lake City. I represent United Electric Supply, a business 
which has been on Fourth South since 1919 and its present 
location since 1927. I also represent other businesses, 
property owners and residents.
    We have kind of a unique plea. We are asking you not to 
give us any money. We would love to give it to Chicago. If you 
do choose to fund this project, we would ask you to try to use 
your influence to move it five blocks north to South Dimple 
Street.
    In the 1890s, E.H. Herriman built a trolley system in Salt 
Lake City. It, just like the UTA track system, which is now 
being installed on the north south of the valley, is an 
excellent replacement for the horse but is a terrible 
replacement for buses and cars in an area with such low density 
of population in Salt Lake County.
    We have been told over the last several weeks that the Utah 
delegation has informed many in Washington that the business 
owners have accepted a business mitigation plan and are now 
excited about East/West Light Rail. This is not only an 
untruth, it is a blatant lie. We are not aware of any attempt 
by the city to contact any of the businesses on Fourth South to 
suggest input or give them any copy of the mitigation plan, if 
it exists.
    Light rail is a failure. There have been 12 light rail 
systems built in the last 18 years of the United States. They 
have provided virtually no reduction in traffic. The percentage 
of people using transit to get to work at all metropolitan 
areas has gone down. People riding transit may have gone up, 
but the market share has gone down.
    Particularly, we think the light rail is a bad idea on 
Fourth South. It is a major east-west artery in Salt Lake City. 
From the west, there is a viaduct over the railroad tracks and 
a new partially functional ramp to Interstate 15. East of Main 
Street, there is a thriving commercial district. Above the 
University of Utah, Fourth South turns 90 degrees and becomes 
Foothill Boulevard, which turns into I-215/I-80 interchange.
    Currently, there are in excess of 40,000 cars utilizing 
Fourth South; and the Utah Department of Transportation 
estimates within a few years that will raise to over 60,000 
cars. To build light rail on Fourth South, traffic lines will 
have to be narrowed by two feet per lane; left-hand turns will 
have to be restricted or eliminated on many streets; the curb 
will be moved back, eliminating most of the green space; and 
all on-street parking will be removed in downtown Salt Lake 
City on Fourth South.
    The grade between Ninth East and 13th East is in excess of 
light rail's capacity to climb the hill, and there will have to 
be an engineering marvel to have the tracks go up this steep 
angle. Two years of UTA design as you build construction will 
devastate Fourth South as it has on Main Street. Traffic will 
permanently move to other arteries which are significantly 
residential in nature above Second East.
    In a discussion I had with John Inglish about 2 years ago 
at the State capital, he informed me that he wanted light rail 
on Fourth South in order to force as many people out of their 
cars as he could on to public transportation.
    As in many areas of the country, public transportation in 
Salt Lake City is funded by the many via sales tax and utilized 
by the very few. We do not feel it should be the intent to 
build mass transit which impedes traffic flow of the many.
    We agree with Congressman Cook and City Councilman Keith 
Christensen that there should be a public referendum before any 
more light rail is constructed. It is unconscionable for local 
leaders to allow infrastructure to be built which requires a 
sales tax referendum to be approved by the voters before the 
system is built. A referendum that comes after the fact is 
ballot box blackmail, as experienced in Buffalo, New York.
    The South Temple alignment has no grade issues. It is 
mostly nonretail. It is the north boundary of the central 
business district. Construction on this street would cause 
little devastation since it is scheduled to be rebuilt from 
curb to curb anyway. South Temple dead ends west of the Union 
Pacific depo and on the east spans into residential areas. TRAX 
is already on South Temple from Main Street West down to the 
Delta Center.
    I would conclude by saying we would like to see funding 
wait until after the 2002 games, after approval of the system 
by the voters and a tax increase approval by the voters that 
there would be a South Temple alignment instead of Fourth 
South, and that there would be an honest-to-goodness, 20 
percent matching fund from UTA instead of an eye watch claim of 
$10 million savings from the Federal Government on building of 
the north south line when, in actuality, they have already 
asked for $50 million more to finish the line which is, at this 
present time, 40 percent one track.
    An average trip on transit in the United States is 50 
minutes, an average in an auto is 19. This is a matter oftime 
and money. Density in Utah does not necessitate light rail.
    I thank you for the opportunity to speak before the 
committee.
    Mr. Wolf. I thank you very much.
    I do agree you probably should have a referendum. I don't 
want to get into it here. You really probably should have a 
referendum. I don't live out there, but I think a referendum is 
not a bad idea.
    [The prepared statement of John Webb follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                       Thursday, February 10, 2000.

                         UTAH TRANSIT AUTHORITY


                               WITNESSES

DANNIE R. McCONKIE, CHAIRMAN, WASATCH FRONT REGIONAL COUNCIL, AND 
    COMMISSIONER, DAVIS COUNTY, UTAH
WILL JEFFRIES, EXECUTIVE DIRECTOR, MPO
    Mr. McConkie. Mr. Chairman, I am Dan McConkie, chairman of 
the Wasatch Front Regional Council and a Davis County 
commissioner in Utah, so I am a little familiar with budgeting 
issues that are before you today; and I can appreciate that. My 
background is I spent 29 years with the Department of 
Transportation, Utah; and I am a little bit familiar with the 
transportation concerns in our State. I am here to support the 
$105,000,000 full funding grant agreement.
    Just allow me to tell you a little bit about our MPO. We 
were given life in 1973 by executive order of the governor of 
Utah and designated to handle that kind of transportation 
planning and transit for that region of five counties and over 
50 cities in the Salt Lake Basin. We have the University 
extension line in our long-range plan. It is part of the TIP. 
We see this as an important artery for the mobility of our 
citizens.
    I am also a member of the Air Quality Board in the State of 
Utah. Our focus there, of course, is to protect our airshed in 
Utah, to be concerned about the balance between transportation, 
pollution, commercial and others.
    We believe, from our point of view, that the North-South 
line that you have funded for us in the past has been a 
tremendous success. It was estimated coming in that there would 
be about 14,000 rides a day. In fact, it is 19,000 trips on a 
weekday, 23,000 on Saturdays. Our peak day was 45,000. The 
total transportation system of bus and rail revenues is up by 
over 40 percent. We believe that points to a successful transit 
program.
    The University extension is important to us because it 
plays the role of giving us an integrated multi-modal 
transportation solution. We live in a community just as 
everybody else in this country does where we want instant 
gratification. That is why we have fax machines and microwave 
ovens. We want to stride out the door, jump in the pickup truck 
and deliver ourselves to the destination of our choice 
instantly.
    The quality of life in all of the communities across 
America are somewhat determined by that freedom of mobility. 
Transportation programs such as we are working on in our State 
are designed in a way to help us provide that quality of life, 
at the same time, to protect our airshed.
    The population growth in our State is projected to grow 
another million people in the area within the 20-year period of 
time. We think that that is a concern. We don't have the kind 
of numbers of population the big cities like was mentioned here 
in Chicago, but for the landlocked area between the mountains 
and the lake, it is pretty determined that we have a great 
need.
    Our citizens support the concept of multi-modal, integrated 
systems to give them choices. We believe that, as they have 
those choices, they are more likely to get out of their cars 
and help us save the airshed.
    Each year, we have concerns about carbon monoxide and the 
PM10 in the winter months, especially in December when the 
related activities of patrons in the downtown area on the 
streets brings a lot of congestion and additional concerns 
where we bump up against the EPA standards. We have frequent 
temperature inversions in the summer. We get close to those EPA 
limits as well.
    We see that this is a vital commitment to improve our air 
quality. The regional council supports this program. We believe 
it will provide a very useful service during the Olympic games. 
It would help to move spectators to the several venues and 
uptown and downtown for the opening and closing ceremonies. The 
transit authority is prepared to proceed at this time.
    The key to this is funding. The environmental process is 
completed, the record of decision is secured, and there are two 
design build teams that have made offers to construct this 
project.
    We know that there are a few business owners along the 4th 
South alignment that are concerned about the interference 
during the construction cycle. In response to that, Salt Lake 
City and UTA do have a mitigation program to undertakeand 
respond to their concerns.
    The Downtown Business Alliance, the Chamber of Commerce and 
Salt Lake City support the project. In addition, the Utah 
Transit Authority has received many unsolicited letters of 
support from the owners of affected businesses saying that they 
appreciate the increased business because of the North-South 
line rail.
    In conclusion, Mr. Chairman, we expect that the University 
extension will be the same success as the North-South. We know 
it will be patronized. We hope that we will have a favorable 
resolution.
    I would like again to thank you for the opportunity to 
testify before this group and ask for your permission to submit 
for the record a revised version of my written testimony that 
you have in your possession. If there are any additional 
information that our MPO could provide to your subcommittee, we 
will be happy to do that.
    Mr. Wolf. Thank you very much. You are welcome to do that.
    [The prepared statement of Dannie McConkie follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Wolf. I don't have any questions. Salt Lake City has 
done better than every other region of the country, except for 
six, since 1970. Chicago, who just left, Mr. Pastor talked 
about, isn't even on the list. On a per capita basis, you have 
done better than every other region but for six in the country.
    Mr. McConkie. Thank you.
    Mr. Wolf. I do think it is fair to have a referendum. How 
can you not have a referendum? Why would you not have a 
referendum? If you can just submit that to me in writing, we 
don't have to get into it. But I think that is a fair 
statement. This cannot be done in time for the Olympics.
    Mr. McConkie. It probably cannot unless you escalate the 
cost.
    Mr. Wolf. I have no questions.
    Any questions?
    Mr. Wolf. If you might comment on the issue with regard to 
the referendum, I would appreciate it.
    Mr. Jeffries. I am Will Jeffries, the Executive Director of 
the MPO.
    With respect to the referendum, the State statute requires 
a referendum for the funding of public transit. The referendum 
has passed. The funding for the construction, the local share 
and the operating cost is already available through the 
existing funding. So there is no additional funding required. 
That is why no referendum is offered.
    Mr. Webb. That isn't true. Everyone received in their paper 
a questionnaire from Vision Utah asking them what type of tax 
increase they would accept for light rail. This extension does 
need a sales tax increase. John English has said it needed a 
sales tax increase. So has the city council. So there is a 
sales tax increase that is needed.
    Mr. Wolf. Will it need a sales tax increase?
    Mr. Jeffries. No. The arrangement with the FTA is that 
current revenue with the current taxes are adequate to build 
and operate the system.
    Mr. Webb. For how long?
    Mr. Jeffries. We would like very much to thank you, Mr. 
Chairman, for the availability of your staff. Mr. Blazey, he 
has been very helpful in helping us understand your committee's 
needs and everything. We appreciate the access.
    Mr. Wolf. If you want to submit a new statement, fine.
    Mr. Wolf. Mr. Olver.
    Mr. Olver. Now, I am a little bit confused. You say a 
referendum has. The gentleman here says the referendum hasn't. 
Has there been a ballot question which was on an election 
ballot with polling places open at either the time of any other 
election that was going on, November election or whatever city 
elections? Has there been such a case?
    Mr. Jeffries. Yes, there have been two cases. As I 
mentioned, State statute does require referendum before a tax 
is imposed. That referendum was offered and has passed. A 
number of years later, there was another referendum for 
increasing that. That referendum was in a portion of the 
region. It failed. The point is, the revenue needed to build 
and operate this extension is available through the current 
revenue available through the first referendum.
    Mr. Olver. Mr. Chairman, I would hope that, in following 
your suggestion that they give you the feedback on the question 
that you raised about a referendum, that they would document 
the fact of the referendum.
    Mr. Wolf. Sure. I would be happy to do that, without 
objection. Mr. Olver and Mr. Pastor, we will get you a copy.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                       Thursday, February 10, 2000.

           GENERAL AVIATION MANUFACTURERS ASSOCIATION (GAMA)


                                WITNESS

EDWARD M. BOLEN, PRESIDENT, GAMA
    Mr. Wolf. Our next panel is General Aviation Manufacturers 
Association, Professional Airways Systems Specialists, National 
Air Traffic Controllers Association, American Psychological 
Association.
    Your full statement will appear in the record. If you would 
summarize, we have just fallen a little bit behind. People have 
planes to catch. If you could keep within the limit, we would 
appreciate it very much.
    General Aviation is first. We are going by the list.
    Mr. Bolen. Thank you, Mr. Chairman and members of the 
committee, for giving me an opportunity to testify today.
    Mr. Chairman, last night at GAMA's annual press conference, 
we announced that since passage of product liability reform by 
this Congress, the general aviation industry has experienced 5 
straight years of growth. To put that into historical context, 
never before in the history of U.S. general aviation have we 
had 5 straight years of growth.
    So this is a remarkable time for general aviation in the 
United States. We are bringing new products to the market. We 
are creating a lot of energy. We are exporting a lot of 
products. But our ability to continue the current pace of 
growth is going to depend on our ability to continue bringing 
exciting and safe new products to the market.
    As you well know, in order for general aviation 
manufacturers to get products to the market, we have to undergo 
a very exacting certification process. This is a process that 
is required by the Federal Government. It is not optional to 
the manufacturers. We have to submit to the FAA.
    At the present time, we are having a difficult time because 
of the FAA's staffing in AVR trying to get our products to the 
market. If that happens, we suffer in two ways. The public 
suffers because they aren't able to buy the newer, safer 
products. We also lose an international edge in the global 
marketplace.
    At the present time, we are hearing from manufacturers that 
they have been told by different FAA regions, we hope you are 
not doing a new aircraft model this year, you are not going to 
be able to certify it, we simply don't have the resources.
    Since 1992 AVR's workload has far outpaced its staffing 
demands, and that really is beginning to impact U.S. 
manufacturers. We are relatively pleased with the 
administration's request with regard to the certification 
process, but we think that it is at least, at very most, a 
minimum and would like to see an increase there. We think even 
if it is fully funded, we will be some 195 positions short.
    We are currently working with the FAA to refine and 
streamline the certification process so that we can improve the 
efficiency of the process while at the same time improving 
safety as well. But even if we are successful at implementing 
some of those things which were recommended by the Challenge 
2000 report, by the Fresh Air report and some others, we think 
there are still going to be some staffing demands there.
    I bring this to your attention because this is a critical 
issue. If we are going to continue adding jobs to our 
manufacturing base and bringing products to the marketplace, we 
have got to be able to get our products certified.
    We have had a situation for the past couple of years where 
the resources have simply been small, and then the ones that 
are there we have seen from time to time them being moved by 
the FAA into other parts of the agency. We are suffering as 
manufacturers, but I think the general public is suffering as 
well. We need your support on this. We need to get the 
resources to the certification office, and we need to keep them 
there.
    I also would like to take an opportunity to talk briefly 
with you about the modernization process. I think you are well 
aware that the U.S. is in the process of trying to modernize 
our air transportation system so that we can remain the world 
leader in all aspects of aviation. We need to do that to handle 
the projected growth in the system. A key part of that is a 
switch from ground-based navigation toward more satellite-based 
navigation. We believe in that. We support that. That includes 
a couple of programs that we want to make specific mention of, 
and that includes the WAAS program and ADS-B. We hope you will 
fully support those.
    Finally, let me just state that the President's budget 
includes a request for user fees and does not include a request 
for a general fund contribution. I think you know from my past 
statements to the committee GAMA's position on user fees.
    I want to thank you, Mr. Chairman, and your committee for 
the position you have taken on user fees in the past. We have 
seen what happens with user fees in foreign countries, and it 
has been very debilitating to general aviation in those 
countries. We are glad you have not allowed that to happen here 
in the United States. We would like your support on a 
reinstatement of the general fund contribution to cover the 
military's use of this system and to help cover the cost of 
those things like safety, security and certification which we 
believe benefit the general public, not specific individuals in 
the system.
    [The prepared statement of Edward Bolen and questions for 
the record from Mr. Tiahrt follow:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                       Thursday, February 10, 2000.

            PROFESSIONAL AIRWAYS SYSTEMS SPECIALISTS (PASS)


                                WITNESS

THOMAS BRANTLEY, VICE PRESIDENT, PASS
    Mr. Wolf. Professional Airways Systems Specialists.
    Mr. Brantley. Thank you.
    Mr. Chairman, members of the subcommittee, I am Tom 
Brantley, Vice President of the Professional Airways Systems 
Specialists. PASS appreciates the opportunity to appear before 
you today. As you know, PASS represents more than 11,000 of the 
FAA systems specialists, flight inspection pilots, aviation 
safety inspectors and safety support staff.
    In January, PASS and the FAA reached a new tentative 
collective bargaining agreement for airways facilities 
technical and support workforce. Our agreement addresses 
critical workforce issues in a way that will help the agency 
better meet the challenges of today while preparing for those 
of tomorrow.
    In order to meet the ever-increasing demands on the NAS, 
PASS has long contended that modernization has to be more than 
pouring concrete and installing new equipment. Our new 
agreement is founded on the belief that NAS modernization must 
include building an infrastructure that supports efficiency 
without degrading safety. To meet this goal, our agreement is 
based in part on PASS and the FAA jointly developing a training 
strategy that upgrades the skills of the technical workforce to 
support new technologies as they come on line.
    A change from the FAA's traditional centralized training 
methods to more local and on-the-job training is required. 
Local and on-the-job training are not only more efficient ways 
to train, but they also help ensure systems specialists are 
available to restore today's systems while at the same time 
learning the new skills required for tomorrow's technology.
    PASS believes that training is so crucial to NAS 
modernization that it requires oversight in earmarking of 
funds. Money needs to be specifically allocated for training to 
keep it from being diverted to the agency's latest crisis. 
Without earmarking funds for training, we fear that the moneys 
may not go for their intended purpose. Our goal is to come back 
to this subcommittee next year and tell you that we have 
started a successful training and modernization program in 
airway facilities.
    The flight standards workforce staffing levels have been 
reduced by more than 15 percent during the past 2 years. In 
most cases the field offices are so understaffed that only the 
minimum number of inspections are being completed. More than 
half of the other needed certifications, surveillance and 
enforcement are not being accomplished.
    For example, the Boston flight standards district office's 
geographic unit requires a 25-person staff to manage the Air 
Transportation Oversight System, ATOS, as well as its 
geographic responsibilities. However, the unit is understaffed 
by 12 employees, or nearly 50 percent.
    Since emphasis has been placed on completing geographic 
responsibilities, ATOS inspections at the 10 largest U.S. 
carriers have been seriously affected. Inspectors in the 
program which was initiated in the wake of the ValuJet disaster 
are being tasked with other surveillance activities.
    While the workforce has been cut considerably during the 
past 2 years, training has also suffered. A major component of 
an effective surveillance program is to ensure that currency is 
maintained so that inspectors keep pace with the industry. 
Because of FAA's budgetary decisions, operations inspectors are 
not receiving current flight training and regular flight 
proficiency to remain current. Airworthiness inspectors are not 
receiving instruction on specific aircraft and aviation 
maintenance technologies.
    Travel budgets have also been cut significantly. Inspectors 
have been forced to inspect primarily by telephone and through 
paperwork. The travel cuts have been especially hard on 
facilities that are responsible for large geographic areas. At 
these facilities, inspectors must travel an entire day just to 
reach many of the facilities within the coverage area. Without 
overnight travel authorization, inspectors cannot provide 
adequate surveillance in these areas.
    While PASS and the FAA are making modest progress in some 
AF areas, congressional oversight and earmarking of funds will 
be needed to ensure these enhancements are successfully 
implemented. In the AVN and flight standards divisions, 
inadequate staffing and training and insufficient funds for 
travel are significantly affecting the workforce's ability to 
conduct proper surveillance and inspection.
    Thank you for allowing PASS to present its views. I would 
be happy to answer any questions.
    Mr. Wolf. Thank you very much.
    [The prepared statement of Thomas Brantley follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                       Thursday, February 10, 2000.

          NATIONAL AIR TRAFFIC CONTROLLERS ASSOCIATION (NATCA)


                                WITNESS

MICHAEL McNALLY, PRESIDENT, NATCA
    Mr. Wolf. The National Air Traffic Controllers Association.
    Mr. McNally. Thank you, Mr. Chairman, Mr. Olver, Mr. 
Pastor, Mr. Packard and other members of the committee for 
allowing us to testify today.
    As you are aware, NATCA represents the Nation's FAA air 
traffic controllers and other Federal aviation employees. There 
is continued dissatisfaction with the progress of FAA 
modernization. Delays in the system and the mounting problem 
with aviation gridlock has led to many industry and government 
officials calling for the privatization or contracting out of 
air traffic control operations.
    I am here today, sir, to tell you that we do not believe 
this is the solution. Privatization will not in any way speed 
up the process of building new runways and airports. Safe, 
reliable, user-accepted equipment in the pipeline wouldn't be 
developed and installed any faster. Flexible procurement and 
streamlined purchase processes are already in place in the FAA. 
Privatization would instead fracture the delicate balance of a 
workforce that holds the system together.
    Today's immediate air traffic control privatization debate 
centers around two areas: first, whether we should continue the 
Federal contract tower program to include 70 Level II and III 
towers, which include some of the busiest facilities in the 
United States; and, second, whether oceanic functions at three 
en route centers should be privatized.
    Proponents of this option ignore the fact that oceanic 
controllers are top of the line. Lifting them out of the 
carefully constructed aviation network would have severe 
consequences to several of our premier facilities.
    Of course, NATCA adamantly opposes these so-called 
solutions because they will create far more problems than they 
will solve. Piecemeal privatization or contracting out will 
destroy the seamless nature of our air traffic control system. 
Today, the system operates through teams of highly skilled and 
well-trained controllers linked together with highly 
sophisticated communication and radar systems.
    A smooth, safe and efficient system depends on the seamless 
transition of aircraft from control towers to terminal radar 
approach controls to air route traffic control centers and 
back. A breakdown in communication between controllers at these 
facilities reduces safety, capacity and overall system 
performance.
    FAA controllers share a common language background and 
management. Piecemeal privatization of air traffic control 
operations eliminates standard management procedures and 
communications.
    As president of a diverse and growing organization, I 
understand fully how we must, in both private and public 
sectors, make tough decisions. Today, one of the issues is 
privatization. However, we must not ignore the bigger picture 
and a message we would send. Are we ready to say that the 
private sector will best serve the public interest because it 
can save government money? The safety of the flying public 
should never be in competition with the corporate bottom line.
    I am not saying we should not strive to improve, become 
more efficient and reduce costs. However, I believe the FAA is 
structured under a governmental entity and can achieve those 
objectives.
    The most sophisticated, top-of-the-line computer system 
cannot guarantee you a safe and efficient air traffic control 
system. Only a highly trained, adequately compensated and well-
managed workforce can do this. With or without working 
technology, the human element is the last line of defense in 
maintaining the safety of the flying public.
    Private entities, however, have less accountability to the 
public, only to their board of directors; and profits or 
savings are achieved at the expense of employees generally, 
those who kept the system operating during recent massive 
equipment outages.
    All one has to do is look at the current Federal contract 
tower program, which is characterized by inadequate training 
and staffing, lower salaries, part-time work and fewer 
benefits, communication lapses and poor working conditions. In 
fact, in a May, 1998, audit report, the DOT IG noted that some 
contract towers had not been staffed at contract-specified 
levels and that some contractors had been compensated for 
services that had not been provided.
    Proponents of privatization often point to restructured 
airspace systems in other countries. Any comparison, however, 
in our view is illogical. In countries that have partially or 
totally privatized air traffic control systems, the systems are 
much smaller, with many fewer flight operations, number of 
employees, air traffic control facilities and smaller budget 
requirements.
    Take Canada's ATC system. It is one-tenth the size of the 
United States, we believe the second largest in the world. It 
has only one major carrier, runs 9 percent of the air traffic, 
as compared to the United States air traffic, has only 8 
percent of the U.S. general aviation traffic and 14 percent of 
the staffing.
    Most of the FAA's nine regions handle airspace and 
operations that far exceed that of any single country that has 
privatized. Today, all nine FAA regions are responsible for 
moving at least half of the world's aviation passengers and 
cargo.
    In conclusion, I would like to state that the keys to 
improving system capacity and safety are strong 
leadership,industry consensus and adequate funding. Without them, the 
result will be restricted aviation growth. The FAA has turned the 
corner with the help of this committee, vigorous help of air traffic 
controllers, engineers and other employees. Being part of a single 
organization with one mission, one agency head and no ambiguities about 
the priority on human life is in the country's best interest in our 
opinion. Safety is the bottom line, and air traffic controllers are 
your partners in this most important aviation mission.
    I thank you, sir, and certainly would be happy to answer 
any questions.
    [The prepared statement of Michael McNally follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                       Thursday, February 10, 2000.

                   AMERICAN PSYCHOLOGICAL ASSOCIATION


                                WITNESS

DAVID JOHNSON, PH.D., EXECUTIVE DIRECTOR, FEDERATION OF BEHAVIORAL, 
    PSYCHOLOGICAL AND COGNITIVE SCIENCES
    Mr. Wolf. American Psychological Association.
    Mr. Johnson. Thank you Mr. Chairman, members of the 
subcommittee.
    I am speaking on behalf of the scientists who help assure 
the safety of flight through their research on human 
performance and through applications of that research. Their 
work is supported by the Human Factors Division of the FAA's 
Office of Aviation Research. A small division, now funded at 
$21,900,000, its significance far outweighs its support level. 
It was this division that went to work when you charged the FAA 
with identifying and fixing design flaws in the new terminal 
controller and maintenance and control workstations after 
controllers told you they were unsafe.
    My colleagues and I have argued before this subcommittee 
for a number of years that emergency fixes like these could be 
avoided if human factors scientists were included in design and 
planning processes from the beginning. We are gratified that 
the FAA is now beginning to work with integrated product teams 
that give some consideration to human factors engineering and 
hope that inclusion of human factors scientists will become 
routine.
    In my testimony today, I want to dwell on the issue of 
whether it is better to put money into human factors research 
and integration up front or to wait and pay to retrofit after 
it is discovered that something doesn't work.
    The President's 2001 budget request for this work is 
$25,100,000, an increase of $3,000,000. This increase simply 
allows the division to continue doing what it has been doing 
without support for necessary new programming. We are 
recommending a budget of $34,000,000, with $12,300,000 going to 
the flight deck program, $12,700,000 to the air traffic 
program, and $5,400,000 to the aeromedical program. A 
$25,000,000 budget will allow the Human Factors Division to 
address some pressing current needs; $34,000,000 buys the 
ability to get ahead of the curve.
    With adequate funding, the flight deck program can 
accelerate the process of identifying and addressing error so 
that opportunities for disastrous errors are eliminated in 
advance rather than after a disaster. Strategies for 
maintaining crew performance in the face of fundamental changes 
in flight, such as those that will emerge from free flight or 
such as those that occurred earlier this week, could be tested 
thoroughly before they come into general use. The impact of new 
automation capabilities could be better understood before 
particular capabilities are deployed.
    In the air traffic program, a major concern is the 
integration of systems as they come on line. It is well known 
that errors rise when new technology is introduced, even when 
the new technology is very good. With adequate funds, air 
traffic control errors could be minimized and the period of 
adaptation to new technologies reduced.
    With current funds, the Human Factors Division won't be 
able to respond to all the problems that will be arising just 
from current use. Its chance of mitigating error in systems 
that haven't come on line is even more remote. The look-ahead 
money just isn't there.
    In the aeromedicine program, funds are inadequate to 
integrate FAA efforts in passenger safety with those of 
international counterparts. This is a problem because 
partnerships that are growing between U.S. and nonU.S. carriers 
means that U.S. citizens booking flights with U.S. companies 
for travel out of the country will be traveling on nonU.S. 
carriers. The aeromedicine program needs to assure the safety 
of U.S. citizens booked by U.S. carriers but flying on nonU.S. 
planes.
    In ending, let me just say that last year's conference 
report called on the human factors research program to confine 
its research to today's human factors problems on the 
impression that that work to mitigate future problems is done 
elsewhere. It is true that operations concept integration is 
done elsewhere, but this is largely a technology, not a human 
factors and technology undertaking. It has been, and remains, 
our contention that the human factors office must be 
responsible for mitigating sources of future error as well as 
correcting causes of current error, because it is the 
onlyoffice in the FAA that is consistently devoted to human-machine 
integration planning. We hope that the Congress will rescind its 
restriction. Human factors engineers must have the resources to build 
safety into systems in advance, not just to do it as an add-on after a 
disaster.
    Mr. Wolf. Thank you very much.
    [The prepared statement of David Johnson follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Wolf. Any questions?
    Mr. Olver. Mr. Chairman, may I ask just a question or two?
    Mr. Wolf. Absolutely.
    Mr. Olver. Thank you, Mr. Chairman.
    Mr. McNally, you have spent a good deal of your time here 
on the privatization issue. My recollection is there are 
several categories. Is it four categories of traffic 
controllers or is it more? Are there four categories or 
classes, levels, whatever?
    Mr. McNally. Levels. I think you mean levels, sir. Yes. 
Yes, we have different levels.
    Mr. Olver. How many levels?
    Mr. McNally. We used to have five under the old system. Now 
there are 10.
    Mr. Olver. I see. Is there some portion of those that is 
already privatized?
    Mr. McNally. Yes, the Level I.
    Mr. Olver. I don't expect you to have this off the top of 
your head, but in your one to ten categories, what percentage 
of the traffic--this traffic which is 10 times at least as 
large as the next largest, which is Canadian traffic, what 
percentage is in each of these--maybe you could give that to me 
at some point, but one has been already privatized.
    Mr. McNally. Level I towers, yes.
    Mr. Olver. Do you know how much traffic that one has?
    Mr. McNally. They generally run less than 100,000 
operations per hour.
    Mr. Olver. What is the percentage of the total traffic?
    Mr. McNally. I couldn't tell you.
    Mr. Olver. Somebody may be able to follow the gist here. 
And the proposals have been for privatization of II and III?
    Mr. McNally. Those are proposals that are floating around--
IIs and IIIs.
    Mr. Olver. IIs and IIIs, as well as oceanic? II and III and 
oceanic?
    Mr. McNally. Right.
    Mr. Olver. Are the oceanic controllers in some other 
separate category or a category by themselves?
    Mr. McNally. They are the top level.
    Mr. Olver. Level X. So their proposal is to do II and III 
and the top level of X?
    Mr. McNally. Right.
    Mr. Olver. They are not the only things that are in Level 
X, are they?
    Mr. McNally. No. They are the busiest control facilities we 
have.
    Mr. Olver. The oceanic ones are a part, but there are 
others in Level X?
    Mr. McNally. That is correct.
    Mr. Olver. I guess, from your testimony, you would say that 
such actions would not improve safety or reduce delay?
    Mr. McNally. In our opinion, that is correct.
    Mr. Olver. I would appreciate it if you would give me some 
kind of a grid that I can sink my teeth into, into how much 
traffic goes into each of these levels and how they are 
categorized. I can find that elsewhere, but I would like to 
have you prepare it so I can get it from your side, if you 
would.
    Mr. McNally. Yes.
    Mr. Wolf. Thank you very much. I don't have a question, but 
I do want to add something for the record.
    One, I think the air traffic controllers do an outstanding 
job. I have always been very, very supportive. I also think 
that Jane Garvey has done an outstanding job.
    Mr. McNally. I agree.
    Mr. Wolf. Her knowledge of aviation coming in was not very 
high because she had been in the Federal highway 
administration. But I think she has done a good job. She knows 
how to listen.
    So nothing of what I say is meant to be of any criticism, 
but something inside me. And this committee can't deal with it. 
We are not the committee. I personally believe--I am against 
privatization. I don't want to privatize the police force. I 
don't want to privatize a lot of things that some people do.
    In the aviation area, safety is number one by far of 
everything. My sense tells me, though, that we gave the FAA--
the former administrator would sit here and talk about, we need 
procurement reform, we need the ability. We have given them 
that procurement reform, and it hasn't worked. It just hasn't 
worked.
    I think Jane has involved the controllers in I think the 
screen issue and everything. That has been a plus. But it just 
hasn't worked.
    They also said, give us this ability for personnel.Well, we 
have given them personnel reform. She could not find a deputy. She 
could not find anyone who would come in and either take the pay cut or 
give up their frequent flier miles and all the different issues that 
came up.
    My sense is that something different has to be done. I 
think you could do it in a way that you could protect the air 
traffic controllers' salaries for the next 10 years. You might 
be able to have a board whereby you would have an air traffic 
controller, somebody from the general aviation, somebody from 
the ATA, somebody from--I don't know. But someday I would like 
to get the controllers, PASS, general aviation, ATA and 
somebody from the FAA to just come into the office for about an 
hour and a half and see if you were forced to construct 
something that was different.
    Because, right now, from a funding level, it is on-budget, 
off-budget, on-budget, off-budget. That is the battle. The FAA, 
in many programs we have given them more money than they have 
actually asked. It is not connecting. There is something wrong. 
We don't, again, have the ability here. I guess we could put an 
amendment on to do something, but I don't know what you could 
do.
    After the markup is over at some time, it would be good to 
maybe in an afternoon get all of the different groups together 
and say, how would you construct, if you were forced to, if 
somebody said you don't have any choice, you've got to come up 
with something?
    When I look at the runway incursion issue, that has been on 
the most wanted list of the National Transportation Safety 
Board for 10 years--10 years. Your people know more about it. 
They have made no progress. They have literally made no 
progress.
    The committee put more money in than they asked. 
Fortunately, the administration now has put some more money in. 
We are going to try and help them. But if we couldn't deal with 
the runway incursion issue from a technological point of view 
or whatever, I just become very, very concerned.
    What I am going to ask is that, after we get the bill 
marked up and are finished, that maybe there is a time and we 
can invite the Members or whatever people want to do just to 
hear the six or seven groups, to come together to see how would 
you do something that would make it better than we currently 
have without prescribing what better is and without seeing what 
it would be. It might be the current system with this change or 
it might be a nonprofit--something.
    But this is not the type of thing you want to do on a 
profit basis. John Glenn used to say he went to outer space 
with the lowest bid. We aren't trying to do that. We want to do 
the best we can and make it the safest but do it in a way that 
the American public can have some sense. Maybe after we finish 
this we could get everybody together to look at that.
    Thank you all very much.
    Mr. Pastor. Mr. Chairman.
    Mr. Wolf. Mr. Pastor.
    Mr. Pastor. After hearing--John asked the question--it is a 
similar question but maybe asked in a different way. I will ask 
Mr. McNally. By contracting out those Level IIs and Level IIIs, 
do you think that will improve the safety and reduce the 
traffic control delays?
    Mr. McNally. No, sir. Quite frankly, we honestly believe it 
is the reverse. We do have--now is not a good time to be 
bringing up the recent accident on Tuesday, but we have a mixed 
situation as well where contract towers were involved, one 
controller we believe on staff in each case, very busy. There 
are a lot of questions that we have about what we are doing 
here.
    Then there is the loss of a seamless structure, which we 
have Mary Jane Discount ATC Services working with Billy Bob ATC 
Services over here. Right now, what we have is a single 
management that can deal effectively with a workforce, and they 
are integrated. These facilities are out on their own and very 
limited FAA oversight. We believe there is a serious problem. 
In fact, we know for sure. There is no reported operational 
errors coming out of these facilities. When they were FAA 
operated towers, we had operational errors, we called them. 
They were reported. All of a sudden, they disappeared. They 
didn't disappear, they are just not being reported. Now, we 
have things being swept under the rug, in our opinion.
    Mr. Pastor. Thank you Mr. Chairman.
    Mr. Wolf. Thank you all very, very much. We appreciate it.
                                       Thursday, February 10, 2000.

               AMERICAN PUBLIC TRANSIT ASSOCIATION (APTA)


                                WITNESS

RICHARD L. RUDDELL, GENERAL MANAGER, TOLEDO AREA REGIONAL TRANSIT 
    AUTHORITY, AND VICE CHAIR, GOVERNMENT AFFAIRS, AMERICAN PUBLIC 
    TRANSIT ASSOCIATION
    Mr. Wolf. Next panel APTA, Colonial Williamsburg Foundation 
and Easter Seals. Your full statement will appear in the 
record. If you can summarize, we would appreciate it very, very 
much.
    Mr. Ruddell. I am for APTA.
    Mr. Wolf. Okay.
    Mr. Ruddell. Thank you, Mr. Chairman.
    On behalf of the 1,270 members of APTA, the American Public 
Transportation Association and the millions of passengers we 
carry daily, I want to thank you for inviting us to present 
today. I am Dick Ruddell, General Manager of the Toledo Area 
Regional Transit Authority in Toledo, Ohio, and Vice Chair of 
Government Affairs for APTA. We also have submitted a detailed 
written statement.
    Mr. Wolf. The full statement will appear in the record.
    Mr. Ruddell. At the beginning of this year, APTA changed 
the T in its name from transit to transportation to more fully 
reflect the growing use of public transportation in our country 
and its growing ubiquitous nature. Indeed, some form of public 
transportation is currently available or planned in virtually 
or nearly every congressional district in our country.
    I have to commend this subcommittee for last year's 
transportation appropriations bill which increased Federal 
transit funding by more than 7 percent. Those funds are being 
put to good use, Mr. Chairman, by transit agencies across the 
country. As we speak, transit projects under construction 
include 179 miles of busways, 191 miles of commuter rail lines, 
43 miles of heavy rail and 63 miles of light rail. In addition, 
about 7,000 buses and vans are currently being delivered to 
transit agencies around the country.
    Mr. Chairman, public transportation ridership continues to 
grow to levels we haven't seen in 40 years. We think that in 
1999 transit industry ridership may possibly hit the 9 billion 
passenger mark. Indeed, these figures confirm that public 
transportation plays a key role in reducing traffic congestion, 
providing millions with access to work and health care and 
contributing to our current economic boom.
    The Federal investment made by this subcommittee is reaping 
an excellent return. However, despite the funding increases 
transit has seen in recent years, to keep pace with the 
Nation's growth the U.S. DOT says that $14,000,000,000 should 
be invested each year just to maintain and improve the 
conditions and performance of our Nation's transit systems. 
Given this staggering level, it is no wonder that 40 States 
transferred 43 percent of the CMAC money in 1999 to public 
transit use. That is a strong indication that Federal transit 
funding even at record levels still fails to keep pace with the 
desire at the State and local level to invest in public 
transportation.
    Clearly, communities across the Nation are searching for 
effective solutions to traffic congestion problems. Here in 
Washington, the average driver wasted 76 hours in gridlock in 
1997. That is more than 3 days in traffic and time we could all 
spend at better uses. Moreover, while sitting in traffic, 6.6 
billion gallons of fuel was wasted. With America so dependent 
on foreign oil, combined with recent price increases, this just 
doesn't make sense.
    Mr. Chairman, this congestion cost Americans a total of 
$72,000,000,000. It is amazing in this era of e-commerce and 
great technological advances, traffic congestion so thoroughly 
jeopardizes our mobility, productivity and meaningful time we 
could be spending with our families.
    We are reviewing the administration's fiscal 2001 budget 
proposal. At this point, we are pleased that the President 
proposes to increase funding for transit by more than 9 
percent. This proposal keeps us on track to improve mobility 
for millions of Americans while easing traffic congestion and 
improving the quality of life in communities throughout the 
U.S.
    However, Mr. Chairman, in closing, we strongly urge the 
subcommittee to appropriate the full authorized level of 
$7,300,000,000 for Federal transit programs in fiscal 2001. 
Transportation experts agree that it actually takes 
$15,000,000,000 each year, almost twice the authorized level, 
to truly preserve and expand our public transportation 
infrastructure.
    With a fiscal 2001 nonSocial Security surplus projected to 
reach as high as $69,000,000,000, we can think of no better 
time to invest to the maximum levels possible in something as 
important to our economy as public transportation 
infrastructure. We believe that $7,300,000,000 today can save 
countless billions in the years ahead. Transportation is one of 
the best investments we can make for our future.
    Thank you for allowing me to testify today. I would be 
happy to answer any questions.
    [The prepared statement of Richard Ruddell follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                       Thursday, February 10, 2000.

                    COLONIAL WILLIAMSBURG FOUNDATION


                                WITNESS

JOHN D. RAUP, ASSISTANT TO THE PRESIDENT FOR COMMUNITY AND GOVERNMENT 
    RELATIONS
    Mr. Wolf. Colonial Williamsburg Foundation.
    Mr. Raup. Mr. Chairman, I am John Raup from Colonial 
Williamsburg Foundation, one of your constituents in Virginia. 
I want to thank you and the other members of the committee for 
giving us the opportunity to appear here on behalf of the 
Colonial Williamsburg Foundation this afternoon.
    As many of you know, Colonial Williamsburg is America's 
largest outdoor living museum, with over 170 acres and over 800 
original and restored buildings. I hope that many of you have 
had an opportunity to visit us. Our goal and objective there is 
to educate and excite our visitors and our new generations 
about our country's democratic principles and ideals.
    Ever since John D. Rockefeller began the restoration of 
Colonial Williamsburg in 1926, we have tried to stay faithful 
to his goal of having the future learn from the past. We feel 
that we are the active stewards of American culture and 
principles, and we consider this a responsibility we owe to the 
American people as well as to the nations struggling to create 
democratic governments.
    In the next 5 years, Colonial Williamsburg will begin a 
second restoration which has become necessary because of the 
aging buildings and because of the 75th anniversary we have 
coming up and the 400th anniversary of Jamestown settlement 
which will be coming up in 2007.
    We have been working very closely with a number of 
organizations there, and we plan to expend in the neighborhood 
of $150,000,000 over the next 5 years in projects to upgrade 
and expand facilities there for 2007. Part of that expansion 
and upgrading will be of our visitors center. We have the 
enthusiastic support of the Jamestown/Yorktown Foundation, the 
National Park Service, the Association for the Preservation of 
Virginia Antiquities, Busch Enterprises, Hampton Roads 
Partnership, College of William and Mary, the local governments 
in the area and even the local hotel and motel association. The 
Commonwealth of Virginia has also pledged to provide financial 
support for the projects at our visitors center.
    Part of the project at the visitors center is going to 
involve the construction of an intermodal bus hub which will be 
the center for a new bus service between Jamestown, Yorktown 
and Colonial Williamsburg. It will use the Colonial Parkway, 
which is part of the National Park System's Colonial National 
Park. As many of you know, the Parkway takes some time in 
approving things but over the last year and a half has 
considered our proposal to use the Parkway for this bus system 
and has recently approved the use of the Parkway for that 
purpose.
    There currently are only two, two-lane highways that go to 
Jamestown. So a bus system will be essential to ease traffic 
congestion and potential environmental impacts for an increased 
number of visitors to this important national historic triangle 
area. Our plans call for increasing our parking areas to 
provide at least 3,000 parking spaces and over 50 tour bus 
spaces at one time. The object will be to allow people to park 
their cars and not have to drive throughout this area, creating 
additional congestion. We are also engaged in plans and 
discussions to provide services to other museums and 
attractions throughout the lower peninsula in Virginia. The hub 
will also be used by the James City County, Colonial 
Williamsburg and College of William and Mary and the City of 
Williamsburg to create a new interconnected bus system for the 
greater Williamsburg area.
    Colonial Williamsburg is engaged in a very comprehensive 
fund-raising campaign to raise a significant amount of the 
money to cover this restoration and expansion work for 2007. 
But we are also seeking some public funding, both from the 
State and the Federal Government, as part of a public-private 
partnership. Our hope is that the Federal Government can 
provide us with some funds that would help us to replace a 
number of our diesel buses which have long outlived their 
normal life and to also add additional natural gas buses to our 
fleet to provide the services that we would like to provide.
    Natural gas buses are a little more expensive to start with 
but much more efficient and certainly much more environmentally 
safe than the diesel buses that we have used. The cost for each 
of those buses is approximately $230,000.
    In order to assist Colonial Williamsburg and the whole 
Williamsburg area in providing this additional service, we are 
asking for $3,000,000. The funding would help us to purchase 
three additional buses over the next year and help to cover 
some of the costs for the intermodal bus hub that will be built 
to provide the services for 2007. We would appreciate any 
assistance that we can get.
    Again, I thank you for the opportunity to appear here; and 
we hope that you will, in the not-too-distant future, have an 
opportunity to visit us at Colonial Williamsburg.
    [The prepared statement of John Raup follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                       Thursday, February 10, 2000.

EASTER SEALS (PROJECT ACTION-ACCESSIBLE COMMUNITY TRANSPORTATION IN OUR 
                                NATION)


                                WITNESS

COURTLAND TOWNES, III, DIRECTOR OF SERVICES, BOSTON CENTER FOR 
    INDEPENDENT LIVING, INC., BOSTON, MA
    Mr. Wolf. Easter Seals.
    Mr. Townes. Good afternoon, Mr. Chairman and members of the 
committee. My name is Courtland Townes. I am the co-executive 
director of the Boston Center for Independent Living. I am 
pleased to have the opportunity to testify on behalf of Easter 
Seals in support of Project ACTION.
    I am a volunteer member of Project ACTION's National 
Steering Committee. The steering committee has members from 
both the transit and the disability communities. We work 
together, actually, to support Project ACTION and to make sure 
that the project devotes its resources to the most critical 
transportation accessibility issues. I am here today to thank 
the House Transportation Appropriations Subcommittee for your 
ongoing support of Project ACTION.
    In my role at the Independent Living Center in Boston, I 
see how important everyday access to transportation is in the 
life of people with disabilities on the local level. Most of my 
staff use public transportation and some paratransit to get to 
work.
    On the national level, I chair the Civil Rights 
Subcommittee of the National Council on Independent Living. I 
can assure you that transportation accessibility remains a top 
priority for folks in the disability rights movement.
    Mr. Chairman, you recognized the importance of 
transportation for people with disabilities in a speech to your 
House colleagues where you stated, public transportation 
represents a vital link for many people, including millions of 
Americans with disabilities. Without public transportation, 
many people will be virtually stranded, unable to venture 
beyond the confines of their neighborhoods.
    We know that you recognize that without access to 
transportation people with disabilities cannot participate in 
society in the way the Congress envisioned when you passed the 
historic Americans with Disabilities Act in 1990.
    We have made progress in the last 10 years, but there are 
still transit accessibility issues to resolve. We have learned 
that transit operators need ongoing assistance on accessibility 
issues and people with disabilities need guidance to understand 
their rights and responsibilities under the ADA. This is where 
Project ACTION has played and can continue to play a vital 
role.
    In recent years, you have heard testimony from both transit 
and disability leaders that Project ACTION is a valuable 
resource to both communities. With the support of this 
subcommittee, Project ACTION has become the principal resource 
for tools and training to make the transportation provisions of 
the ADA work.
    Since we last appeared before this subcommittee, Project 
ACTION has hosted national technical assistance conferences in 
Dallas and in Portland, Oregon. These conferences provided 
transit operators with every available resource to implement 
cost-effective ADA compliance strategies.
    Last year, we told you that we would reach out to the over 
the road bus companies, and we have. In conjunction with the 
American Bus Association and a core group of operators we 
developed an educational packet specifically tailored to the 
unique needs of motorcoach operators.
    Opening up cross country and tour and charter travel to 
people with disabilities has and will continue to be a primary 
focus for Project ACTION. We are also helping Amtrak meet the 
needs of disabled rail passengers and have created web-based 
software to assist rail systems in evaluating the accessibility 
of their facilities. We have also developed a best practices 
guide to providing accessible water transportation on passenger 
ferries.
    Demand for Project ACTION materials continues to grow at a 
rapid pace. In the first quarter of fiscal year 2000 alone, 
Project ACTION has handled orders for over 2,000 documents. We 
have had over 3,000 calls that we have responded to for 
assistance, produced and distributed the Project ACTION update 
to over 14,000 individuals and transit agencies, and we have 
thus far received 85,000 visits to the Project ACTION website. 
The website now has a database with more than 1,400 accessible 
transportation providers in order to help disabled passengers 
plan successful trips.
    On behalf of Easter Seals, I respectfully request this 
subcommittee provide $3,000,000 to fund Project ACTION in 
fiscal year 2001. This funding level is consistent with fiscal 
2000 levels and will ensure that we continue to disseminate 
workable solutions into the most critical accessibility issues 
facing transit operators. Easter Seals is grateful for your 
support. We look forward to your continued collaboration.
    Just as an advocate, I really want to say it is such a joy 
to see the disability community and the transit community 
actually working together, because in the past it has kind of 
been an antagonistic relationship at times. To see joint 
training and resource training has been fantastic.
    I want to thank you and will answer any questions that you 
have.
    Mr. Wolf. Thank you very much.
    [The prepared statement of Courtland Townes follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Wolf. Any questions?
    Mr. Sabo.
    Mr. Sabo. A question, Mr. Ruddell. Given our limited 
dollars available and the need, should we adopt as a policy 
that the maximum Federal involvement in any grant for transit 
should be 50 percent?
    Mr. Ruddell. I would not necessarily recommend that. I 
think that the real key to funding a lot of these proposals--I 
was sitting here earlier and hearing people from Chicago asking 
for more money and Denver asking for more money. The real key 
is to fund this program at its fully authorized level. We are 
sitting on a $69,000,000,000 budget surplus.
    Mr. Sabo. Just so you understand, my assumption is we fully 
fund the authorized level. And the wishes of people go 
substantially beyond that. The question is what people perceive 
as national needs and the dollars we have available, should we 
say that our maximum match is 50 percent?
    Mr. Ruddell. I believe the Federal match of 80 percent has 
worked very well for the public industry. It has worked very 
well for my public transit authority, and I think 80 percent 
funding of the Federal dollar is the proper amount.
    Mr. Sabo. So you advocate 80 percent.
    What about for those of us who tell people that they really 
should get a 50 percent local match and they pursue that? 
Others ignore it.
    Mr. Ruddell. For those communities that can come up with a 
50 percent match, that is great. Some communities have that and 
are able to do that. That is terrific.
    Mr. Sabo. And your community can't. I don't know what yours 
is.
    Mr. Ruddell. Toledo, Ohio.
    Mr. Sabo. I rarely find those who say they can or can't 
have as much relationship to ability.
    Mr. Chairman, I will leave it at that.
    Mr. Wolf. Thank you.
    On Mr. Sabo's point, I want to just follow up. With all the 
full funding agreements that have been signed, there will be no 
new starts until the year 2004 or maybe 2005. I think what Mr. 
Sabo is trying to say is, if you were to do that, you are 
leveraging the money to create more mass transit, to have more 
opportunities for people to ride. That was the point there.
    Anyway, thank you.
    Mr. Pastor. Mr. Chairman, I think that Mr. Sabo would 
support a waiver to this if a community has double-digit 
growth, that the 50 percent could be boosted a little higher.
    Mr. Sabo. Mr. Chairman, they probably also then have a 
significantly growing tax base.
    Mr. Wolf. I thank you very much.
                                       Thursday, February 10, 2000.

                LOVELACE RESPIRATORY RESEARCH INSTITUTE


                                WITNESS

JOE L. MAUDERLY, VICE PRESIDENT AND SENIOR SCIENTIST AND DIRECTOR, 
    NATIONAL ENVIRONMENTAL RESPIRATORY CENTER
    Mr. Wolf. The next panel, Lovelace Respiratory Research 
Institute, Production Technology, American Passenger Rail 
Coalition, National Association of Railroad Passengers. We 
would ask that you submit your statements and summarize. We are 
falling behind. People have airplanes to catch. If you could do 
that, we would appreciate it.
    Lovelace Respiratory Research Institute.
    Mr. Mauderly. Mr. Chairman, I am testifying on behalf of 
the National Environmental Respiratory Center, which is a 
research program focused on the health effects of complex 
mixtures of air pollutants and managed by the independent, 
nonprofit Lovelace Respiratory Research Institute. Congress 
established this center in the fiscal year 1998 EPA 
appropriation, and it has continued support from that agency, 
with the understanding that the remainder of the necessary 
support would be developed through other Federal, State and 
industry stakeholders. I am here to describe the relevance of 
the program to the environmental mandate and strategic needs of 
the Department of Transportation and to seek support for the 
center in the Department's fiscal year 2001 appropriation.
    This center was created for the purpose of attacking a void 
in our understanding of the respiratory health risks from 
complex mixtures of environmental air contaminants. Because of 
our current approach to regulating and therefore debating and 
therefore studying one pollutant, pollutant class or source at 
a time, we have a very poor ability to judge accurately the 
contributions of different pollutants and different sources to 
the health effects of the mixture that we all breathe. Nobody 
ever breathed one pollutant or pollutant from one source at a 
time. At some level, all researchers and industry and agencies 
understand this, but our behavior continues to deny it.
    Our lack of confidence, as we speak, in assigning health 
impacts to individual pollutants and sources is being felt by 
the Department of Transportation decisionmakers as they 
struggle to meet their mandate to take air quality into 
consideration in their strategic planning for on-road, rail and 
aircraft traffic systems, as well as alternate fuel and 
propulsion technologies. The Department itself has stated that 
strategic planning, quote, cannot be considered intelligent, 
close quote, unless it properly recognizes the effects on 
environment and health. In our discussions, Department managers 
have agreed that the results that we will produce would be 
useful to them.
    As the air becomes cleaner, it is a curious fact that it is 
becoming less plausible to attribute any health effect to a 
single pollutant or a single source. No research program in the 
country has yet directly focused on this problem and that is 
understandable because the need doesn't fit the typical 
research mold. We need a complex program, a strategy that 
doesn't try to attempt to test every mixture that there is. We 
need a program that is sustained with funding for a number of 
years and is developed by consensus of the various 
stakeholders, Federal and nonFederal alike. This work will 
require several years, and the center is the Nation's first 
attempt to address this problem head-on.
    The center's strategy was developed with the guidance of a 
top-notch independent advisory board. Representatives of 
academia, agencies and industry were involved together in 
developing the design of the studies, and the goal is to 
develop and analyze a detailed database of pollution 
composition versus health of the type that epidemiologists have 
long longed for but can't really be produced outside of the 
laboratory. The first step in this strategy is to conduct a set 
of identical health studies on a series of different 
atmospheres. These atmospheres will include six different types 
of engine emissions and road dust which are of central interest 
to the Department of Transportation.
    Now, we have already done the legwork that creates the 
opportunity for the Department to get the information that it 
needs by sharing the cost with other stakeholders. We have 
support but not enough to get the job done. We have support 
that continues by congressional mandate from EPA. TheDepartment 
of Energy is now funding the center. We have developed over a half a 
million dollars in support, annual support from industry and State 
sources, and that is growing, but we are short of the amount that it 
takes to carry this strategy through.
    Mr. Chairman, we respectfully request that $2,000,000 be 
allocated for this program in the fiscal year 2001 budget of 
the Department of Transportation. Thank you.
    Mr. Olver [presiding]. Thank you very much.
    [The prepared statement of Joe Mauderly follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                       Thursday, February 10, 2000.

               PRODUCTION TECHNOLOGY, INC., ARLINGTON, VA


                                WITNESS

    JOHN W. McINNIS, PRESIDENT AND CEO, PRODUCTION TECHNOLOGY, INC.

    Mr. Olver. Mr. McInnis.
    Mr. McInnis. Thank you sir.
    Mr. Chairman, members of the subcommittee, my name is John 
McInnis. I am the President of Production Technology, 
Incorporated of Arlington, Virginia. I am here today to provide 
information on a proposal by Soldering Technology International 
of Huntsville, Alabama. We believe this proposal addresses a 
void in the competitiveness posture of the U.S. transportation 
industry in the area of electronic components and assembly 
technology.
    By way of background, vehicle electronics constitute about 
8 percent of the cost of U.S. vehicles. The electronics are 
critical to operations such as engine and transmission 
controllers, air bags, anti-lock brakes and the like. As the 
content of electronics increases, the reliability of those 
components becomes more critical. Unfortunately, U.S. industry 
lags foreign competition in just that area.
    A recent Hanson report of the nine major manufacturers of 
automobiles showed that the United States ranked seventh, 
eighth and ninth in terms of electronics reliability. While 
electronics are critical to the vehicle industry, 
unfortunately, the reverse isn't true. Transportation accounts 
for about 4 percent of the semiconductor market in this 
country, and that percentage is decreasing rapidly.
    Mr. McInnis. Accordingly, automotive and vehicle suppliers 
can't dictate trends in devices, packaging and performance. 
Those are driven by the computer and communications industry. 
Furthermore, their lifetimes and operating environments are 
much less stringent than those of automobile requirements. For 
example, a cell phone operates across about a hundred degree 
Celsius range; automotive electronics about twice that much.
    This leaves vehicle electronics manufacturers in the 
unpalatable position of making a choice of avoiding using new 
technology as it emerges or misapplying it and experiencing 
increased failures.
    There is an analogy between the transportation situation 
and that of the Defense Department during the 1980s, 
particularly in terms of electronics. Both had small market 
share and decreasing. Both were increasingly dependent on 
electronics for the performance of their system, and both had 
severe operating environments. In the case of the defense 
industry, there was a center created, the Center of Excellence 
for Electronics, and it was created to solve common industry 
problems cooperatively together with industry, with government 
coordination and start up funding in a public/private 
partnership. Types of issues that were addressed were things 
such as the elimination of chlorofluorocarbons and the 
application of leadless packaging which was emerging during 
that time. The benefits realized were a reduced cost to defense 
products which has been documented and a rapid industrywide 
simulation of new technologies became available.
    We believe this model would work for transportation. 
Accordingly, the proposal calls for the creation of a Center 
Transportation Electronics under the Department of 
Transportation based upon a consortium of industry and 
academia. The technical agenda would be industry driven and 
supported in part by industry cost sharing. We believe 
government costs--that the center would be self-sufficient in 
about 5 years. Benefits that we would anticipate are improved 
safety, reliability and cost to the U.S. consumers as well as 
improved competitive posture for the U.S. industry.
    In summary, we believe the U.S. Transportation is in an 
inferior position in terms of electronics via its global 
competition. Based on our defense experience we believe a 
center initially supported by the Department of Transportation 
directed at facilitating rapid utilization of emerging 
electronics technology would provide a catalyst to the 
industry. And finally, on initial analysis just the costof 
defects in cars shows that based on our experience about a 50 to 1 
return on government investment would be realized over those 5 years.
    By way of note, we have had several discussions with the 
Department of Transportation. We are currently doing a detailed 
business case at their request. Thank you very much, sir.
    [The prepared statement of John McInnis follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                       Thursday, February 10, 2000.

                AMERICAN PASSENGER RAIL COALITION (APRC)


                                WITNESS

HARRIET PARCELLS, EXECUTIVE DIRECTOR, APRC
    Mr. Wolf. American Passenger Rail.
    Ms. Parcells. Chairman Wolf and members of the Subcommittee 
on Transportation Appropriations, my name is Harriet Parcells, 
and I am the Executive Director of the American Passenger Rail 
Coalition. Thank you for the opportunity to present testimony 
today on the importance of the Nation's intercity passenger 
railroad, Amtrak, and the funding it needs to continue its 
success in building ridership and revenues and to partner with 
States on key rail investments.
    APRC is an association of the Nation's railroad equipment 
suppliers and rail-related businesses that are working for a 
financially strong, efficient, modern and safe intercity 
passenger rail system. Member companies have manufacturing 
plants and businesses in States across the country that employ 
thousands of U.S. workers and contribute to the economic health 
of states and communities.
    Momentum is building in States around the country for 
improved intercity passenger rail service. States and 
communities are not only speaking out about the need for 
improved Amtrak service, but they are investing substantial 
amounts of their own money to bring this about. An indication 
of this momentum was the announcement in October by the States 
of Wisconsin, Illinois and Michigan that they will in 
partnership with Amtrak purchase new rail equipment capable of 
travelling at 110 miles an hour to operate on three Midwest 
rail corridors.
    Federal leadership through strong funding of Amtrak and a 
partnership with the States is essential to ensuring the 
success of the investment States are making to improve rail 
service.
    APRC thanks the subcommittee for the strong support and 
leadership it has shown for Amtrak and for funding research and 
development to advance high-speed rail and to enhance rail 
safety.
    In fiscal year 2001 APRC asked the subcommittee to 
appropriate 989 million for Amtrak, the fully authorized level 
that Congress approved in the Amtrak reauthorization 
legislation. This level will provide Amtrak with 521 million to 
stay on track to achieving operational self-sufficiency by FY 
2003 and 468 million for Amtrak to partner with the States in 
making investments in designated high speed rail corridors.
    We support the President's budget, which included the 989 
million for Amtrak and high speed rail. More than half of the 
Nation's governors are on record supporting this level of 
funding for Amtrak, as are State legislators, mayors and 
community leaders, labor and others.
    Amtrak's revenue and ridership are up, and the partnerships 
it is entering into are yielding positive results. A few 
examples. In FY 1999 Amtrak's total revenue of 1.84 billion, 
the highest in the corporation's history. Amtrak exceeded its 
bottom line target set in its business plan by 8 million. 
Amtrak ridership was 21.5 million, an increase over prior 
years.
    In December Moody's Investment Services, after reviewing 
Amtrak's finances and strategic business plan, raised Amtrak's 
credit rating.
    APRC wishes to express its concern and disagreement with 
statements made by the Amtrak Reform Council in its first 
report to Congress issued on January 24th regarding the issuing 
of Amtrak's need for further Federal operating assistance after 
the start of FY 2003. The ARC is directed under section 204 of 
the Amtrak Reform and Accountability Act to make a finding of 
whether, quote, Amtrak will require operating grants after the 
fifth anniversary of the date of enactment of the Act, end of 
quote.
    Each year since 1994 Amtrak has presented Congress with a 
time line of its glide path to becoming free of Federal 
operating assistance. The glide path does not include nor to 
our knowledge has it ever included progressive overhauls or 
depreciation, a non-cash expense of Federal operating costs. 
Amtrak is on track to becoming free of Federal operating 
assistance as understood historically by both Congress and 
Amtrak.
    The ARC appears to be trying to change the historical 
understanding between Amtrak and the Congress on this issue. In 
making a determination of whether Amtrak requires further 
Federal operating assistance, Congress should be guided by the 
same process it followed in entering operating assistance for 
transit systems serving major metropolitan areas.
    I would just like to note that on January 21st Amtrak 
celebrated a landmark event, the inauguration of all electric 
rail service between Boston and New York city. The new Acela 
regional service will cut New York to Boston travel time by as 
much as 90 minutes. Later this year Amtrak and the Nation will 
celebrate the launch of express high speed rail service in the 
corridor. We are convinced that the success of this service 
will further propel the desire by further regions of the 
country for improved passenger rail service.
    In our testimony we cited the examples of the substantial 
investment States are making to improve intercity passenger 
rail service.
    Finally, APRC asked the subcommittee to provide strong 
funding for the Federal Railroad Administration's next 
generation high speed rail program to continue the important 
contributions the program is making, and we also ask the 
subcommittee to appropriate the maximum funding possible for 
highway rail or grade class crossing programs to enhance safety 
at these locations.
    Thank you, Mr. Chairman, members of the subcommittee.
    [The prepared statement of Harriet Parcells follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                       Thursday, February 10, 2000.

              NATIONAL ASSOCIATION OF RAILROAD PASSENGERS


                                WITNESS

SCOTT LEONARD, ASSISTANT DIRECTOR
    Mr. Wolf. National Association of Railroad Passengers.
    Mr. Leonard. Thank you, Mr. Chairman, members of the 
subcommittee. I am Scott Leonard with the National Association 
of Railroad Passengers. I appreciate this opportunity to come 
and make a statement today. Our nonpartisan association has 
worked since 1967 towards development of a modern passenger 
rail network in the U.S. We have 15,000 individual members who 
live all across the country. I would like to summarize the main 
points in my written statement and update the more appropriate.
    We strongly support the total level of funding for 
passenger rail proposed by the administration for fiscal 2001. 
Ms. Parcells already discussed the $521 million item for 
Amtrak. So I won't go over that again, but we do support that. 
It would be for capital items with the flexibility to allow 
Amtrak to use some of it for preventive maintenance in the way 
that transit agencies do, and we are thankful that this 
committee and Congress have previously provided this 
flexibility because it can save Amtrak capital money in the 
long run, enhance reliability and help to ease operating costs.
    However, this is still a 9 percent reduction from the 
current fiscal year. We have some concerns about that. One is 
that this amount all by itself would not be sufficient for 
passenger rail service to grow enough to become a more relevant 
presence in the transportation market. However, the second part 
of the administration's budget request would address that. That 
would be a new expanded intercity rail passenger service fund. 
It would allow the DOT to make $468 million in capital grants 
to Amtrak or to individual States or to groups of States for 
passenger rail projects that make a positive financial 
contribution to Amtrak and have a positive benefit to cost 
ratio.
    This proposal requires a 50 percent match from States, 
which is much more than the 20 percent commitment States are 
expected to make to highway and some other transportation 
programs. The administration would fund this program from a 
fraction of the $3 billion in gas tax revenues that are above 
levels that were projected by TEA-21 two years ago. Three 
quarters of this excess would still go to the highway programs 
that already got a great boost from TEA-21 and that would still 
get a 6 percent increase under the administration's budget.
    We believe it is appropriate to spend gas tax revenues in 
ways that expand transportation capacity overall regardless of 
mode. There are places where passenger rail improvements can 
provide transportation capacity as well as highways or 
sometimes better. States should have this option to invest in 
rail as part of their overall transportation strategies.
    We also support funding high speed rail programs at 
theauthorized level of $35 million to allow the Federal Railroad 
Administration to continue working to foster future corridor 
development across the U.S., and Ms. Parcells pointed out that use of 
Amtrak's intercity services has increased steadily since 1996. We 
believe that will increase even more as a result of Amtrak's attaining 
a full level of Acela service in the Northeast Corridor. Congress has 
made significant infrastructure improvements on the corridor in the 
1990s, but the increased service levels made possible by these 
investments are only just beginning now.
    This investment is arguably the single greatest passenger 
rail-related infrastructure investment by any agency in the 
U.S. since the Great Depression. It will enhance the 
attractiveness of passenger trains in the Northeast and make 
them a much better alternative to crowded highways and 
airports. There are other tremendous opportunities in the next 
several years to make passenger rail a better travel option for 
more people in the U.S. The commitment that this committee has 
shown the Northeast Corridor will begin to show results soon, 
and we hope that a similar commitment will be made to other 
parts of the country.
    I thank you once again and will try to answer any questions 
you may have.
    [The prepared statement of Scott Leonard follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                       Thursday, February 10, 2000.

                     LUMMI INDIAN BUSINESS COUNCIL


                                WITNESS

ANDY KAMPKOFF, PUBLIC WORKS DIRECTOR
    Mr. Wolf. Thank you very much. Thank you. Next Lummi Indian 
Business Council and Squaxin Island Tribe. Your full statements 
will appear in the record. If you could summarize, we would 
appreciate it.
    Mr. Kampkoff. My name is Andy Kampkoff. I am the Director 
of Public Works for the Lummi Nation. Mr. Chairman and 
committee members, thank you for allowing us to speak before 
you today.
    The Lummi Indian Nation is located on the West Coast, 
Washington State. We have a tribal population of 5,200. We have 
a reservation the size of 12,500 acres. We have 29 miles of 
coastline, 12,000 acres of coastal tide land, and on our 
reservation we have one and a half miles of road. We have a 
need for 40 miles of Indian reservation roads.
    I am here as a representative of the Lummi Tribe to support 
the request for an increase of $117 million for fiscal year 
2001 for the Indian Reservation Roads Program. The Indian 
reservation roads need maintenance. Today we are funded totally 
throughout the country $25.5 million per year. This is less 
than $500 per mile of Indian road, and the Bureau of Indian 
Affairs estimates that $100 million a year is needed and a cost 
to properly maintain these roads is 400 to $5,000 per mile.
    The Lummi Nation also supports the following statement of 
the Red Lake Band of Chippewa Indians. The tribes are grateful 
for the funding of TEA-21, which increased our Indian 
reservation road dollars from $191 million a year to 275. At 
the same time of the TEA-21 law, a new cut was imposed on our 
funding that we had never been subjected to. Because the TEA-21 
for the first time extended the obligation of limitations to 
the Indian roads allocation, we lost about $25 million that we 
were promised for fiscal year 1998 and about 32 million of the 
275 million we were promised for fiscal year 1999. We stand to 
lose even more in fiscal Year 2000.
    If Indian Country were to receive its full pro rata share 
of the billions included in TEA-21, Indian reservations would 
receive about $4.7 billion instead of $1.6 billion over the 6-
year period of TEA-21. We are asking for your assistance in 
helping the Indian Reservation Roads Program and support the 
$117 million proposed for increase to Indian reservation roads.
    [The prepared statement of Andy Kampkoff follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                       Thursday, February 10, 2000.

                          SQUAXIN ISLAND TRIBE


                                WITNESS

DAVID WHITENER, SR.
    Mr. Whitener. I am Dave Whitener, Squaxin Island Tribe. We 
have a membership of 650 and a land mass of 1,500 acres. We are 
from southwest Washington State, as I said and you have heard 
this before, but it is truly an honor to speak to you today.
    Squaxin Island Tribe wishes to talk to you about the 
infrastructure improvements that are needed and the shortfall 
of somewhere in the neighborhood of $7.2 billion. I try not to 
read this too carefully. My wife tells me when I read articles, 
even if they are really good from Newsweek, she goes to sleep, 
and it is warm in here.
    And as a member of the negotiated rulemaking committee for 
IRR, I can tell you definitely all the tribes across the 
country are saying that the funding for Indian reservation 
roads is inadequate. BIA funds our maintenance, as Mr. Kampkoff 
has said, out of the BIA apportionment, and it provides us with 
about 10 percent of what the States receive, and so tribal 
roads are in dire need and they are subject to wear and tear, 
actually more wear and tear because about two-thirds of the 
roads are dirt roads.
    Taking some words from a friend of mine, Billy Frank, he 
would say we ain't got no roads, and we ain't got no money to 
fix them either.
    So, just going on from there, the original tribal routes 
used for thousands of years for intertravel commerce has become 
the principal highways and byways of our Nation. Indian 
reservation roads now include 52,000 miles. Some people say 
sixty. Public roads providing access to are located in Indian 
Country, and prior to 1982 transportation funding for all 
tribes was through the general fund, and the IRR program has 
now moved to Transportation, Department of Transportation, 
funding distributions from Highway Trust Fund.
    It was finally recognized that Indians pay gas tax as well, 
and so now through ISTEA and TEA-21 the IRR program has 
experienced a sizeable increase. However, it is about half of 
what the increase the States have experienced, and although 
Squaxin Island Tribe had a sizeable allocation in the last 25 
years, we have been able to do a chip-sealing project that 
amounts to about 12,400 and also been able to maintain or to 
actually have road constructed, about a tenth of a mile long, 
on the reservation. We also have very few miles of road.
    And being located in a suburban area, this is a little 
different subject, we are in need of transit service, and 
unfortunately, there are no transit dollars available 
specifically to tribes to operate transit systems. Specific.
    Recommendations for all tribes and for the committee is to 
use a portion of the 2\1/2\ to $3 billion additional gas tax 
collection to increase the IRR program by $117 million. Support 
the elimination of the obligation limitation that is now on us 
that is different from what it used to be in ISTEA. That is a 
short term suggestion.
    For long term, to address the $7.2 billion unmet need 
shortfall, we would hope that you could work to achieve parity 
in funding between the IRR program and State highway programs 
and to boost Interior appropriations for road maintenance to 
address the $75 million annual shortfall that Mr. Kampkoff 
talked about that is now currently funded at 25.5 million and 
develop a mechanism to provide minimum apportionment and 
minimum guarantee for Highway Trust Fund distribution to the 
IRR program similar to the program provided to States that 
allows for establishment and continuation of ongoing tribal 
transportation programs.
    For States, the minimum apportionment is about a half a 
percent for all new highway trust fund distributions, and the 
tribe recommends 1-20th of 1 percent out of the budget of the 
Highway Trust Funds for Indian Reservation Roads Program. Thank 
you very much.
    [The prepared statement of David Whitener follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Wolf. Thank you very much.
    Mr. Olver. Would either of you expect that you would get 
moneys out of the $117 million if that were in fact 
appropriated? Are you certain? Is there some formula by which 
it goes to different tribes that you would actually see for 
certain any money out of that?
    Mr. Kampkoff. We believe so. The distribution formula, I 
also sit on the TEA-21 negotiated rulemaking committee so our 
Indian distribution formula is being reworked as we speak.
    Mr. Olver. I will seek some more information on this, 
rather than take the time here because I could really begin to 
dig.
    Mr. Kampkoff. I will get you some.
    Mr. Wolf. Thank you both very much.
                              ----------                              

                                       Thursday, February 10, 2000.

                  ALLIANCE OF AUTOMOBILE MANUFACTURERS


                                WITNESS

LOUIS W. CAMP, CHAIRMAN, SAFETY POLICY COMMITTEE (ALLIANCE) AND 
    DIRECTOR OF AUTOMOTIVE SAFETY, FORD MOTOR COMPANY
     Mr. Wolf. Next panel, National Safety Council, 
Communications for Coordinated Assistance and Response to 
Emergencies, Air Bag and Seat Belt Safety Campaign, Alliance of 
Automobile Manufacturers, Insurance Institute for Highway 
Safety.
    If you all could summarize your statements, and we are 
running a little bit behind, we would appreciate it. You want 
to identify yourself because we called five people and only 
three came, so.
    Mr. Camp. I am Lou Camp from the Alliance.
    Mr. Aylward. I am David Aylward from the ComCARE Alliance.
    Mr. Wolf. Who wants to go first?
    Mr. Camp. I will go ahead and start. Good afternoon, 
Chairman Wolf and members of the subcommittee. I am Lou Camp, 
Chairman of the Safety Policy Committee of the Alliance of 
Automobile Manufacturers and Director of the Automobile Safety 
Office of Ford Motor Company. I am pleased to have the 
opportunity to appear before you today to testify on behalf of 
the Alliance.
    Mr. Chairman, I would like to commend you for your 
leadership in improving traffic safety. Your hearing in 
December of 1996 helped the Nation focus attention on air bag 
safety issues, several of which necessary to the industry and 
others continue to address. One of the reasons we are here 
today is to raise an important concern in the current 
rulemaking on advanced air bags to ensure that we do not have 
another crisis situation similar to the one that led to the 
hearings in 1996.
    This rulemaking affects occupant protection in all vehicles 
and represents arguably the most complex set of new regulations 
since the original safety acts in the 1960s. It is crucial in 
terms of defining the future of frontal protection that will be 
afforded to all occupants, but especially to children, small 
statured adults, the elderly, both belted and unbelted.
    We hope the committee will express its views on issues to 
the Department of Transportation. We also believe this 
rulemaking provides an example of the need for NHTSA to 
increase its collection and analysis of field data on a wide 
variety of issues. The Alliance supports additional funding for 
this purpose because the foundation and the future regulatory 
initiatives must be based on sound science. This can be 
accomplished through more reliance on analysis of real world 
crashes as compared to laboratory tests which cannot reflect 
the complexities of the real world.
    The Alliance supports the comprehensive package of new 
requirements proposed by NHTSA, including the addition of four 
new test dummies, new injury criteria for these dummies, new 
suppression and low risk deployment tests, and a new 25 mile an 
hour offset deformable barrier test for belted females. We also 
support a 35 mile an hour belted rigid barrier test and have 
made many suggestions on how to make the new tests more 
objective and repeatable.
    Last but not least, the Alliance is recommending the agency 
adopt a new 25 mile an hour unbelted rigid barrier test for 
females and males. This, Mr. Chairman, leads to the main point 
of my testimony, why we do not recommend a return to the 30 
mile an hour unbelted test. First, a little background.
    Prior to and during the '97 rulemaking permitting depowered 
air bags, Alliance members continued to develop and design the 
next generation of advance restraint systems. As a result, Ford 
and several other Alliance member companies already offer 
vehicles that are equipped with state-of-the-art advanced 
restraint technologies, such as multistage inflators, occupant 
position sensors, threshold shifting, seatbelt pretensioner and 
lower limiters and enhanced crash severity sensors that fully 
meet the intent of TEA-21 to minimize air bag risks and improve 
restraint effectiveness.
    In addition, they can provide outstanding high speed 
protection as evidenced by the Taurus' recent five-star 
performance on NHTSA's NCAP test. Yet NHTSA and Ford test data 
indicate that the Taurus will not reliably meet all of the 
criteria in a 30 mile an hour unbelted barrier test. Why is 
that you might ask? We could have and would have frankly if 
there were a customer benefit to do so. It was, however, 
because even with the use of a host of advanced restraint 
technologies, our scientists and engineers concluded that 
compliance with a 30 mile an hour test would mandate higher 
power air bags which would increase the risk to children and 
others. The Alliance came to the same conclusion on the basis 
of in-depth technical studies using field data which 
demonstrate the additional energy involved in a 30 mile an hour 
crash would endanger our customers. The other members of this 
panel will go into further detail on those concerns.
    In summary, the Alliance recommends a 25 mile an hour 
unbelted barrier test to provide the needed design space to 
balance the requirements of both high speed and low speed test 
requirements, and we hope the committee would advise NHTSA of 
that. We would like to reemphasize the Alliance and NHTSA agree 
on most aspects of the proposed regulation and its benefits, 
but we believe there is considerable reason to doubt the 
benefit of returning to a 30 mile an hour unbelted test, and we 
should do our best to minimize the possibility of unintended 
consequences of this otherwise landmark legislation.
    Thank you. This concludes my testimony. I will be glad to 
answer any questions.
    Mr. Wolf. Thank you very much.
    [The prepared statement of Louis Camp follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                       Thursday, February 10, 2000.

                        NATIONAL SAFETY COUNCIL


                                WITNESS

CHARLES A. HURLEY, EXECUTIVE DIRECTOR, PUBLIC AFFAIRS
    Mr. Wolf. We are going to have a vote at 3:30. We want to 
finish this panel and start with the next panel, and there is 
going to be another one. Chuck, if you want to begin.
    Mr. Hurley. The National Safety Council is pleased to state 
its views on the issues surrounding air bags and occupant 
protection. We have actively supported air bags since 1977 and 
are proud to say we were the first major organization to 
support air bags and seat belts with equal enthusiasm. The 
overall performance of air bags is obviously very strong. More 
than 5,000 adult lives saved. There have been substantial 
reductions in serous head and chest injuries.
    On the other hand, as you well know, there has been a 
tragic history as it relates to kids, where of the 150 
fatalities attributed to air bags, 87 have been children.
    Former Surgeon General C. Everett Koop probably said it 
best, that there are not many places kids go that adults 
haven't made dangerous for them, and no more is that more true 
than in a car. We set the level of risks that kids face and 
that is exactly what we did when we mandated air bags in a low 
belt use environment. There is enough blame to go around as to 
how we got there. You are very familiar with the history. Lou 
mentioned your leadership in the 1996 hearing. In 1983 I think 
you were the prime sponsor of the child passenger safety 
incentive grants, the drinking age, a lot of things you have 
been involved in during that time. And yes, it is true that the 
vast majority of kids were completely unbelted in those 
crashes, but the penalty for being an unbelted child, an 
improperly belted child simply shouldn't be fatal injuries from 
federally mandated safety devices.
    Great progress has been made in this issue since the 1996 
hearing particularly, with further progress still necessary. As 
you will hear from Janet Dewey from the Council's Air Bag and 
Seat Belt Safety Campaign, some substantial reductions in the 
fatality rate have been achieved thanks in particular to 
leadership from this subcommittee, the Department of 
Transportation, NHTSA, the Safety Board, support from the 
automobile industry, leading insurance companies, air bag 
suppliers as well.
    The progress has come about through two changes, both 
behavior changes and technology changes, and the behavior 
changes, obviously more adults are now wearing seat belts. We 
have about the lowest belt use rate of any country in the 
developed world. We trail Australia by about 29 points, Canada 
by 25 points. We can do better. Those countries have not had 
the same experience with air bags that we have. There has been 
a tremendous increase in child restraint use due largely in 
part to education but a lot of it with aggressive enforcement 
and a lot of thanks to the International Association of Chiefs 
of Police. So it has really been both behavior and technology 
that has brought about the progress.
    Another key change was the rule in '97 which allowed for 
but did not require depowered bags, and one of the most 
important lessons in my view from the original air bag mandate 
is air bags may well have been more aggressive than they needed 
or should have been, that with the depowering there has been 
very good experience thus far, and that it reduces the risk but 
does not eliminate the risk. But even if the issue of unequal 
obligations occurs, if there is enough energy in the air bag to 
protect large adult males in high speed crashes who are often 
unbelted, over the alcohol limit, over the speed limit, if 
there is enough energy to protect them in crashes, that puts 
kids at risk, I am not sure the government has an equal 
responsibility to protect them, and that no one, least of all 
the Federal Government, has the right to put a child at risk, 
and so we are concerned that a return to the 30 mile an hour 
barrier test would go in the wrong direction, would tend to 
increase the risk to kids and other vulnerable populations, and 
I would be pleased to answer questions.
    [The prepared statement of Charles Hurley follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                       Thursday, February 10, 2000.

 COMMUNICATIONS FOR COORDINATED ASSISTANCE AND RESPONSE TO EMERGENCIES 
                           (ComCARE ALLIANCE)


                                WITNESS

DAVID AYLWARD, EXECUTIVE DIRECTOR, ComCARE ALLIANCE
    Mr. Wolf. Thank you very much. Communications for 
Coordinated Assistance and Response to Emergencies.
    Mr. Aylward. That is me, sir. I am David Aylward, and I 
thank you for the opportunity. I am not testifying on the air 
bag so I guess I will be in between the bookends on that.
    I am Executive Director of the ComCARE Alliance, a non-
profit coalition of more than 50 organizations from the EMS 
world, 911, transportation, wireless industry and others, who 
have come together to try to build and connect a chain of 
survival which we believe will reduce injuries, save lives and 
at the same time improve transportation efficiency.
    We support an innovative approach which uses wireless 
technologies and related technologies to address both highway 
safety and traffic congestion. The two go hand in hand. Indeed 
the explosion of the use of wireless devices over the last 8 
years tracks very closely with the reduction in the time 
between crashes and notification of EMS, the 30 percent 
reduction we have seen over the same period.
    Last year with the help of many Members of Congress, 
particularly Billy Tauzin and John Dingell, the Wireless 
Communications and Public Safety Act was passed, enacted into 
law, removing many of the barriers to the vision I am 
describing today. This is the next step. Chairman Tauzin wanted 
to be here today, but he is submitting a statement in support 
of our request.
    [The prepared statement of W.J. Billy Tauzin follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Aylward. We are respectfully asking you to appropriate 
funds for two specific activities. We believe the request is 
modest compared to the overall costs and benefits of the 
program because most of the spending will come from private 
sources. Our request is that you expand research on automatic 
crash notification or automatic collision notification. With 
ACN, which you may or may not have been exposed to, an 
emergency call is automatically generated on a crash, opening 
voice communications with emergency folks and sending crash 
data to assist response agencies in deciding what assistance 
needs to be dispatched. With crash data such as the speed of 
the crash, the point of impact, the model of the car and with 
enough field testing, we can not only report a crash as soon as 
it happens, but we can predict the severity and type of 
injuries that were sustained in the crash.
    The first slide shows a crash that occurred last January. 
The data shows the immediate notification of emergency response 
and the short time it took for EMS to get to the scene. I would 
add you compare that response to the average 55 minutes it 
takes to reach fatalities in rural areas and 35 minutes in 
urban areas, you can understand the value of the technology.
    The second slide shows that the ACN data correctly 
predicted that one of the two passengers in the car was 
severely injured. She spent two days in the hospital. So the 
right care was sent and given.
    U.S. DOT and the Veridian Corporation are conducting a very 
limited field testing of ACN in both New York and Minnesota 
with only a few hundred vehicles and consumers are being given 
the equipment in those tests. We believe the commercial 
marketplace led by the automobile industry and led by 
technology companies is about to start delivering tens of 
thousands of commercial ACN units to the marketplace. So we are 
not here asking for government funds to buy ACN units. We are 
asking for government funds to research this. We are asking for 
5 to 10 million in ACN grants to trauma centers around the 
country so that we can study this and so we can build up a 
database so we can really predict what the injuries are.
    The second request is grants to support an integrated 
communications and transportation system. Your time is rushed. 
I am not going to begin to try to describe what an integrated 
system is, except that we have seen development of pieces of 
this, but an integrated system is one in which 911 traffic, 
EMS, medical entities, all the people in public safety who need 
to know and all the people in transportation who need to know 
information can have it in real-time using modern 
communications to share information. 911 people don't know what 
the traffic situation is in real-time. The traffic people don't 
know where the 911 calls are in real-time, but they would love 
to know it and you could share this information. That is what a 
computer screen could look like in the traffic center, 911 
center, police center. You could know where the resources are, 
where the ambulances are, which way to send them because you 
would have traffic data in real-time, and because you 
integrated the technologies you could use the same technology 
to produce traffic information not just on your interstates but 
on all your roads in real-time and share it using the same 
kinds of technologies that locate wireless phones when they 
call 911.
    So we are here, how do you get this done? You have a 
unified system. You get the right groups together. The 
leadership is obviously, in our experience, from the 
transportation sector. We hope you will provide grants to bring 
all these groups together to deploy these kinds of systems 
which we believe will not only save lives but improve dealing 
with transportation congestion.
    I thank you for the opportunity to testify today.
    [The prepared statement of David Aylward follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                       Thursday, February 10, 2000.

                 AIR BAG AND SEAT BELT SAFETY CAMPAIGN


                                WITNESS

JANET DEWEY, EXECUTIVE DIRECTOR
    Mr. Wolf. Air Bag and Seat Belt Safety Campaign.
    Ms. Dewey. I am Janet Dewey with the Air Bag and Seat Belt 
Campaign of the National Safety Council, and in 1996 I advised 
you of our plans to help address the transportation crisis we 
were facing; that is, of air bag fatalities, particularly to 
children.
    I am pleased to advise you today that from 1996 to 1999 the 
rate of air bag fatalities to children has dropped by more than 
80 percent. The Air Bag and Seat Belt Safety Campaign was 
formed by auto manufacturers, leading insurance companies, 
suppliers of air bags and seat belts, and we have worked 
closely with Federal and State agencies to change the way 
America transports her children.
    Now, early on the Campaign realized that we had to have a 
concentrated three-point approach. One aspect wouldn't do it 
alone. The three parts are educate, enact and enforce. Public 
education works includes aggressive media outreach and 
distribution of more than 20 million fliers like I have here 
today. Awareness of the issue jumped from 56 to 90 percent in 4 
months in 1996, and it remains at over 80 percent nationally.
    Regarding enactment, 53 of the 69 children who died from 
air bag-related industries were completely unrestrained 
according to crash investigations, and further, in 1998, six 
out of 10 kids who died in crashes, kids under the age of 16, 
were completely unbuckled, no air bags, just kids unbuckled. 
Driver restraint use is the strongest predicter of child 
restraint use, according to researchers at the University of 
California and many others, and so States with strong, primary 
enforcement seat belt laws, enforceable just like other traffic 
laws, have higher seat belt use rates than weaker secondary law 
States. The Campaign has assisted more than six States to 
strengthen their safety belt law to primary enforcement, and 
today 52 percent of the U.S. population is now covered by 
primary enforcement laws versus 37 percent in 1996.
    And now enforcement. Zero tolerance for unbuckled children 
is the message of the Operation ABC Mobilization, which 
features more than 7,000 law enforcement agencies conducting 
highly visible, intense enforcement of existing laws, 
particularly child restraint laws. The U.S. Department of 
Transportation credited these mobilizations with dramatically 
increasing seat belt and child restraint use across the Nation, 
and we have worked closely with NHTSA, the NTSB, the 
International Association of Chiefs of Police and others, to 
conduct five of these mobilizations since 1997. We have two 
more planned in the Year 2000.
    Now, I want to quickly share with you some very encouraging 
changes in traffic safety since 1996. First, in 1998 seat belt 
use increased 18 percentage points but that translates to 19 
million more people buckled up. Those people stay buckled up 
for a year. On an annual basis that is 1,500 fewer crash 
fatalities. Child restraint use increased significantly from 
1996 to 1998 with a dramatic increase in toddler restraint use 
one to four, 27 percentage points increase for that age group, 
and not surprisingly, crash fatalities for that age group 
decreased by 12.3 percent. The national goal is 15 percent by 
the end of this year, and so we are almost at that national 
goal.
    Next, more children are buckled up in a backseat, and the 
story here is that Americans really are changing the way they 
transport their children, particularly a substantial number of 
children in the five to 12 age group move from the front seat 
to the backseat, and I think a lot of people didn't think that 
was going to happen, but it is happening, in particular, the 
five to 12 year old age group, and that age group is strongly 
represented in these fatalities.
    And then, finally, with triple the number of air bag 
equipped vehicles out there, the death rate to children from 
air bags has decreased by more than 80 percent.
    We are concerned about a set of variables that could 
dangerously converge and cause more air bag fatalities. Our 
research shows that since there is fewer fatalities there is 
fewer news coverage about these crash fatalities and that 
awareness is beginning to decrease about air bag risk to 
children. So we are also concerned that this is happening at 
the same time when consumers are purchasing their new or used 
vehicle for the first time, and so we must continue the intense 
education, particularly to low belt users. We must continue 
progress toward the goals, the national goals, 85 percent seat 
belt use by this year. The Operation ABC Mobilizations must 
continue, and we really need to find a source of paid media 
funding to be able to let low belt use drivers know that they 
must get their kids buckled up because all vehicles will have 
air bags new and used in the short term.
    And then also we have to in closing remember that there are 
40 million aggressive dual air bag equipped vehicles that were 
on our roadways in 1997, still on our roadways for another 10 
to 12 years, and so we must clearly keep working at this as 
long as children ride unrestrained and they ride in front of 
air bags.
    [The prepared statement of Janet Dewey follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                       Thursday, February 10, 2000.

                 INSURANCE INSTITUTE FOR HIGHWAY SAFETY


                                WITNESS

BRIAN O'NEILL, PRESIDENT
    Mr. Wolf. Insurance Institute.
    Mr. O'Neill. Mr. Chairman, my name is Brian O'Neill. I am 
President of the Insurance Institute for Highway Safety, and I 
would like to comment on the National Highway Traffic Safety 
Administration's rulemaking proposal, which is intended to 
reduce the risks from inflating air bags and to upgrade 
protection in high speed frontal crashes.
    As you have heard from the Alliance, the proposal has 
generated broad support except for one possible requirement, 
and that is the possibility of a mandatory return to a 30 mile 
per hour rigid barrier crash test to assess unbelted occupant 
protection in higher speed crashes.
    We believe that the support for 30 mile per hour tests with 
unbelted dummies in most cases follows from the mistaken belief 
that higher test speeds guarantee protection in real world 
crashes at higher speeds, but this is not true. It reflects an 
overly simplistic view of crash dynamics. Unfortunately, some 
NHTSA analyses lend credence to this mistaken view because 
these analyses conclude the 25 mile an hour tests with unbelted 
dummies could lead to inadequate air bag protection for some 
unbelted occupants.
    But we have looked at these analyses in great detail and 
they are fundamentally flawed. In the first analysis, NHTSA 
estimated the effectiveness of air bags in preventing deaths 
among unbelted occupants in frontal crashes for different crash 
severity ranges as measured by crash speeds differential. If we 
could have the first chart there. These effectiveness estimates 
then were used to estimate the potential number of unbelted 
occupants who would be saved in each crash severity range if 
all cars had air bags.
    NHTSA uses these estimates to estimate lives that would be 
saved with different air bags, but the fatal flaw in the NHTSA 
analysis is how the agency has interpreted these results. 
Noting the air bag performance or effectiveness is lower in 
high severity crashes, the agency concludes that this decreased 
effectiveness shown there, 1.54 for crashes above 31 miles per 
an hour, is due entirely to air bag performance, but in fact, 
if you look carefully at the data, the evidence is clear that 
this lower effectiveness has nothing to do with inadequate air 
bag performance. Instead, it is due to massive intrusion of the 
vehicle structure into occupant compartments, to occupants 
being ejected from the vehicles or from the air bags 
themselves. There are no cases on record of someone dying in a 
crash at any severity level because their air bags are 
inadequate.
    If we see the next chart, for example, here is a crash. The 
estimated severity of this crash was 47 miles an hour. It is a 
very severe crash. The unbelted occupant in this car was 
killed. The reason for the death was the massive intrusion and 
collapse of the occupant compartment, not because the air bag 
was inadequate.
    We also know that people in high severity crashes who are 
unbelted are also much more likely to be ejected in crashes, if 
we see the next chart, please. Again here is a high severity 
crash, a delta V of 36 miles per hour. The unbelted occupant of 
this vehicle was killed but this unbelted occupant was ejected. 
The death had nothing to do with the air bag performance.
    Yet NHTSA's analysis concludes that all deaths in these 
crashes, these severity crashes are because air bags are 
inadequate and should be designed to higher levels of 
performance. It is as though we were shipping china and every 
time the boxed packed with fragile china gets crushed the 
answer is let us put more packing inside the box instead of 
having a stronger box, or another analogy is if the box is 
dropped, the lid comes off and the china falls out and is 
broken, again, the answer is not more padding. The answer is a 
stronger lid.
    But NHTSA is assuming that all the problems in fatalities 
of unbelted occupants in high severity crashes is due to air 
bag performance. These conclusions are incorrect. We should not 
return to the 30 mile an hour barrier crash test. We will get 
more than adequate performance for unbelted occupants with a 25 
mile an hour barrier test, and we will not be putting other 
people, including children, at risk by having reintroduced more 
aggressive air bags into the fleet.
    [The prepared statement of Brian O'Neill follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Wolf. Thank you very much. Any questions?
    Ms. Kilpatrick. Thank you, Mr. Chairman, and to Mr. O'Neill 
and others for coming forward with the testimony that I was 
waiting to hear on the airbag barrier test speeds rulemaking 
from 25 to 30 miles an hour. We have now heard from the 
insurance industry as well as the Alliance and the National 
Safety Council, and you are all in agreement, which doesn't 
happen many times. It certainly deserves being noted that you 
are on the same page, and I am anxious to read the testimony 
and am glad that you are in agreement on this most important 
issue and thank you very much for your testimony.
    Mr. Wolf. Thank you very much. The next panel will be, with 
an agreement to limit their remarks to 3 minutes, Coalition for 
Vehicle Choice, the Sierra Club, Sierra Club Virginia Chapter, 
Shenandoah Preservation League, the American Recreation 
Coalition, Committee for a Constructive Tomorrow, Evangelical 
Environmental Network, Competitive Enterprise Institute and 
Small Business Survival Committee. If you could keep within the 
limit, we would appreciate it.
    First witness, Coalition for Vehicle Choice.
                              ----------                              

                                       Thursday, February 10, 2000.

                      COALITION FOR VEHICLE CHOICE


                                WITNESS

DIANE K. STEED, PRESIDENT
    Ms. Steed. I am Diane Steed, President of the Coalition for 
Vehicle Choice, and we appreciate this opportunity to express 
our strong support for continuing to protect consumers from 
higher Federal fuel economy requirements, known as CAFE 
standards.
    CVC represents more than 40,000 individuals and 
organizations, including agricultural, automotive, consumer, 
law enforcement, safety and recreation and other groups. Our 
members are concerned about how new laws and regulations will 
affect the safety and affordability of personal transportation.
    We believe that the CAFE program delivers little, if any, 
benefits to consumers but exacts a high cost in terms of 
dollars, lives and choice. CAFE is a program that is out of 
step with the times and the marketplace.
    Since enactment CAFE standards have proven to be very 
ineffective in meeting their original objectives. More 
importantly, they have had some significant unanticipated side 
effects. For example, they have increased deaths and injuries 
on our roadways beyond what would otherwise have occurred due 
to vehicle downsizing. They have reduced vehicle choices for 
many new vehicle purchasers and imposed high costs on 
consumers. Respected researchers and governments, academia and 
the private sector have demonstrated time and again that 
vehicle down sizing increases safety risks for motorists.
    For example, NHTSA has found that vehicle downsizing since 
the mid-'70s has resulted in more than 2000 additional deaths 
and 20,000 serious injuries each year. The Harvard School of 
Public Health, the Brookings Institution and others have 
reached similar conclusions.
    Last year a USA Today analysis found that higher CAFE is 
responsible for 46,000 deaths, killing more Americans than the 
Vietnam War. The Insurance Institute for Highway Safety has 
confirmed those findings. Further downsizing would only make 
matters worse.
    Supporters of higher CAFE inaccurately suggest that 
downsizing would improve safety, but statistics show the 
overwhelming majority of fatalities occur in the smallest light 
trucks, precisely those consumers would be forced to drive if 
CAFE standards are raised.
    With regard to consumer choice, millions of truck users 
have transport needs that require the special capabilities of 
light trucks, including farmers, ranchers, construction crews, 
boaters, delivery services, van pool operators, and the 
physically disabled to name a few. Those uses require vehicle 
size, power and hauling and towing capability that simply 
cannot be accommodated with passenger cars or smaller trucks.
    No doubt you will hear more about how higher CAFE would 
affect consumer choice from others on this panel. My point here 
is that these special needs simply cannot be ignored.
    Higher CAFE standards would also cost consumers more money 
because they would require the use of high cost materials and 
technologies and restrict the availability of popular features 
that add weight and reduce mileage. Our analysis shows that 
consumers would have to drive as much as 200,000 miles just to 
recoup the higher vehicle costs involved.
    In conclusion, we believe that there is clear evidence that 
the CAFE program is flawed and has serious adverse consequences 
for American consumers. We believe that the program deserves a 
thorough review similar to what was done earlier by the 
National Academy of Sciences, and until such scrutiny is 
completed, we believe that CAFE standards should not be raised.
    Thank you, Mr. Chairman.
    [The prepared statement of Diane Steed follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                       Thursday, February 10, 2000.

                              SIERRA CLUB


                                WITNESS

ANN R. MESNIKOFF, WASHINGTON REPRESENTATIVE, GLOBAL WARMING AND ENERGY 
    PROGRAM
    Mr. Wolf. Sierra Club, then followed by the Sierra Club, 
Virginia Chapter.
    Ms. Mesnikoff. On behalf of Sierra Club, thank you for the 
opportunity to testify today. Quickly I will hit upon the 
consequences of fuel economy freeze rider, safety and 
competitiveness.
    The rider barring DOT from exercising its authority to 
prepare, propose or promulgate CAFE standards that have been in 
place since 1996 allows the large disparity between car and 
light truck fuel economy to persist. The 1996 rider killed the 
light truck fuel economy rulemaking which would have closed the 
gap between cars and light trucks. Auto makers continue to take 
advantage of this loophole in the fuel economy program to 
produce gas guzzling, heavily polluting SUVs, minivans, and 
pickups.
    According to EPA's 1999 fuel economy trends report 
announcement, which I would like to submit for the record 
today, the explosion of gas guzzling light trucks in the 
marketplace has brought the fleet fuel economy of new vehicles 
sold in the U.S. to its lowest point since 1980. Car fuel 
economy has been flat for 14 years, light truck fuel economy 
for 19. The EPA estimates that light trucks sold in 1999 will 
consume over their lifetimes almost 60 percent of the fuel used 
by all new vehicles sold in 1999. Others will testify that we 
can't have safe and efficient vehicles. We can and must have 
both.
    CAFE does not dictate vehicle size, weight or safety. Auto 
makers do and they have chosen to put profits ahead of safety 
and pollution. Government tests show that in a crash into a 
fixed barrier wall occupants of a gas guzzling 1997 Ford 
Expedition will be more likely to die than occupants of an 
efficient 97 Saturn subcompact because the Saturn has better 
safety technology designed into the vehicle. Light trucks 
endanger their owners and occupants. SUVs are four more times 
likely to roll over in an accident. Rollovers account for 62 
percent of SUV deaths while 22 percent in cars. Yet auto makers 
continue to fight rollover protection standards. Occupants of 
SUVs are just as likely to die in an accident as those in a car 
once the vehicle is involved in an accident.
    Light trucks, particularly heavy SUVs and pickups are 
fundamentally incompatible with vehicles on the road. According 
to NHTSA, collisions between cars and light trucks account for 
more than half of all fatalities and crashes between light duty 
vehicles. Nearly 60 percent of all fatalities in light vehicle 
side impacts occur when the striking vehicle is a light truck. 
SUVs are nearly three times as likely to kill the driver of 
another vehicle than a car. Claims by some that CAFE standards 
result in deaths rely on biased industry funded sources or 
manipulations of data, ignoring authoritative independent 
analyses.
    Congress' GAO studied the same basic data and concluded 
that unprecented increase in the proportion of light cars on 
the roads since the 1970s has not increased total highway 
rates. In fact, the rates of traffic fatalities has decreased 
by 50 percent over the same period the CAFE doubled the 
standards. The CAFE law spurred technology. 85 percent of the 
efficiency improvements came from technology, not downsizing. 
Raising light truck standards would help restore balance and 
compatibility to the overall fleet of vehicles, reducing 
traffic fatalities and pollution.
    Research by the Center for Auto Safety and Union of 
Concerned Scientists on cars and light trucks has shown that we 
can improve fuel economy dramatically without changing the 
performance vehicle mix or without diminishing consumer choice. 
We can achieve these gains while also making back the money 
that the technology would cost at the gas pump in just a couple 
of years, and our competitiveness, I would like to say that in 
the 1970s before CAFE, Detroit lost about a third of the market 
share to foreign auto makers, with Honda and Toyota putting 55 
or 65 mile per gallon gasoline electric vehicles on the road. 
This year U.S. auto makers are poised again to lose their 
market share and American jobs by relying on this rider to 
continue to make vehicles using yesterday's technology.
    The rider that has persisted in the DOT funding bill since 
1996 sends a strong message that Congress is more interested in 
blocking information than making decisions based upon it. Let 
DOT do its work, and we will find out what can be done, we can 
find out what is technologically feasible, what is cost 
effective, what the other relationships are with safety 
standards and we can figure what the need of the Nation is to 
conserve energy. All Americans will benefit from DOT's work, 
and Sierra Club strongly urges that you end the back door 
attack on DOT's authority to raise and address CAFE standards 
and restore funding for CAFE work in the 2001 funding bill.
    [The prepared statement of Ann Mesnikoff follow:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                       Thursday, February 10, 2000.

                        SIERRA CLUB (VA CHAPTER)


                                WITNESS

BRUCE H. PARKER, VICE CHAIR AND ENERGY CHAIR
    Mr. Wolf. The Virginia Chapter of the Sierra Club. If I 
could ask you, please try to keep your remarks brief. We never 
want to cut anybody off or gavel anybody down, but there are 
going to be people that at the end of the day may not be heard 
or if we are going to have a whole series of votes they are 
going to have to wait around. Your full statement will appear 
in the record.
    Mr. Parker. Sure. This is an abbreviated portion of it 
anyway. Mr. Chairman, my name is Bruce Parker. I am the co-
owner of a computer consulting firm in Arlington, Virginia. I 
am also the Vice Chair and Energy Issues Chair of Virginia 
Chapter.
    The current CAFE standards have helped to make a 
significant impact on U.S. carbon dioxide emissions, and I 
would like to focus my testimony particularly on impact and why 
it is important to increase the standards. 20 percent of U.S. 
carbon dioxide emissions come from cars and light trucks, and 
transportation is the fastest growing source of U.S. greenhouse 
gas emissions. Unfortunately, accumulation of greenhouse gases 
in our atmosphere is beginning to alter our climate.
    Although there is some debate about how much of the change 
is due to natural causes and how much is due to increased 
greenhouse gases, there is no debate on the changes we are 
experiencing. Sea levels are rising, coral reefs are dying and 
insurance costs are soaring. There is no longer any doubt that 
our planet is warming. The only question is how much and how 
fast it will warm.
    If CO2 emissions were to affect only us in the United 
States, that would be one thing, but the atmosphere is a global 
common shared by the entire human race. Since the U.S. is by 
far the major user of the atmospheric commons we should take 
the most responsibility for ensuring it is managed for the long 
term benefit of the human race. One of the major challenges 
facing us is that many of these environmental challenges that 
are caused by warmer climate are barely perceptible over 
decades, let alone during the time between congressional 
elections.
    Because a significant amount of carbon dioxide is already 
in the atmosphere and being added daily, I believe there is a 
need to start reducing greenhouse gas emissions this decade. We 
can do this by giving our market driven economy the right 
incentives and increasing CAFE standards is probably the most 
effective way to begin.
    Studying the effects and increasing the standards will tell 
us what the impacts would be. As a company owner, if a 
potential major problem exists, I want to study the problem to 
determine my options. Ignoring the problem won't make it go 
away. I also want to have the longest possible lead time so I 
can prepare my staff and stockholders for future contingencies. 
I want to feel comfortable that we the people of the United 
States are making the most informed and best possible decision 
for our families and for our future.
    Thank you.
    [The prepared statement of Bruce Parker follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                       Thursday, February 10, 2000.

                     SHENANDOAH PRESERVATION LEAGUE


                                WITNESS

ROBYN REBOLLO, MEMBER
    Mr. Wolf. Thank you very much. Shenandoah Preservation 
League.
    Ms. Rebollo. Good afternoon, Mr. Chairman. My name is Robyn 
Rebollo, and it is a great pleasure and honor for me to be here 
in D.C. Testifying before your subcommittee and you, my U.S. 
Representative.
    Today I am here to express my views on the transportation 
appropriations bill, more specifically the portion of the bill 
which addresses fuel economy standards and the fact that a 
provision included in the bill since 1996 has blocked even 
studies of raising fuel economy standards for new cars and 
light trucks.
    As a member of the Shenandoah Preservation League and 
Friends of the North Fork River, I feel that it is important 
for me to address the consequences that this provision has on 
the people like me in Virginia and on our environment. I am a 
light truck owner. Currently I own a Dodge Ram 1500. I use my 
Dodge Ram on a small alpaca farm and for my horse trailer. I 
also car pool with my truck 2 days a week to northern Virginia. 
I know from my own experience how inefficient light trucks are 
today.
    The auto industry will continue to make vehicles, 
particularly light trucks, using antiquated technology. Because 
this rider has been on the bill, there are no incentives for 
auto manufacturers to implement more innovative technologies. 
For example, no U.S. auto maker is even close to manufacturing 
and selling a hybrid car, like Honda's Insight. Consequently, 
at the start of this new millennium, the U.S. auto makers, with 
the help of this rider, are stuck where they were in the late 
1980s when it comes to fuel economy.
    The U.S. EPA recently issued new standards cleaning up air 
pollution that comes from automobiles. Because I own a light 
truck I was particularly interested in the fact that starting 
in 2004, cars and light trucks will be included in the same 
program. No more loopholes or separate standards. Passenger 
vehicles will all be treated the same. It is time to make the 
same move when it comes to gasoline consumption and global 
warming. The consequences of global warming and the fact that 
our automobiles are spewing out more and more pollution instead 
of less scares me. Locally the global warming pollution is not 
good for the Shenandoah Valley, the Jefferson National Forest 
or any of Virginia's landscapes. Not only in our district, Mr. 
Chairman, but the global warming could be catastrophic across 
the State.
    For example, we could see a drastic change in the sea level 
of the Chesapeake Bay or flooding of the Virginia beach. With 
new technologies out there, there is no reason that fuel 
economy standards for cars should not be higher than the 
standards Congress set in 1975 and achieved in the late 1980s 
or that light truck fuel economy should be roughly as low as it 
was 19 years ago.
    Mr. Chairman, I urge you to consider the implications of 
this provision that blocks the Department of Transportation 
from doing its work. Very few Americans know that the agency 
with the expertise to make decisions on fuel economy standards 
is being blocked from doing its job.
    Thank you, Mr. Chairman.
    [The prepared statement of Robyn Rebollo follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Wolf. Thank you very much. The American Recreation 
Coalition.
                              ----------                              

                                       Thursday, February 10, 2000.

                     AMERICAN RECREATION COALITION


                                WITNESS

DERRICK A. CRANDALL, PRESIDENT
    Mr. Crandall. Mr. Chairman, distinguished members, I am 
delighted to be here. I am Derrick Crandall with the American 
Recreation Coalition, representing more than 100 national 
organizations actively involved in meeting America's recreation 
needs. Our members include organizations with several millions 
of boaters and anglers and a variety of other outdoor 
recreationists. I am here today to talk about the importance of 
mobility to outdoor recreation. Our roads and airports, our 
rail lines, our waterways are keys to accessing the places 
where Americans spend their leisure hours. We greatly 
appreciate the work of this body to make our travel safe and 
enjoyable. We will be talking to you about issues as diverse as 
scenic byways and trails and boating safety in other testimony. 
But today we want to talk about the fact that some two-thirds 
of Americans participate in outdoor recreation activities at 
least monthly, according to our new survey, Outdoor Recreation 
in America in 1999, the Family and the Environment.
    Americans who like to enjoy the great outdoors with their 
families and their friends depend upon motor vehicles and 
particularly light trucks to get them to their favorite lakes 
and beaches, their campgrounds and other favorite outdoor 
places. Today's light trucks, pickups, mini vans, sport utility 
vehicles are the only vehicles available to tow a camping 
trailer or a boat or to stow away the equipment thatmakes this 
quality fun outdoors possible.
    That wasn't always the case. Back in the 1970s when CAFE 
was first imposed, some 70 percent of all domestic passenger 
cars could tow a 2100-pound boat and trailer, which is about 
equivalent to a bass boat. By 1986 cars had been downsized and 
only 20 percent could tow that size of a boat. By the mid-1990s 
the percentage had slipped to 12 percent and in today's vehicle 
fleet of passenger cars, only 6 percent can tow that kind of a 
load. That is a big part of the reason why families as 
individual families have decided to switch to light trucks to 
meet their transportation needs.
    So naturally we in the recreation community are concerned 
that revisions to CAFE requirements for light trucks might rob 
us of the vehicles we need. Consider the value of light trucks 
just in terms of our national forest, which covers some 200 
million acres of this country and provides some of the world's 
best fishing and camping, mountain biking, hiking and more. To 
reach these special places, the Forest Service manages a 
network of roads totaling some 400,000 miles. But only 85,000 
miles, or 21 percent, are accessible by passenger cars. Light 
trucks unlock the rest of the national forests.
    Today there are 11 million trailerable boats and 5 million 
trailerable RVs in use across America. Millions more use light 
trucks and sport utility vehicles to tow horses, snowmobiles, 
ATVs and personal water craft. The chairman might want to know 
that our sport utility vehicle carries around the McLean 
Mustangs and the AAU Vogues in the course of meeting our youth 
activities. Our survey also documents the link between an 
active recreation life-style and the ownership of SUVs.
    Mr. Wolf. I think if we can shorten it. The light is on. 
This panel will have to stay. I may be gone for 45 minutes. 
Unless you all want to stay. I am coming back. I am right here. 
I am just trying to think of others.
    Mr. Crandall. Thank you. I will conclude my testimony.
    Mr. Wolf. If you could, I would appreciate it. Your full 
statement will be in the record.
    [The prepared statement of Derrick Crandall follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                       Thursday, February 10, 2000.

                 COMMITTEE FOR A CONSTRUCTIVE TOMORROW


                                WITNESS

DAVID ROTHBARD, PRESIDENT
    Mr. Wolf. The Committee for a Constructive Tomorrow.
    Mr. Rothbard. Thank you, Mr. Chairman, and members of the 
committee. My name is David Rothbard, President of the 
Committee for a Constructive Tomorrow. I am here today in the 
place of Father Robert Sirico, one of our academic advisers, 
who very much wanted to be with you but was held up in Michigan 
due to inclement weather, two canceled flights and getting 
stuck in Milwaukee. He wanted to be with you but I am here in 
his place.
    Father Sirico is head of the Acton Institute for the Study 
of Religion and Liberty and wanted to help interject a moral 
framework that might be applied to thinking about the Corporate 
Average Fuel Economy Program, CAFE.
    To begin with, Father Sirico notes that while consumers 
seek fuel efficient vehicles to save themselves money, they 
know that most fuel efficient vehicles are the smallest and 
they also know that that makes them less safe. A comprehensive 
study, as you know, released in 1992 by the National Academy of 
Sciences concluded that safety and fuel economy are directly 
linked because, quote, one of the most direct methods 
manufacturers can improve fuel economy is to reduce vehicle 
size and weight. And although it is true that bigger is not 
always better, particularly if we are talking about keeping up 
with the neighbors and acquiring bigger, more expensive toys, 
in the case of motor vehicle safety, bigger clearly is better.
    Last summer, we read an article in USA Today and an 
editorial on the fact that by the paper's own independent 
analysis of government and insurance data, CAFE standards have 
cost roughly 7,700 deaths for every mile per gallon gained. 
Others, including the Harvard Injury Prevention Center, the 
Brookings Institution and the Insurance Institute for Highway 
Safety have come to similar conclusions. That is a high price 
to pay for a government policy.
    Others have testified before this committee from a 
religious perspective on the importance of choosing life and we 
could not agree more with this statement of principle. But in 
the application of principle, we disagree with their policy 
conclusions in support of higher CAFE standards. Finally, fears 
of global warming have led some Members of the religious 
community to promote higher CAFE standards and some measures 
ultimately restrictive of human freedom. Some have even gone so 
far as to suggest the issue of global warming and support for 
the Kyoto Protocol is a litmus test for the faith community. 
But we believe people of good faith can rightfully disagree 
over complex scientific issues like global warming and differ 
on policy analysis as well.
    Just last week the 205th Annual Council of the Episcopal 
Diocese of Virginia removed language from a resolution on 
energy efficiency that embraced the theory of global 
warming.They recognize that market incentives and a commitment to 
genuine environmental stewardship rather than unsupported scientific 
claims enforced by government provides sufficient reason for energy 
efficient behavior. This should serve as a model for future efforts to 
responsibly steward the resources found in God's creation. On behalf of 
Father Sirico, thank you.
    Mr. Wolf. Thank you.
    [The prepared statement of Robert Sirico and Biography of 
David Rothbard follow:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                       Thursday, February 10, 2000.

                   EVANGELICAL ENVIRONMENTAL NETWORK


                                WITNESS

REV. JIM BALL, PH.D., EXECUTIVE DIRECTOR
    Mr. Wolf. The Evangelical Environmental Network
    Mr. Ball. Mr. Chairman, it is an honor to testify before 
you and the members of the subcommittee. I thank you for the 
opportunity. My name is the Reverend Jim Ball. I am the 
Executive Director of the Evangelical Environmental Network, 
the environmental ministry of Evangelicals for Social Action, a 
Christian nonprofit 501(c)(3) organization. Ron Sider, our 
President, sends his greetings to you, Mr. Chairman, and we 
want to thank you again for your leadership on the Wolf-Spector 
Religious Freedom Act, which we supported.
    We receive no Federal grant money. EEN collaborates with 19 
evangelical partner organizations, including World Vision, 
Habitat for Humanity and the International Bible Society, which 
publishes the New International Version of the Bible. EEN is 
also the evangelical partner of the National Religious 
Partnership for the Environment.
    The specific topic I am here to address is CAFE standards. 
As evangelical Christians, we base our lives on the Bible. In 
all things we seek to follow our savior and Lord, Jesus Christ. 
We believe what the New Testament proclaims, that Jesus Christ 
created the universe and is at this very moment sustaining all 
things by his powerful word as Hebrews 1:3 says: Thus all of 
the energy of the universe comes from Christ.
    As Christians, our lives are about using the energy Christ 
gives us to do God's will. Whether that energy comes from the 
food we eat or from the fuels that power our vehicles, it 
should not result in harm to what Christ loves. We are to take 
the energy that Christ freely gives us and use it to fulfill 
the great commandments, to love the Lord your God with all of 
your heart, with all of your soul, with all of your mind and 
all of your strength and your neighbor as yourself.
    Furthermore, as Christians we are to have a special concern 
for our poor neighbors, or those with less power in the world. 
Why? The Bible clearly teaches that God has a special concern 
for the just treatment of the less powerful and expects 
government officials and those with power to deal justly with 
them.
    As a Christian, I am to use whatever power Christ gives me 
to do his will, including my citizen power. And so I am here 
before you today, Mr. Chairman, to talk about CAFE standards 
and ask that you and the members of this subcommittee use your 
power to allow the Department of Transportation to study 
whether these standards should be raised. I believe such 
standards should be raised for the following reasons.
    First, evangelical Christians know that we are not to waste 
the gifts God provides us, including the energy Christ gives 
us. We are called to be good stewards of that energy in using 
it to fulfill the great commandments. Wasting energy when we 
have the means to cost effectively conserve it as we do now in 
the case of passenger vehicles such as SUVs and mini vans does 
not comport with good stewardship.
    Second, easing U.S. dependence on foreign oil will increase 
our national and economic security. Jesus called on his 
followers to be peacemakers.
    Third, raising CAFE standards will help reduce air 
pollution caused in the refining process and by transporting 
gasoline to market. Many refineries are in low income 
neighborhoods. Thus air pollution from the refining process 
disproportionately impacts the poor. In addition, raising 
efficiency standards would allow evangelical Christians and 
others of good will to maintain their current vehicle miles 
traveled while reducing air pollution at the same time. Without 
raising the standard, consumers will not have this choice.
    Finally, raising fuel economy standards will significantly 
reduce carbon dioxide emissions. Human induced global climate 
change represents a serious potential threat to God's creation. 
Contrary to what Christian justice, love and reconciliation 
require, scientific projections are that global climate change 
will impact the poor disproportionately.
    In conclusion, from the perspective of biblical 
Christianity and our calling to be good stewards of theenergy 
Christ gives to us and on behalf of the poor and those vulnerable to 
air pollution and the threat of global warming, I urge you to allow the 
DOT to study whether fuel economy standards should be raised. If you 
have any questions about the costs or the benefits associated with 
this, the solution is simple, appropriate the funds for the study.
    Thank you, sir.
    [The prepared statement of Jim Ball follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Wolf. Thank you very much. We are going to have to 
recess now. I have to go over to vote. I think there are three 
votes. We will recess until 4:30. It could actually be as late 
as 4:40. It depends. Be prepared at 4:30 but it might be as 
late as 4:40. See you then. Unless the two that are here, there 
are two more. If you want to submit it or if you want to stay. 
I am going to be here. It is your choice. Thank you.
    [Recess.]
                              ----------                              

                                        Thursday, February 10, 2000

                    COMPETITIVE ENTERPRISE INSTITUTE


                                WITNESS

SAM KAZMAN, GENERAL COUNSEL
    Mr. Wolf. Maybe the next panel can just come on up, too, 
while we are getting ready. I do apologize, but I appreciate 
you all waiting. So we can in addition to the last two, 
Competitive Enterprise Institute and Small Business Survival 
Committee, we will hear from Friends of the Earth, Alliance to 
Save Energy, American Council for an Energy Efficient Economy, 
the Coalition on the Environment and Jewish Life, Physicians 
for Social Responsibility, Public Citizen, U.S. Public Interest 
Research Group Education Fund, and Union of Concerned 
Scientists.
    I am going to be up here for a little while. If you we can 
keep within three minutes, it would be helpful. The two who 
were left from the last panel will go first, Competitive 
Enterprise and Small Business Survival Committee.
    Mr. Kazman. Thank you. My name is Sam Kazman, General 
Counsel of Competitive Enterprise Institute. On behalf of both 
CEI and Consumer Alert I would like to thank you for this 
opportunity to testify.
    The evidence for CAFE's adverse safety effects comes from a 
huge body of safety research spanning over three decades. Even 
if you take out of that body of research what the Sierra Club 
representative referred to as industry subsidized, industry 
tainted research, you can do that, you are still left with a 
huge body of independent research showing the relationship 
between size and safety. NHTSA's own studies going as far back 
as the 1980s and before up to the present also indicate this 
relationship. They are not the studies that tend to get the 
headlines when NHTSA talks about the danger of SUVs but they 
are present in NHTSA studies.
    We analyze this data. In CEI's view CAFE is costing between 
2600 and 4500 fatalities per year. USA Today analyzed it and 
came up with an even bigger estimate. Two Federal courts of 
appeal looked at the record on this. In their view when NHTSA 
tells the public that the current CAFE standards are not 
killing anyone, the agency's credibility is questionable, to 
put it mildly. That is the case for current CAFE standards.
    Now, the Sierra Club and other environmentalist groups are 
advocating even more stringent standards. According to the 
Sierra Club, and I will read now from a handout attached to our 
testimony, there are no safety effects whatsoever. Question, 
can we improve fuel economy without sacrificing safety? Answer, 
absolutely. Longtime safety advocates such as the Center for 
Auto Safety and Ralph Nader support increasing CAFE to 45 MPG 
and point out we can do it safely.
    In our testimony we document this fact. If you go back to a 
time when large cars were not as politically incorrect as they 
are now, both the Center for Auto Safety and Ralph Nader made 
it very clear that larger cars are more safe. Ralph Nader in a 
1989 magazine interview, asked what sort ofcar he would buy, 
said larger cars are safer. There is more mass to protect the occupant 
but, of course, they are less fuel efficient. Ralph Nader was stating 
that fuel efficiency mandates mean a safety trade-off. The Center for 
Auto Safety in a 1972 book entitled Small on Safety, page after page in 
this book talks about how small size inherently means less safety. 
Before this became a politicized issue, the experts to whom the Sierra 
Club now points to made it clear that there was a trade-off. Now, of 
course the Sierra Club claims there is no trade-off. The argument is 
made that a freeze, continuing this freeze is blocking NHTSA from doing 
its job, blocking NHTSA from even studying this issue.
    Let me refer you to the court decisions in the two 
instances of litigation we have brought, where a court found 
that NHTSA had avoided the safety issue through, quote, fudged 
analysis, bureaucratic mumbo-jumbo and statistical sleight of 
hand. Let me ask you, if an agency has done this bad a job in 
analyzing the effects of the current CAFE standard, why should 
it be given more funds to study even more dangerous CAFE 
standards? Let them first do the job on the current standards.
    Now, let me close with this point. Both at this hearing and 
at last year's hearing, I have heard quite a bit of testimony 
regarding how biblical imperatives supposedly support higher 
CAFE standards. Some of that testimony has been incredibly 
eloquent. Even though I spent over a decade on this issue, I 
found myself experiencing goose bumps at times listening to it. 
I do not know to what extent biblical imperatives are really 
appropriate here but as Rabbi Saperstein mentioned last year, a 
primary one is that of protecting life. In his words, the 
Hebrew term is b'kuach nefesh. We submit if that is going to be 
your guiding principle, then look at the data on CAFE. If 
saving life is your guiding principle, keep CAFE frozen and 
keep the death toll from CAFE from rising even more. Thank you.
    Mr. Wolf. Thank you very much.
    [The prepared statement of Sam Kazman follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                       Thursday, February 10, 2000.

                   SMALL BUSINESS SURVIVAL COMMITTEE


                                WITNESS

CHRISTOPHER A. WYSOCKI, PRESIDENT
    Mr. Wolf. Small Business Survival Committee.
    Mr. Wysocki. Mr. Chairman, thank you. My name is Chris 
Wysocki, President of----
    Mr. Wolf. Just one second. As you finish testifing you are 
free to go. Or you are certainly welcome to stay, too.
    Mr. Wysocki. Thank you. My name is Chris Wysocki, President 
of the Small Business Survival Committee, a nationwide 
nonpartisan, nonprofit advocacy group representing more than 
50,000 small businessmen and women across America. I want to 
first thank you about this opportunity to let you know about 
our opposition to the misguided efforts to raise the corporate 
average fuel economy standards. You have my written testimony 
before you, so in the interest of time, let me just make a few 
points that we believe are essential for you to consider. 
Before addressing our two main concerns with efforts to raise 
CAFE, let me begin by saying the general debate over this issue 
has gotten out of hand. Supporters of CAFE increases will lead 
you to believe that you must act to save the planet from global 
warming. But you must keep in mind that there is no conclusive 
evidence or general consensus among the scientific community 
that global warming is even occurring. It should not be assumed 
that the data supports the need to reduce carbon dioxide 
emissions for any environmental reasons. Supporters of CAFE 
standards should be honest and simply come out and say that 
they want fewer cars and trucks on the road. They should admit 
that their goal is to stifle economic growth rather than hide 
behind some fictitious argument that the world will come to an 
end because we are driving our children around in sport utility 
vehicles.
    With that said, I want to address the economic reason SBSC 
is opposing efforts to increase CAFE standards. Small 
businesses are increasingly dependent upon light trucks and 
sport utility vehicles to transport their goods and services. 
It is estimated that raising CAFE standards will add nearly 
$3,000 to the price of light trucks and SUVs. This cost also 
does not take into account the potential lost productivity from 
lower hauling capacity and diminished performance.
    Secondly and most important is the impact of a CAFE 
increase upon the safety of small businessmen and women just as 
every other consumer on the road. You will find in my written 
testimony a chart that outlines the number of deaths resulting 
from various sizes of vehicles. Raising CAFE standards will 
mean that cars will be lighter and while they might get a few 
miles per gallon more, they will be much more dangerous. The 
safety of our families should not be put at risk because a few 
zealous environmental doomsayers believe we should regress to 
the economics of the Middle Ages.
    In conclusion, SBSC and its more than 50,000 members across 
America strongly urge this Congress to reject anyattempt to 
raise CAFE standards. Doing so would put the lives of thousands of 
Americans at risk and severely compact the economic future of American 
small business. I thank you for your attention.
    Mr. Wolf. Thank you very much. Friends of the Earth.
    [The prepared statement of Christopher Wysocki follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                       Thursday, February 10, 2000.

                          FRIENDS OF THE EARTH


                                WITNESS

DAVID HIRSCH, TRANSPORTATION POLICY COORDINATOR
    Mr. Wolf. Friends of the Earth.
    Mr. Hirsch. Good afternoon, Mr. Chairman, my name is David 
Hirsch, Transportation Policy Coordinator for Friends of the 
Earth, a national nonprofit environmental organization. I would 
like to commend the subcommittee and Chairman Wolf in 
particular for your efforts to improve highway safety. In 
particular, we applaud your work to ensure that hazardous 
materials are safely transported on our roads.
    Today, however, I am here to speak about a different 
matter. While I do appreciate the opportunity to speak to you 
today, I also regret that Friends of the Earth and our 
environmental colleagues are here again working to convince the 
subcommittee to drop the freeze on CAFE standards in the annual 
appropriations bill. Last year at this time many of our 
organizations appeared before the subcommittee and detailed the 
merits of increased CAFE standards. Despite our best efforts, 
the CAFE rider was included in the subcommittee bill and once 
again passed the Congress and became law.
    Environmentalists view the CAFE standards rider as a major 
clean air priority. Over the past several years, the 
environmental community has fought against harmful riders on 
appropriations bills. Too often individual members of Congress 
have buried special interest environmentally harmful policy 
provisions deep inside of spending bills. People who care about 
the environment have been forced to defend against policy 
measures that would never survive if they were debated in the 
light of day. But due to their early inclusion in spending 
bills, environmentalists must wage an uphill battle to keep 
them from becoming law.
    This is a terrible way to make our Nation's environmental 
policy. As the subcommittee is aware, current CAFE standards 
are simply out of step with the vehicles on the road today. 
Automakers are building bigger and heavier SUVs and consumers 
are buying them at record numbers. These gas guzzlers pollute 
far more than other passenger vehicles and are greatly 
contributing to global warming. By consistently blocking CAFE 
increases, Congress is in effect saying that global warming is 
not a real threat.
    However, even Ford Motor Company has acknowledged the 
threat of global warming. In December, Ford resigned from the 
Global Climate Coalition, a group that claims global warming 
just isn't happening. Ford had taken its head out of the sand 
following the lead of BP-Amoco and Royal Dutch Shell, two other 
companies that quit the coalition. Now, oil companies aren't 
known for their progressive attitudes toward the environment. 
When these companies publicly recognize the dangers of global 
warming, it is time for Congress to pay attention. I am not 
here to praise Ford or any other auto company. While they may 
have acknowledged the realities of global warming, they have 
yet to accept their ownresponsibility and they continue to 
produce larger and more polluting vehicles.
    As our country attempts to halt the very real threat of 
global warming, it is important now more than ever to recognize 
the connection between the vehicles we drive and increased 
pollution. CAFE standards can help address these problems but 
only if Congress allows them to work as they were intended. 
That has to start with this subcommittee. Thank you.
    Mr. Wolf. Thank you very much. Alliance to Save Energy.
    [The prepared statement of David Hirsch follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                       Thursday, February 10, 2000.

                        ALLIANCE TO SAVE ENERGY


                                WITNESS

DAVID NEMTZOW, PRESIDENT
    Mr. Wolf. Alliance to save energy.
    Mr. Nemtzow. Thank you, Mr. Chairman. I am David Nemtzow, 
President of the Alliance to Save Energy. I thank you for the 
opportunity to testify today in opposition to the CAFE rider in 
this year's transportation bill. The alliance was founded in 
1977 by Senator Charles Percy. We are a bipartisan, nonprofit 
organization. In the interest of time, Mr. Chairman, I will 
submit my formal statement for the record.
    Mr. Wolf. Without objection.
    Mr. Nemtzow. Thank you. I would comment on one observation, 
if I might. And, that is, frankly the surprising technological 
pessimism of some individuals who don't want to see this debate 
happen. It really shocks me. I think if we have learned 
anything about the U.S. economy in the past generation, 
certainly in the 1990s, it is how remarkable technology can be 
if it is allowed to be unleashed and used in our economy. We 
see that right now of course in the remarkable productivity of 
our workforce. That is largely technology based.
    The same is true for automobile fuel economy. This myth 
that the only way we know how to improve fuel economy is to 
make cars smaller and lighter, that wasn't even true in the 
1970s when radial tires, aerodynamic designs and double 
overhead cams were introduced to respond to the initial CAFE. 
Now we know that there are technologies right on the laboratory 
shelf, variable valve controls, lightweight materials before we 
even get to hybrids and fuels. The technologies are there. The 
problem is the auto manufacturers have no incentive to deploy 
those throughout the fleet.
    Gasoline appears cheap despite the recent runnup in prices 
and in the past month it is still relatively cheap. It doesn't 
factor in the danger of imported oil from the Persian Gulf or 
the air pollution that results from its combustion. Without 
that incentive the automakers are acting rationally and wisely 
not to deploy that technology.
    This Congress has a choice. You can help them deploy the 
technology but you really only have two ways to do that. One is 
through passing a gasoline tax that would reflect the 
additional price of pollution or national security needs. I 
think Congress would find that distasteful. The other is by 
allowing a fair and open debate on CAFE. By allowing that 
debate and if the CAFE standard is raised, it will give the 
automakers the incentive to use this exciting technology that 
Detroit is capable of developing and they will deploy it 
throughout their fleet as they did in the 1970s and 1980s.
    I think there is every reason to be optimistic, Mr. 
Chairman, about technology. We have seen it in so many sectors 
of our economy. The automakers certainly are capable of the 
same progress in the future that they made in the 1970s and 
1980s.
    Thanks very much for the opportunity to testify before you.
    Mr. Wolf. Thank you very much.
    [The prepared statement of David Nemtzow follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                       Thursday, February 10, 2000.

            AMERICAN COUNCIL FOR AN ENERGY EFFICIENT ECONOMY


                                WITNESS

JOHN M. DeCICCO, PH.D., SENIOR ASSOCIATE
    Mr. Wolf. American Council for an Energy Efficient Economy
    Mr. DeCicco. Thank you, Mr. Chairman. I am John DeCicco, 
the Transportation Director of the American Council for an 
Energy Efficient Economy, ACEEE. Others on the earlier panel 
explained why we need CAFE standards and how great their 
benefits could be. Unfortunately, invalid arguments continue to 
surface in opposition to CAFE. David just pointed some of those 
out. I will focus on some key technical and business reasons 
why some of the other arguments are wrong.
    Fundamentally, it is the industry's ever improving 
capability for design improvements and engineering advances 
that enable higher miles per gallon while preserving the other 
amenities that consumers value. Arguments against CAFE, 
including those asserting safety losses or job risks, are 
rooted in a common flaw; namely, that fuel economy can only be 
improved by making smaller vehicles rather than by improving 
technology across the fleet.
    ACEEE analyses indicate that given 10 years of lead time, 
fuel economy can be improved by 40 to 60 percent using proven, 
cost effective engineering improvements. Even higher levels are 
achievable with advanced technologies. I think an important 
thing to note is that many of the analyses that the committee 
has heard about purporting to link CAFE with fatalities look at 
the period when this industry and in particular the Detroit 
automakers were not prepared. They were not prepared for the 
oil shocks, and they were forced to shift to small cars, not 
because of CAFE standards but because of their unpreparedness 
in the face of the policies that we let first King Faisel and 
then Ayatollah Khomeini dictate to us in the mid to late 1970s. 
CAFE standards through a rule making process protect the 
industry, control for size, and allow the lead time to deploy 
technologies, a very different situation than the kind of lack 
of preparedness and what are frankly phony statistical analyses 
that don't properly control for these other factors to come up 
with these adverse safety effects.
    Let me turn to some of the business reasons here why 
automakers would meet CAFE through better technology rather 
than through downsizing. Firms who use technology to improve 
efficiency while preserving other amenities that customers 
value will win sales. Only a foolish firm would try to improve 
efficiency by trading off size, safety, performance or other 
amenities. That would not be a winning way to work in a 
competitive marketplace.
    A look at recent model offerings with record breaking sales 
and exciting new designs should belie concerns that this 
industry lacks technical capability. Rather, it is a question 
of how that ability is put to use. Alleged safety risks hinge 
on a number of misleading claims. The graph at the end of my 
written testimony, which I submitted last week, shows fatality 
rates have been cut in half since CAFE was introduced. Only by 
stretches of fallacious logic and misleading statistical 
analyses, as I mentioned before, do CAFE opponents contrive 
higher death rates in the face of such overwhelming evidence to 
the contrary. Their assertions hinge on several fallacies, that 
CAFE standards imply smaller vehicles. Not true. In reality, 
CAFE is achieved by technology improvement with lead time 
supported by analyses that control for size. That lighter 
vehicles imply higher fatalities. In reality, crash worthiness 
is determined not by weight but by design. Today's compacts are 
safer than large cars of 20 years ago. Unbalanced analysis. It 
is misleading to highlight the risks to small car occupants 
while neglecting the risks that larger vehicles impose on 
others.
    Some press reports last year cite an Insurance Institute 
for Highway Safety study in which IIHS wrongly associates the 
fleet size mix to CAFE standards, by assumption, not analysis, 
and then with skewed calculations produces its incorrect 
conclusions about CAFE and safety. The primary determinant of 
crash worthiness is the quality of design. Today's small cars 
offer better occupant protection than many light trucks without 
imposing severe risks on others. The VW new Beetle and Saturn 
SL, for example, have better crash test scores than full size 
pickups like the Dodge Ram and Ford F150.
    Automotive engineering is now more advanced than ever and 
the industry has many technologies at its disposal to improve 
both efficiency and safety. DOT should be given the resources 
to carefully examine these capabilities and determine the 
practical fuel economy targets in light of national security 
and environmental protection needs. ACEEE respectfully asks the 
committee to appropriate the necessary funds.
    Thank you.
    Mr. Wolf. Thank you.
    [The prepared statement of John DeCicco follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                       Thursday, February 10, 2000.

              COALITION ON THE ENVIRONMENT AND JEWISH LIFE


                                WITNESS

MARK X. JACOBS, DIRECTOR
    Mr. Wolf. Coalition on the Environment and Jewish Life.
    Mr. Jacobs. Thank you, Mr. Chairman. I am Mark Jacobs, 
Director of the Coalition on the Environment and Jewish Life, a 
collaboration of 27 national organizations spanning the 
spectrum of Jewish denominations. I have a revised version of 
my written testimony, which I respectfully request be entered 
into the record.
    Mr. Wolf. Without objection so ordered.
    Mr. Jacobs. For 25 years the organized Jewish community has 
advocated Federal policies to reduce U.S. consumption of fossil 
fuels. We are deeply troubled by the rider that has been 
attached to the appropriations bill for the Transportation 
Department since 1995. CAFE standards have not been revised 
since the Carter administration and fuel economy is now at its 
lowest across the fleet than it has been since 1980 and fuel 
consumption is at its highest. We believe the time has long 
since come to increase CAFE standards for all vehicles and to 
close the loophole that holds sport utility vehicles to 
significantly lower standards than cars. A broad spectrum of 
the American religious community is concerned about these 
issues.
    If I might, I would like to respond to some of the comments 
that have been made earlier by David Rothbard and Mr. Kazman. 
The established American faith communities at their very 
highest levels of governance have been involved in 
environmental issues for some time now. This is the case when 
the U.S. Catholic bishops send out materials to every parish in 
the American community for 3 years in a row, when the National 
Council of Churches embracing 37 main line Protestant 
denominations, the orthodox denominations and the African 
American denominations send out materials this week to over 
100,000 congregations on CAFE standards and climate change, 
when over 500 evangelical scholars sign a declaration on 
climate change and when an organization such as ours 
representing the broad Jewish community get active on an issue. 
We have done the analysis. We believe that shows that CAFE 
standards ought to be increased. There are four primary values 
which motivate the Jewish concern about this. I will mention 
two for the sake of time.
    We have an obligation to future generations to live within 
the ecological limits of the Earth. The science is clear, 
global warming is happening and it poses grave threats to 
future generations. Humans are partially responsible and we in 
the United States are responsible for a full fifth of global 
greenhouse gas emissions. Some have said that we shouldn't take 
action until the dangers are certain. The Jewish tradition here 
is very clear. We must take all reasonable precautions to 
prevent possible harm even if the potential for harm is neither 
eminent nor certain. Second, peace and security. Approximately 
half of the oil we use fuels our cars and that is the amount of 
oil we import each year. Dependence on oil has provided Middle 
Eastern nations an opportunity to manipulate the foreign policy 
of the United States and other nations around the world 
dependent on their oil. This is not in our national interest 
nor in the interest of nonoil producing nations in the Middle 
East, particularly Israel. A dramatic increase in CAFE 
standards is possible. Others have mentioned the kinds of 
technologies which can enable us to do that. We know that 
raising CAFE standards can protect people and it is 
unconscionable not to allow the Department of Transportation to 
consider it. Yet pressure from industrial interests has done 
just that for over 20 years.
    There is no real downside to increasing CAFE standards. We 
do indeed stand for choices that will affect generations to 
come, biblical choices between life and death, between blessing 
and curse. Shall energy be a safe, clean and sustainable 
blessing, or shall our consumption of energy be a curse, 
causing harm and even death to people and other creatures far 
into the future? On behalf of the Jewish community I urge you 
to choose life and blessing.
    Thank you.
    [The prepared statement of Mark Jacobs follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Wolf. Thank you very much. The Physicians for Social 
Responsibility.
                              ----------                              

                                       Thursday, February 10, 2000.

                  PHYSICIANS FOR SOCIAL RESPONSIBILITY


                                WITNESS

JOHN M. BALBUS, MD, MPH, MEMBER, BOARD OF DIRECTORS
    [The prepared statement of John Balbus follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                       Thursday, February 10, 2000.

                             PUBLIC CITIZEN


                                WITNESS

WENONAH HAUTER, DIRECTOR, CRITICAL MASS ENERGY PROJECT
    Mr. Wolf. Public Citizen.
    Ms. Hauter. Chairman Wolf, I am Wenonah Hauter, Director of 
Public Citizen's Critical Mass Energy Project. In addition to 
submitting my written testimony for the record, I would like to 
ask you on behalf of Joan Claybrook, President of Public 
Citizen, to submit for the written record this information on 
the advanced air bag.
    Mr. Wolf. Sure. Without objection. Would you like that at 
the air bag section and not here?
    Ms. Hauter. Yes, please.
    Mr. Wolf. We can do that.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Ms. Hauter. Thank you.
    I would like to begin by addressing the comments of the 
representative from the Competitive Enterprise Institute. 
Public Citizen's founder, Ralph Nader, would say that his words 
have been greatly misrepresented. Today the technology is 
extremely different from the time that he was advocating the 
use of larger cars. Highly efficient cars are very safe and 
today we have things like seat belts and air bags and improved 
vehicle design.
    Government tests show, as you have heard earlier, that in a 
crash against a wall, that occupants of a gas guzzling 1997 
Ford Expedition would be more likely to die than those 
occupants of an efficient 1997 Saturn. That is because the 
Saturn has better technology and it is safer. In fact, as we 
all know in this room, since 1970, as automobiles have become 
twice as efficient, the rate of highway traffic fatalities has 
decreased by 50 percent. Placing a rider on the appropriations 
bill is just bad public policy.
    I wonder, sitting here and listening to the testimony, why 
the auto industry is so afraid of information, so afraid of 
funding a study. It must be because our information has truth 
to it. I am also really shocked at the example of how Members 
of Congress are allowing campaign contributions and soft money 
to influence public policymaking. Candidates seeking Federal 
office who received campaign contributions between 1997 and 
today received $11.5 million from transportation PACs. That is 
just the tip of the iceberg. It doesn't count soft money. It 
certainly doesn't count all of the lobbying, all of the 
resources spent on lobbying.
    Chairman Wolf, I am a constituent of yours. I live out in 
Virginia on a farm. Every day I car pool to the Vienna Metro. 
As I drive down 66 in the car pool and then get on the metro 
and watch the 66 corridor, I see the thousands and thousands of 
single occupancy vehicles and a very high percentage of those, 
as we all know, are SUVs and light trucks. The numbers of these 
vehicles on the road, it is really shocking because this is a 
region where four-wheel drive vehicles aren't a necessity and 
where trucks are certainly not needed for agriculture since our 
farmland has been pretty much paved over. But all of that gas 
is being wasted every day and our highways are less safe than 
they could be. It is because the auto industry is selling these 
larger vehicles to the American families as being safer. That 
is something that is very unfortunate.
    So I would just ask, or comment that the leadership of the 
U.S. House of Representatives and the Members of this committee 
should really put the interests of the American people first, 
before the profits of the auto industry. We ask that language 
not be attached to this appropriation bill prohibiting the 
study by the Department of Transportation. Thank you.
    [The prepared statement of Wenonah Hauter follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                       Thursday, February 10, 2000.

           U.S. PUBLIC INTEREST RESEARCH GROUP EDUCATION FUND


                                WITNESS

NOAM MOHR, GLOBAL WARMING ASSOCIATE
    Mr. Wolf. Thank you very much. U.S. Public Interest 
Research Group Education Fund.
    Mr. Mohr. Good afternoon, Mr. Chairman. My name is Noam 
Mohr. I am a Global Warming Associate at the U.S. Public 
Interest Research Group. On behalf of our nearly half million 
members across the country, I am here to request that this 
subcommittee not prevent the DOT from fulfilling its 
responsibility of reviewing CAFE standards. I want to be brief, 
so I won't repeat what has already been said. But existing CAFE 
standards already save the average new car owner $3,000 at the 
gas pump.
    Last year, U.S. PIRG conducted a study of the State by 
State impacts of current lower standards for light trucks. The 
study calculated the resulting additional oil consumption, 
carbon dioxide emissions and gasoline costs. Using updated gas 
prices as of November 1999, we find that families that own 
light trucks in Virginia pay more than $432 million a year 
extra at the gas pump due to the lower standards. This ends up 
costing light truck owning families nationwide more than $17 
billion each year in added fuel costs.
    In addition, CAFE has wide support among light truck 
owners. Last July the State PIRGs conducted a survey of light 
truck owners which found that 87 percent favor making light 
trucks meet the same CAFE standards as cars and over 80 percent 
would have been willing to pay a modest additional 
manufacturing cost to own a cleaner or more energy efficient 
vehicle.
    We have heard from CAFE opponents who are afraid of losing 
their recreational vehicles or who say improved CAFE means 
smaller, less safe vehicles. Mr. Chairman, we are not 
advocating to get rid of these vehicles. We want the DOT to get 
the opportunity to look at these issues and determine what can 
be done. If they are so sure that they are right about safety, 
then why are CAFE opponents worried so much about what the DOT 
will find? Americans want the environmental and economic 
benefits of improved CAFE.
    On behalf of our members, we urge you not to put a 
provision in this year's appropriations bill that would 
prescribe addressing the perverse incentive that causes 
pollution and costs consumers more at the purpose. I would like 
to submit this study for the record along with this page of 
updated gas prices.
    Mr. Wolf. Sure. Without objection.
    Mr. Mohr. Thank you very much.
    [The prepared statement of Noam Mohr follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                       Thursday, February 10, 2000.

                     UNION OF CONCERNED SCIENTISTS


                                WITNESS

RON SUNDERGILL, WASHINGTON REPRESENTATIVE FOR ENERGY
    Mr. Wolf. Union of Concerned Scientists.
    Mr. Sundergill. Good afternoon, Chairman Wolf. Thank you 
very much for the opportunity to appear before the committee 
today. My name is Ron Sundergill, Washington Representative for 
Energy, Union of Concerned Scientists.
    The increased fuel efficiency in vehicles will result in 
substantial environmental and societal benefits. It will reduce 
emissions of carbon dioxide, reduce dependence on foreign oil 
and save consumers thousands of dollars in annual fuel costs 
and potentially improving vehicle safety.
    The Union of Concerned Scientists is opposed to a freeze on 
the Department of Transportation's authority to increase CAFE 
standards. We urge the subcommittee to allow DOT to carry out 
its original congressional mandate. We urge this because of a 
growing disparity. The freeze on DOT fuel economy funding has 
held standards in place for all vehicles. This has delayed a 
rule making that would have addressed the growing disparity 
between car and light truck fuel economy.
    It is increasingly clear that the auto industry is using 
this loophole to produce large numbers of gas guzzling higher 
emitting SUVs and light trucks. Once standards were promulgated 
in the 1970s, light trucks were less than 20 percent of new 
vehicle sales. These trucks were used primarily to haul heavy 
loads, but today they are used for personal transportation and 
recreational transportation and they have become passenger car 
surrogates. The top selling passenger vehicles on the market 
are currently light trucks.
    Let's look at some of the impacts from increased use of 
these vehicles. Our dependence on imported oil has grown. In 
fact, it has grown to 50 percent of U.S. consumption and 
contributes nearly $50 billion annually to the trade deficit. 
Carbon dioxide emissions are growing. Roughly 20 percent of 
U.S. carbon dioxide emissions come from cars and light trucks. 
Overall transportation is the fastest growing source of U.S. 
greenhouse gas emissions, and air pollution is also affected.
    While raising fuel economy is unlikely to significantly 
impact the amount of pollution emitted from tail pipes, 
reducing fuel use will substantially lower toxic air and water 
pollution from the oil refining and distribution industries. 
The question then comes to mind, do we have the technology to 
achieve greater fuel economy? The answer is yes. The auto 
industry can safely improve fuel economy without sacrificing 
performance or reducing the size of vehicles.
    In its review of the Partnership for a New Generation of 
Vehicles Program, the National Research Council suggests that a 
40 to 60 percent fuel economy gain is achievable through the 
use of lightweight materials, aerodynamic designs and low 
resistance tires. This does not consider the 
additionalpotential for improving engine and transmission efficiency, 
particularly in light trucks, which often employ older technology.
    In addition, the organization I work for, the Union of 
Concerned Scientists, decided to take a closer look at what it 
would take to dramatically increase fuel economy while reducing 
tail pipe emissions. We did extensive modelling and examined a 
number of technology options. This peer reviewed study 
described how it is possible to design an SUV that achieves 50 
percent better mileage, pollutes 75 percent less and has a 
lower total cost.
    I would ask, Mr. Chairman, if we could enter this into the 
record.
    Mr. Wolf. Sure. Without objection.
    Mr. Sundergill. Lastly, several manufacturers are 
introducing advanced technologies such as hybrid electric 
vehicles. These models will dramatically increase fuel 
efficiency while lowering tail pipe emissions.
    In concluding, the synergistic benefits of increasing fuel 
economy are clear. We urge you to allow DOT to do the kind of 
analysis UCS has done, quantify the benefits, assess the costs 
and recommend a course of action through a CAFE rule making. 
Americans want government action that will make cars and light 
trucks cleaner, safer and more efficient. On this one common 
sense issue, Congress can offer the American people a reduced 
health threat from air pollution and global warming, greater 
energy security and significant savings at the gas pump as we 
begin a new century of automotive innovation.
    We urge you to let the Department of Transportation move 
forward on this issue. Thank you very much.
    [The prepared statement of Ron Sundergill follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Wolf. Thank you very much. I really appreciate the 
testimony. I think it has been very, very good. It would have 
been good if all the Members could hear it. I have been equally 
concerned, I would say, with regard to the pollution issue. We 
have been trying to get this administration to come out with an 
executive order allowing Federal employees to telework and also 
to use mass transit, to give them a Metro check. We haven't 
been able to get the administration to move. If not, I am going 
to put it on this appropriations bill to force it through.
    Also, testimony mentioned our pollution. In last year's 
bill we set up five demonstration projects in the country 
whereby if employers permit employees to telework, they will 
get a pollution credit. They can take and sell it on the 
Chicago Mercantile--an environmental group can buy it, the 
government can buy it or whatever, to afford all of the 
opportunities of both having choices over your own life in 
teleworking but also a cleaner environment. In fact the thing 
that drives it is both congestion and air pollution and the 
need for cleaner air. And lastly the ability for an individual 
to have more control over their own life.
    The last comment I would make is I was in a head-on 
collision, I was with my wife and one of my children. I can 
still hear the policeman saying if you had been in a smaller 
car, the result could have been something that no one likes to 
talk about.
    Intellectually and hypothetically we can talk back and 
forth and I thought all your arguments were very, very good. It 
is one of those things you listen to and you are there. But the 
reason I have taken this position has been safety with regard 
to an individual in that car if they are in an accident. The 
worst telephone call you can get is at 1 o'clock in the 
morning, for those of you who are parents, or 2 o'clock in the 
morning where they say this is the Virginia State police or 
this is the Fairfax County Police Department, and then they are 
going to say that someone has died.
    I do what I believe is right. I send out my entire voting 
record to every house in my congressional district on how I 
voted on each and every issue that I voted on. When you talk 
about riders and special interests, this committee, and I led 
the effort to stand up to the trucking industry last year when 
no one else wanted to deal with it and we were able to be a 
success. That doesn't mean that every position that I have 
taken has always been right.
    I do want to thank all of you, though. I think the 
testimony was very good. It would have been great if we could 
have had everybody not only on the committee here but everybody 
in Congress because this is obviously an issue that will not go 
away. I think it demands to be dealt with in a public way 
whereby people are forced to make a choice. I want to thank you 
very, very much.
    The hearing is adjourned.
    [Additional statements for the record follow:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                               I N D E X

                              ----------                              

         Testimony of Members of Congress and Public Witnesses

                                                                   Page
United States Coast Guard:
    Calkins, Charles, National Executive Secretary, Fleet Reserve 
      Association................................................  1165
    Donheffner, Paul, Director, Oregon State Marine Board, and 
      President, NASBLA..........................................  1178
    Fleet Reserve Association, National Association of State 
      Boating Law Administrators (NASBLA)........................  1178
    Upper Mississippi River Basin Association....................  1644
Federal Aviation Administration:
    Airports Council International-North America (ACI-NA)........  1470
    Air Traffic Control Association, Inc.........................  1525
    Air Traffic Control Tower Funding Project....................     3
    Alterman, Stephen A., President, Cargo Airline Association...  1479
    American Association of Airport Executives (AAAE)............  1470
    Anthes, Richard A., President, University Corporation for 
      Atmospheric Research (UCAR)................................  1357
    Bolen, Edward M., General Aviation Manufacturers Associatio629, 631
    Brantley, Thomas, Vice President, PASS.....................645, 647
    Brown, Hon. Corrine, Representative from FL..................   411
    Cargo Airline Association....................................  1479
    City of Vero Beach Municipal Airport.........................     1
    FAA Fiscal Year 2001 Appropriations..........................     9
    Flightsafety International...................................  1597
    Iowa State University........................................  1207
    International Loran Association..............................  1613
    InVision Technologies, Inc...................................  1359
    Magistri, Sergio, President and CEO, InVision Technologies, 
      Inc........................................................  1359
    McCollum, Hon. Bill, Representative from FL..................  1083
    McNally, Michael, President, NATCA...........................   655
    National Association of Air Traffic Specialists..............  1646
    Neuberger, Arthur R., Mayor of Vero Beach, FL................     1
    Pike, Walter W., President, National Association of Air 
      Traffic Specialists........................................  1646
    Roth, G. Linn, President, International Loran Association....  1613
    Tiahrt, Hon. Todd, Representative from KS....................   643
    Ueltschi, A.L., President and CEO, Flightsafety International  1597
    Weldon, Hon. Dave W. from Florida............................  1, 3
Federal Highway Administration:
    Bereuter, Hon. Doug, Representative from NE..................    11
    Bilirakis, Hon. Michael, Representative from FL..............  1068
    Brown, George E., former Congressman from CA.................  1437
    Crabb, Harry, Mayor, City of Roseville, CA...................  1453
    Etiwanda Ave/I-10 Interchange Improvement Project............  1437
    Filner, Hon. Bob, Representative from CA...................108, 140
    Gallegly, Hon. Elton, Representative from CA.................  1078
    Sandra Hilliard, Board Chair, Sacramento Area Council of 
      Government.................................................   450
    Kampkoff, Andy, Public Works Director, Lummi Indian Business 
      Council....................................................   746
    Lummi Indian Business Council................................   746
    Okojie, Felix, Interim Vice President of Research and 
      Development, Jackson State University......................  1364
    Sacramento Area Council of Governments.......................  1450
    Sherman, Hon. Brad, Representative from CA............156, 158, 166
    Squaxin Island Tribe.........................................   752
    Whitener, David, Squaxin Island Tribe......................752, 754
Federal Motor Carrier Safety Administration:
    Commercial Vehicle Safety Alliance...........................  1337
Federal Railroad Administration:
    American Passenger Rail Coalition (APRC).....................   729
    Association of American Railroads............................  1482
    Filner, Hon. Bob, Representative from CA...................108, 140
    Frank, Hon. Frank, Representative from MA..................310, 312
    Gulf Coast MAGLEV Deployment Project.........................  1172
    High Speed Ground Transportation Association.................  1295
    Hunter, Hon. Duncan, Representative from CA................108, 110
    Leonard, Scott, Assistant Director, NARP...................739, 741
    McGovern, Hon. James P., Representative from MA............310, 316
    National Association of Railroad Passengers..................   739
    North Carolina Department of Transportation, Rail Division...  1350
    North Central Corridor Project...............................  1538
    Parcells, Harriet, Executive Director, APRC................729, 731
    Southeast High Speed Rail....................................  1177
    Southwest Service Extension and Upgrade......................  1546
    Talgo America (DE)...........................................  1520
    Union Pacific West Line Extension............................  1542
    Weygand, Hon. Bob, Representative from RI..................225, 227
Federal Transit Administration:
    Alameda Contra Costsa Transit District.......................   161
    Alvarado Blanca, Chair, Board of Director, Santa Clara Valley 
      Transportation Authority...................................  1391
    American Public Transit Association (APTA)...................   675
    American Road & Transportation Builders Association..........  1290
    Armey, Hon. Dick, Representative from TX (Dallas Area Rapid 
      Transit Authority).........................................  1061
    Amy, Gary, Mayor, Cathedral City, CA.........................  1158
    Austin, Julie M., Executive Director, Foothill Transit.......  1370
    Baca, Hon. Joe, Representative from CA.....................108, 148
    Bartlett, Robert T., Mayor of Monrovia, CA.................166, 170
    Barton, Hon. Joe, Representative from TX (Dallas Area Rapid 
      Transit Authority).........................................  1061
    Bass, Dick Executive Director, Norwalk Chamber of Commerce 
      (CA).......................................................  1319
    Bates, Ron, Councilmember, Los Alamitos, CA..................   115
    Baxley, Dan, Acting President, College of the Desert.........  1159
    Bechtel, Joan, Supervisor, County of Sutter, CA..............  1455
    Bereuter, Hon. Doug, Representative from NE..................    11
    Bike Lane Gap Closure Project................................   156
    Blagojevich, Hon. Rod R., Representative from IL...........503, 531
    Blumenauer, Hon. Earl, Representative from OR................    48
    Bower, Matti Herrera, City Commissioner, Miami, FL...........   469
    Bracken, Michael, President & CEO, Coachella Valley Economic 
      partnership................................................  1156
    Bradley, Joe Ann, Executive Director, Community Action Grou503, 540
    Bridgeport Intermodal Transportation Center and Stamford 
      Urban Transitway...........................................   230
    Burke, Julian, Chief Executive Officer, Los Angeles MTA......  1345
    Burke, Yvonne Brathwaite, Chair, Metropolitan Transportation 
      Authority (Los Angeles, CA)................................  1341
    Burns, Michael T., General Manager, San Francisco Municipal 
      Transportation Agency......................................  1195
    Byrd, Percy, Mayor, Indian Wells, CA.........................  1162
    Calabasa Smart Shuttle Improvements..........................   156
    California Fuel Cell Partnership.............................  1262
    Capuano, Hon. Michael E., Representative from MA.............  1070
    Catz, Sarah, Southern California Regional Rail Authority...128, 130
    Chatham Area Transit Authority...............................  1467
    City of Lincoln & Nebraska Commercial Vehicle Information 
      Systems Network............................................    11
    Clark County, Nevada Regional Transportation Commission......  1191
    Clement, Hon. Bob, Representative from TN....................   220
    Coachella Valley Association of Governments..................  1157
    Coachella Valley Economic Partnership........................  1156
    Coyne, Hon. William J., Representative from PA...............    15
    Crites, Buford, Mayor, City of Palm Desert...................  1155
    Cromwell, Richard, III, General Manager, Sunline Transit 
      Agency.....................................................  1151
    Dallas Area Rapid Transit Authority..........................  1062
    Davis, Hon. Danny K., Representative from IL...............503, 529
    DeGette, Hon. Diana, Representative from CO................495, 497
    DeLaney, Paula M., Mayor, Gainesville, FL....................  1378
    DeLauro, Rosa, Representative from CT........................   235
    Dicks, Hon. Norm, Representative from WA....................67, 100
    Dixon, George F., President, Board of Trustees, Cleveland R188, 192
    Dreier, David, Representative from CA........................   169
    Drewel, Bob, Executive, Snohomish County, WA................67, 102
    Druker, David, Chairman, North San Diego County Transit 
      Development Board..........................................  1570
    Dunn, Hon. Jennifer, Representative from WA.................67, 101
    Doyle, Hon. Mike, Representative from PA.....................    18
    Filner, Hon. Bob, Representative from CA...................108, 140
    Foothill Transit.............................................  1370
    Foster, Joyce, Co-Chair, SCMC................................  1200
    Frank, Hon. Frank, Representative from MA.............310, 312, 316
    Frelinghuysen, Hon. Rodney P., Representative from NJ........   383
    Frost, Hon. Martin, Representative from TX (Dallas Area Rapid 
      Transit Authority).........................................  1061
    Ganim, Joseph P., Mayor of Bridgeport, CT..................230, 241
    Gordon, Hon. Bart, Representative from TN..................220, 222
    Greater Gleveland's Euclid Corridor Improvement Project......   190
    Greater Gleveland Regional Transit Authority.................   188
    Gunzburger, Suzanne N., Chair, Broward County Board of County 
      Commissioners..............................................  1333
    Gutierrez, Hon. Luis V., Representative from IL............503, 506
    Hague, Jane, Sound Transit Board............................67, 103
    Hall, Ralph, Dallas Area Rapid Transit Authority.............  1061
    Hansen, Fred, General Manager, Tri-County Metropolitan 
      Transportation District of Oregon..........................    52
    Hardison, Dee, Mayor, City of Torrance, CA...................  1320
    Houston Metro................................................  1302
    Inslee, Hon. Jay, Representative from WA.....................    67
    Iracheta, Oscar R., President, Eighteenth Street Business 
      Association..............................................503, 547
    Irwin, Thomas, Executive Director, Bi-State Development 
      Agency.....................................................  1109
    Jeffries, Will, Executive Director, MPO, Salt Lake City, UT..   620
    Johnson, Hon. Eddie Bernice, Representative from TX (Dallas 
      Area Rapid Transit Authority)..............................  1061
    Johnson, Hon. Sam, Representative from TX (Dallas Area Rapid 
      Transit Authority).........................................  1061
    Jones, John Paul, Director, Outreach Campaign for Better 
      Transit....................................................   503
    Jones, Hon. Stephanie Tubbs, Representative from OH..........   188
    Judge, Patrick R., President, Louisiana Public Transit 
      Association................................................  1413
    Katsion, Kim, Commissioner, Washington County, OR............    62
    King, Hon. Peter, Representative from NY...................392, 394
    Koelbel, Buz, Co-Chair, SCMC.................................  1200
    Lane Transit District (Lane County, OR)......................  1428
    Lanford, Stan, ARTBA Safety Committee Chairman...............  1290
    Lansing, Scott, Executive Director, Chatham Area Transit 
      Authority..................................................  1467
    Larson, Patricia A., Executive Director, CVAG................  1157
    Lee. Hon. Barbara, Representative from CA..................161, 163
    Lentz, Catherine, Project Leader, California Fuel Partnership  1262
    Leavy, Jacqueline C., Executive Director, Neighborhood 
      Capital Budget Group.......................................   503
    Lopez, Marcos, Mayor, City of Indio, CA......................  1163
    Los Angeles County Metropolitan Transportation Authority 
      (MTA)......................................................  1341
    Malloy, Dannel, Mayor of Stamford, CT......................230, 245
    Mass Transit Projects and Appropriations for FY 2001.........  1399
    McCarthy, Carolyn, Representative from NY....................  1657
    McConkie, Dannie, Chairman, Wasatch Front Regional Council, 
      Davis County, UT...........................................   620
    Meckler, Lawrence M., Executive Director, Niagra Frontier 
      Transportation Authority...................................  1458
    Mendez, Michael, Mayor, City of Norwalk, CA..................  1318
    METRA........................................................  1530
    Metropolitan Atlanta Rapid Transit Authority (MARTA) (GA)....  1487
    Metropolitan Transit Authority of Harris County..............  1302
    Miklos, Steve, Mayor, City of Folsom, CA.....................  1449
    Miller, Robert D., Chairman, Metropolitan Transit Authority 
      of Harris County...........................................  1302
    Mission Valley East Trolley Extension and MTDB Transit 
      Improvements...............................................   108
    Monroe, Don, Executive Director, Pierce Transit..........67, 86, 97
    Monrovia-Arcadia Electric Shuttle Demonstration..............   166
    Montenegro, Sylvia, Mayor, City of Coachella, CA.............  1161
    Municipal Transit Operators' Coalition.......................  1312
    Murphy, Tom, Mayor of Pittsburgh, PA.........................    29
    Nashville Regional Commuter Rail System......................   220
    Niagra Frontier Transportation Authority.....................  1458
    Northern Indiana Commuter Transportation District............   207
    North San Diego County Transit Development Board.............  1570
    Norwalk Chamber of Commerce (CA).............................  1319
    Pastor, Hon. Ed, Representative from AZ......................   552
    Penalas, Alex, Mayor, Miami-Dade County, FL..................  1284
    Pettygrove, George, Mayor, Fairfield, CA.....................  1456
    Pitts, Cameron C., Chairman, Hampton Roads Transit...........  1101
    Pierce Transit Clean Bus Initiative..........................    95
    Pierce Transit Operating Base Expansion......................    84
    Port Authority of Allegheny County...........................    15
    Portland's Interstate Metropolitan Area Express, Washington 
      County Commuter Rail.......................................    48
    Project Study Reviews for the 101/404 Interchange............   156
    Rhode Island Rail Development................................   225
    Riley, Donald, Rochester-Genesee Regional Transportation 
      Authority (Rochester, NY)..................................  1462
    Riordan, Richard, Mayor, Los Angeles, CA, 2nd Vice-Chair, MTA 
      Board of Directors.........................................  1343
    Roaring Fork Valley New Start Project........................  1383
    Rochester-Genesee Regional Transportation Authority..........  1463
    Roddey, James C., Chief Executive, Allegheny County..........    20
    Roemer, Hon. Tim, Representative from IN.....................   178
    Rogers, Clarence, Interim General Manager/Secretary-
      Treasurer, Cleveland RTA.................................188, 201
    Romero-Barcelo, Hon. Carlos, Representative from PR........375, 377
    Roussos, George, Chairman, Board of Directors, Roaring Fork 
      Railroad Holding Authority.................................  1383
    Ruddell, Richard L., General Manager, Toledo Area Regional 
      Transit Authority; Vice Chair, APTA......................675, 677
    Rush, Hon. Bobby, Representative from IL.....................   503
    Safety Fencing Along ACELA High-Speed Train Route............   310
    San Diego Metropolitan Transit Development Board.............  1559
    San Diego and Rizona Eastern Railroad and Related 
      Infrastructure Programs....................................   108
    Santa Monica Mountains National Recreation Area..............   156
    Scott, Hon. Robert C., Representative from VA................  1097
    Sessions, Hon. Pete, Representative from TX (Dallas Area 
      Rapid Transit Authority)...................................  1061
    Shays, Hon. Christopher, Representative from CT..............   230
    Sherman, Hon. Brad, Representative from CA............156, 158, 166
    Skoutelas, Paul P., Chief Executive Officer, Port Authority 
      of Allegheny County........................................    35
    Slaughter, Hon. Louise M., Representative from NY............  1107
    Smith, Hon. Adam, Representative from WA.....................    67
    Soens, James R., Executive Director, Ravenswood Industrial 
      Council..................................................503, 534
    South Bend Public Transportation Corporation.................   178
    Southeast Corridor Mobility Coalition........................  1200
    Southern California Association of Governments...............   123
    Spencer, Turner M., Hampton Roads Transit....................  1101
    Stephens, Jack, Interim General Manager/CEO, Metropolitan 
      Atlanta Rapid Transit Authority (GA).......................  1486
    SunLine Transit Agency.......................................  1151
    Tasman Corridor West Light Rail Extension Line 22 Rapid Bus 
      Project....................................................  1391
    Townes, Courtland, Director of Services, Boston Center for 
      Independent Living (Easter Seals)........................691, 693
    Transit Base Expansion and Clean Bus Initiative..............    70
    Tucker, Robert H., Jr., Regional Transit Authority (New 
      Orleans, LA)...............................................  1399
    Utah Transit Authority.......................................   620
    Visclosky, Hon. Peter J., Representative from IN.............   207
    Way, Douglas W., Vice-Chair, Transpo.......................178, 182
    Webb, John, Secretary Treasurer, United Electric Supply Co., 
      Salt Lake City, UT.......................................555, 558
    Weinstein, James, Commissioner of Transportation of NJ.....383, 386
    Weller, Hon. Jerry, Representative from IL...................  1653
    Weyuker, Matt, Mayor, City of Desert Hot Springs.............  1160
    Williams, Leon, Chairman, San Diego Metropolitan Transit 
      Development Board..........................................  1559
    Wu, Hon. David, Representative from OR.......................    65
Transportation Issues:
    American Psychological Association...........................   664
    Boese, Mark, Deputy Air Pollution Control Officer............  1353
    Brahms, Thomas, Executive Director, Institute of 
      Transportation Engineers...................................  1271
    Brown, Kirk, Secretary, Illinois Department of Transportation  1553
    California Industry and Government Central California Ozone 
      Study (CCOS) Coalition.....................................  1353
    Champlain-Hudson Economic Corridor Coalition...............331, 336
    Chicago Transportation Projects..............................   503
    Clark, Les, Vice President, Independent Oil Producers Agency.  1353
    Coalition of Northeastern Governors..........................  1330
    Colonial Williamsburg Foundation...........................685, 687
    Colorado Department of Transportation........................  1203
    Crittenden, Mike, Interim Transit Director, Gainesville, FL..   466
    Cunha, Manuel, Jr., President, Nisei Farmers League..........  1353
    Denver Transportation Projects...............................   495
    Douglas, Garry F., President and CEO of Plattsburg-North 
      Country Chamber of Commerce, New York....................336, 338
    Easter Seals (Project Action--Accessible Community 
      Transportation In Our Nation)..............................   691
    East/West Light Rail Line....................................   555
    Electric Shuttle Facility/Intermodal Station Project.........   469
    Electric Vehicle Association of the Americas.................  1424
    English, Hon. Phil, Representative from PA...................  1073
    Fossella, Hon. Vito J., Representative from NY.............399, 402
    Fowler, Hon. Tillie K., Representative from FL.............406, 409
    Funding Priorities for the 21st Congressional District of 
      Pennsylvania...............................................  1073
    Gallegly, Hon. Elton, Representative from CA.................  1078
    General Aviation Manufacturers Association (GAMA)............   629
    Georgia Regional Transportation Authority....................   473
    Greater Orlando Aviation Authority...........................   411
    Gunzburger, Suzanne, Chair, Broward County Board of County 
      Commissioners (FL).........................................  1333
    Hilton, Cynthia, Vice President, Institute of Makers of 
      Explosives.................................................  1601
    Hooley, Hon. Darlene, Representative from OR.................  1080
    Illinois Department of Transportation........................  1553
    Institute of Makers of Explosives............................  1601
    Jacksonville Transportation Authority........................   406
    Johnson, David, Executive Director, Federation of Behavioral, 
      Psychological, and Cognitive Sciences....................664, 666
    James, Mayor James, Newark, New Jersey.......................   327
    Kingston, Hon. Jack, Representative from GA..................   473
    Kucinich, Hon. Dennis J., Representative from OH.............  1076
    Lazarus, Howard, Newark Director of Engineering............324, 327
    Lloyd, Alan C., Chairman, California Air Resources Board.....  1353
    Lovelace Respiratory Research Institute......................   708
    Maryland Transportation Projects.............................   479
    Mauderly, Joe L., Vice President, Senior Scientist, and 
      Director of National Environmental Respiratory Center....708, 710
    McCracken, Thomas J., Jr., Chairman, Northeastern Illinois 
      Regional Transportation Authority..........................  1592
    McGovern, Hon. James P., Representative from MA............310, 316
    McHugh, Hon. John M., Representative from NY...............331, 336
    McInnis, John W., President and CEO, Production Technology, 
      Inc......................................................719, 721
    Metropolitan Authority's East Side Access Project............   392
    Mica, Hon. John L., Representative from FL...................   451
    Michigan Projects............................................   489
    Mobility Needs in Gainesville Florida........................   466
    Morella, Hon. Constance, Representative from MD............479, 482
    National Air Traffic Controllers Association (NATCA).........   655
    Neal, Hon. Richard E., Representative from MA................   333
    New Jersey Transportation Issues.............................   383
    New York State Department of Transportation..................  1474
    Pallone, Jon. Frank, Jr., Representative from NJ.............  1086
    Patrick, Barbara, Chair, CCOS Policy Committee...............  1353
    Pelosi, Jon. Nancy, Representative from CA...................  1090
    Production Technology, Inc., Arlington VA....................   719
    Professional Airways Systems Specialists (PASS)..............   645
    Ranzieri, Andrew, Chairman, CCOS Technical Committee.........  1353
    Raup, John D., Assistant to the President for Community and 
      Government Relations, Colonial Williamsburg Foundation...685, 687
    Reheis, Catherine H., Management Coordinator, Western States 
      Petroleum Association......................................  1353
    Ross, Catherine L., Executive Officer, Georgia Regional 
      Transportation Authority.................................473, 475
    Second District of MA........................................   333
    Sierra Club Ohio Chapter Energy Committee....................  1642
    Staten Island Transportation Issues..........................   399
    Stupak, Hon. Bart, Representative from MI..................489, 491
    Taylor, Charles W., President, Financial Services Inc........  1576
    Terry, Lynn, Deputy Executive Officer, California Resources 
      Board......................................................  1353
    Transportation Infrastructure, City of Newark, NJ............   324
    Transportation Issues in 3d District of MA...................   316
    Transportation Needs in Central Florida......................   451
    Tren Urbano, San Juan, Puerto Rico...........................   375
National Highway Traffic Safety Administration:
    Adams, John H., President, Natural Resources Defense Council.  1270
    Air Bag and Seat Belt Safety Campaign........................   796
    Alliance of Automobile Manufacturers.........................   764
    Alliance to Save Energy......................................   916
    American Council for an Energy Efficient Economy (ACEEE).....   924
    American Recreation Coalition................................   849
    Aylward, David, Executive Director, ComCARE Alliance.......779, 785
    Balbus, John M., Member, Board of Directors, Physicians for 
      Social Responsibility......................................   946
    Ball, Rev. Jim, Executive Director, Evangelical Environmental 
      Network..................................................863, 865
    California Fuel Cell Partnership.............................  1262
    Camp, Louis W., Chairman, Safety Policy Committee and 
      Director of Automotive Safety, Ford Motor Co. (Alliance of 
      Automobile Manufacturers)................................764, 767
    Coalition for Vehicle Choice.................................   819
    Coalition on the Environment and Jewish Life.................   924
    Committee for a Constructive Tomorrow........................   856
    Communications for Coordinated Assistance and Response to 
      Emergencies (ComCARE Alliance).............................   779
    Competitive Enterprise Institute.............................   870
    Crandall, Derrick A., President, American Recreation 
      Coalition................................................849, 851
    Crandall, Robert, Brookings Institute........................  1215
    DeCicco, John M., Senior Associate, ACEEE..................924, 926
    Dewey, Janet, Executive Director, Air Bag & Seat Belt Safety 
      Campaign.................................................796, 798
    Environmental and Energy Study Institute.....................  1267
    Evangelical Environmental Network............................   863
    Ford, Ned, Chair, Sierra Club Ohio Chapter Energy Committee..  1642
    Friends of the Earth.........................................   909
    Graham, John, Professor and Director, Harvard Center for Risk 
      Analysis...................................................  1213
    Hauter, Wenonah, Director, Critical Mass Energy Project....956, 991
    Hirsch, David, Transportation Policy Coordinator...........909, 911
    Howell, Doug, Transportation Director, EESI..................  1267
    Hurley, Charles A., Executive Director, Public Affairs, 
      National Safety Council....................................   773
    Insurance Institute for Highway Safety.......................   805
    Jacobs, Mark X., Director, Coalition on the Environment and 
      Jewish Life..............................................934, 936
    Kazman, Sam, General Counsel, Competitive Enterprise 
      Institute................................................870, 872
    Knollenberg, Hon. Joe, Representative from MI................  1111
    Lentz, Catherine, Project Leader, CA Fuel Cell Partnership...  1262
    Mesnikoff, Ann R., Washington Representative, Global Warming 
      and Energy Program, Sierra Club..........................828, 830
    Mohr, Noam, Global Warming Associate, U.S. Public Interest 
      Groups.....................................................   998
    National Safety Council......................................   773
    Nemtzow, David, President, Alliance to Save Energy.........916, 918
    O'Neill, Brian, President, Insurance Institute for Highway 
      Safety...................................................805, 807
    Parents for Safer Air Bags...................................  1616
    Parker, Bruce H., Vice Chair and Energy Chair, Sierra Club.838, 840
    Physicians for Social Responsibility.........................   946
    Public Citizen...............................................   956
    Rebollo, Robyn, Shenandoah Preservation League...............   844
    Ris, Howard, Executive Director, Union of Concerned 
      Scientists.................................................  1270
    Rothbard, David, President, Committee for a Constructive 
      Tomorrow...................................................   856
    Sanders, Robert, Parents for Safer Air Bags..................  1616
    Shenandoah Preservation League...............................   844
    Sierra Club..................................................   828
    Sierra Club (OH Chapter Energy Committee)....................  1642
    Sierra Club (VA Chapter).....................................   838
    Sirico, Rev. Robert, President, Acton Institute for the Study 
      of Religion and Liberty....................................   858
    Small Business Survival Committee............................   901
    Steed, Diane K., President, Coalition for Vehicle Choice...819, 821
    Sundergrill, Ron, Washington Representative for Energy...1025, 1027
    Tauzin, Hon. W.J. ``Billy,'' Representative from LA..........   780
    Union of Concerned Scientists............................1025, 1270
    University of Miami School of Medicine.......................  1306
    U.S. Public Interest Research Group Education Fund...........   998
    The William Lehman Injury Research Center....................  1306
    Wysocki, Christopher, President, Small Business Survival 
      Committee..................................................   901
Research and Special Programs Administration:
    Interstate Natural Gas Association of America................  1564

                                <all>

</pre></body></html>
